<html>
<title> - [H.A.S.C. No. 112-88]THE CURRENT STATUS AND FUTURE DIRECTION FOR U.S. NUCLEAR WEAPONS POLICY AND POSTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 112-88]

 
THE CURRENT STATUS AND FUTURE DIRECTION FOR U.S. NUCLEAR WEAPONS POLICY 
                              AND POSTURE

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 2, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
71-527                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5b2a5ba95b6a0a6a1bdb0b9a5fbb6bab8fb">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                Tim Morrison, Professional Staff Member
                 Drew Walter, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, November 2, 2011, The Current Status and Future 
  Direction for U.S. Nuclear Weapons Policy and Posture..........     1

Appendix:

Wednesday, November 2, 2011......................................    47
                              ----------                              

                      WEDNESDAY, NOVEMBER 2, 2011
THE CURRENT STATUS AND FUTURE DIRECTION FOR U.S. NUCLEAR WEAPONS POLICY 
                              AND POSTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     5
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, U.S. Department of Energy.............    12
Kehler, Gen C. Robert, USAF, Commander, United States Strategic 
  Command........................................................     9
Miller, Hon. James N., Principal Deputy Under Secretary of 
  Defense for Policy, U.S. Department of Defense.................     7
Tauscher, Hon. Ellen O., Under Secretary for Arms Control and 
  International Security, U.S. Department of State...............    11

                                APPENDIX

Prepared Statements:

    D'Agostino, Hon. Thomas P....................................    84
    Kehler, Gen C. Robert........................................    70
    Miller, Hon. James N.........................................    60
    Sanchez, Hon. Loretta........................................    57
    Tauscher, Hon. Ellen O.......................................    80
    Turner, Hon. Michael.........................................    51

Documents Submitted for the Record:

    All DOE Current Directives--11/17/11.........................    98
    Memorandum of Agreement Between the Department of Defense and 
      the Department of Energy Concerning Modernization of the 
      U.S. Nuclear Infrastructure................................    93

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................   127

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................   169
    Dr. Fleming..................................................   171
    Mr. Franks...................................................   166
    Mr. Lamborn..................................................   167
    Ms. Sanchez..................................................   159
    Mr. Scott....................................................   174
    Mr. Turner...................................................   131
THE CURRENT STATUS AND FUTURE DIRECTION FOR U.S. NUCLEAR WEAPONS POLICY 
                              AND POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                       Washington, DC, Wednesday, November 2, 2011.
    The subcommittee met, pursuant to call, at 3:37 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. I call to order the subcommittee. Good 
afternoon and welcome everyone to today's hearing on ``The 
Current Status and Future Direction for U.S. Nuclear Weapons 
Policy and Posture.''
    We have here today an all-star panel of government 
witnesses. While they need no introduction, I will do an 
introduction for those of you who are perhaps on C-SPAN. We 
have the Honorable James N. Miller, Principal Deputy Under 
Secretary of Defense for Policy at the U.S. Department of 
Defense; General C. Robert Kehler, U.S. Air Force, U.S. 
Strategic Command; the Honorable Ellen Tauscher, the Under 
Secretary of State for Arms Control and International Security 
at the U.S. Department of State.
    We are glad to see you here today, and I must acknowledge 
Ellen, of course, as the past chair here and she--well, I 
served as ranking member. I can tell you that not only did we 
work in a great bipartisan basis, but I count Ellen Tauscher to 
be one of my mentors, and I greatly appreciate the help that 
you provided me when you served as chair of the committee.
    And then we have the Honorable Thomas D'Agostino, 
Administrator of the National Nuclear Security Administration 
at the U.S. Department of Energy.
    The administration has undertaken a series of ambitious 
``projects'' regarding U.S. nuclear policy and posture, and the 
Congress has a significant role to play here as a co-equal 
branch of government entrusted by Article I, Section 8 of the 
Constitution, with responsibility to ``raise and support armies 
. . . provide and maintain a Navy . . .'' and, under Article I, 
Section 9, to pay for those actions of the government Congress 
deems prudent.
    And these ``projects'' that are currently pending with the 
administration are the U.S. nuclear force reductions under the 
New START [Strategic Arms Reduction Treaty] Treaty and the 
associated Section 1251 Plan, which provides for the 
modernization of the U.S. nuclear deterrent, including the 
triad of nuclear delivery systems, nuclear warheads, and the 
infrastructure that supports them; the so-called Nuclear 
Posture Review Implementation Study or ``mini-NPR,'' which we 
understand is intended to provide the President with options, 
possibly for future reductions in U.S. nuclear forces; and 
NATO's [North Atlantic Treaty Organization] Deterrence and 
Defense Posture Review, or DDPR, which will likely make 
recommendations regarding U.S. nuclear weapons in Europe.
    As the witnesses know, the House of Representatives in the 
Fiscal Year 2012 National Defense Authorization Act, NDAA, 
exercised its constitutional responsibilities for supporting 
the Armed Forces--and stewardship of taxpayers' resources--to 
pass a variety of provisions regarding these administration 
projects. In reviewing Dr. Miller's testimony, I see that he is 
prepared to discuss these NDAA provisions in detail, and we 
certainly look forward to that.
    Regarding the modernization program, it is at the heart of 
the agreement that led to ratification of the New START Treaty. 
Let me quote from Secretary Gates in his testimony before the 
Armed Services Committee last June.
    He said, ``Frankly, and just basically realistically, I see 
this treaty as a vehicle to finally be able to get what we need 
in the way of modernization that we have been unable to get 
otherwise.''
    These are powerful words, and they effectively show what I 
think all the witnesses understand: that New START and nuclear 
modernization are a package deal.
    Indeed, the New START Resolution of Ratification that was 
passed by the Senate makes it clear that in the absence of full 
funding for the modernization program, the President needs to 
explain to the Congress whether it is still in the interests of 
the United States to remain party to the agreement.
    I quote from condition nine of the resolution: it says, 
``If appropriations are enacted that fail to meet the resource 
requirements set forth in the President's 10 year [Section 
1251] plan . . . the President shall submit to Congress . . . a 
report detailing . . . whether and why, in the changed 
circumstances brought about by the resource shortfall, it 
remains in the national interest of the United States to remain 
a Party to the New START Treaty.'' I am pleased the President 
followed through on his commitment to request the funds for 
modernization of the nuclear deterrent pursuant to his revised 
Section 1251 Plan.
    I am, however, concerned that the administration did not 
request an anomaly for the nuclear modernization program for 
this first continued resolution that expires on the 18th of 
this month. In other words, the administration asked for the 
dollars in the budget, but when it comes to the issue of 
actually funding that, the administration did not ask for, in 
the continuing resolution, an anomaly that would have preserved 
that funding, the short-term CR [continuing resolution].
    As we are now heading toward a second CR, possibly until 
the end of this year, it will be telling to me as to whether or 
not the administration requests an anomaly for NNSA [National 
Nuclear Security Administration] Weapons Activities this time 
around.
    Likewise, I am deeply troubled that your written testimony 
for today, Mr. D'Agostino, appears to us to have been watered 
down by the White House Office of Management and Budget from 
its initially strong statement of complete support for the 
President's full budget request for Weapons Activities, to what 
can be considered a tepid statement of support for some level 
of modernization funding.
    One would think it would be relatively easy for 
administration officials to state support for the President's 
full budget request.
    General Kehler, I understand that you have been working 
with DOD [Department of Defense] and OMB [Office of Management 
and Budget] to finalize a letter regarding the proposed cuts to 
Weapons Activities. I wanted to express my interest in hearing 
from you directly, and Admiral Winnefeld, the senior military 
leadership for nuclear weapons on this issue.
    I am not certain why the OMB cannot support the President's 
budget request for fiscal year 2012, but I intend to ask each 
of the witnesses whether or not they would recommend to the 
President an anomaly for NNSA in the event of another CR, and 
whether the continued funding of the nuclear modernization 
program in fiscal year 2013, pursuant to the current Section 
1251 Plan, should be supported.
    The answer to the second question should be an easy ``yes'' 
because, as the witnesses know, in a letter to several Senators 
in December of last year--while working to secure a 
ratification of the New START Treaty--the President pledged to 
support the nuclear modernization program for as long as he is 
in office.
    I am, however, pleased that the Department of Defense is 
working hard to assist in securing this funding. Of course, a 
lot of this funding is the Department of Defense's own money. 
As the ``Memorandum of Agreement between the Department of 
Defense and the Department of Energy Concerning Modernization 
of the U.S. Nuclear Infrastructure'' makes clear, in May 2010, 
DOD committed to invest $5.7 billion of its own budgetary 
authority in NNSA's modernization program, with an additional 
$2.6 billion promised since then.
    Now, these funds now must go to that purpose and not to 
other parochial purposes, like local water infrastructure 
projects, which we see as a threat to some of this continued 
funding.
    Now, this document, the ``Memorandum of Agreement between 
the Department of Defense and Department of Energy Concerning 
Modernization of the U.S. Nuclear Infrastructure,'' kind of a 
long title, is marked ``For Official Use Only'' and, therefore, 
I hesitate to put it as part of the unclassified record of this 
hearing.
    I am going to ask Dr. Miller and Mr. D'Agostino if your 
staff will work with our committee staff concerning what 
portion of this document is sensitive and what needs to be 
redacted so that we can put in an unclassified version as part 
of the record.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Turner. Regarding the NPR Implementation Study, I am 
anxious to learn the process being followed for the study, and 
the policy considerations and force structure options that are 
under review.
    While I am aware that many previous administrations have 
put their imprint on these matters, I am not aware of any 
previous administration that has stated the answer to its 
review before conducting or completing it.
    In this case, the predetermined answer appears to be that 
further reductions are being considered and may be made. Let's 
look at the record of statements from administration officials 
about this study.
    From the 2010 Nuclear Posture Review: ``The President has 
directed a review of potential future reductions in U.S. 
nuclear weapons below New START levels.''
    President Obama's National Security Advisor, Tom Donilon, 
at the Carnegie Endowment in March of this year stated, ``We're 
making preparations for the next round of nuclear reductions.''
    Gary Samore, the White House coordinator for Arms Control 
and WMD [weapons of mass destruction] Terrorism in an interview 
in May stated, ``We'll need to do a strategic review of what 
our first requirements are and then, based on that, the 
President will have options available for additional reductions 
. . . there may be parallel steps that both sides could take or 
even unilateral steps the U.S. could take.''
    Now, let me say again, his quote includes, ``unilateral 
steps the U.S. could take.'' Now, I am curious as to how this 
could square--a senior White House official--with that of 
Secretary Panetta, who said the following on the October 13th 
committee hearing--Secretary Panetta just said before us--
``With regards to reducing our nuclear arena, I think that is 
an area where I don't think we ought to do that unilaterally--
we ought to do that on the basis of negotiations with the 
Russians and others to make sure we are all walking the same 
path.''
    I agree with Secretary Panetta, partially because I have 
yet to see any dividend from the unilateral steps that we took 
in abandoning, via the NPR, the submarine-launched nuclear 
cruise missile capability or the multiple warhead ICBM 
[intercontinental ballistic missile] capability.
    And, of course, all of this is taking place when the ink on 
the New START Treaty is barely dry, and when data exchanges 
with the Russian Federation reveal that Russia has actually 
increased its deployed nuclear forces since the treaty entered 
into force. Increased.
    What's more, the witness testimony before this subcommittee 
on October 14th from Dr. Mark Schneider, a member of the New 
START Treaty negotiation team, and Mr. Richard Fisher, 
respectively, made clear that ``Russia is modernizing every leg 
of its nuclear triad with new, more advanced systems'' and 
``China is steadily increasing the numbers and capabilities of 
the ballistic missiles it deploys'' and is ``actively working 
to develop a submarine-based nuclear deterrent force, something 
it has never had.'' Yet, the administration reviews are all 
being done to support further U.S. reductions. This is 
concerning.
    Lastly, there is the NATO Deterrence and Defense Posture 
Review that is being discussed with our allies in Europe. 
Recently, as the Chairman of the United States Delegation to 
the NATO Parliamentary Assembly, I was able to discuss this 
issue with our allies at the meeting of the Parliamentary 
Assembly in Bucharest.
    It was clear that many of our allies were deeply concerned 
with the direction that this review may take. For example, some 
NATO members have suggested that geographical relocation would 
be a serious step that the Russians could take to address the 
thousands of tactical nuclear weapons they have deployed on our 
allies' borders.
    Of course, mere relocation of Russian nuclear weapons to 
some point farther east is not a serious step, and is certainly 
no reduction in their disproportionately large stockpile of 
tactical nuclear weapons.
    That is why the Defense and Security Committee of the 
Parliamentary Assembly adopted, unanimously, my proposal to 
make clear that the geographic relocation will not be 
considered a reduction in Russian arms. I note that even the 
Russian delegation did not object to the designation that 
geographical relocation does not constitute a reduction in 
Russian arms.
    I look forward to learning more about the DDPR from our 
witnesses, and finally, I am most concerned that the 
administration may be seeking to amend the NATO-Russia Council 
Charter to create guarantees regarding missile defense. That 
has no support here and it should be a non-starter.
    This is a very important hearing, and I want to reiterate 
my thanks to each of our witnesses for appearing. I will now 
turn to the ranking member of the subcommittee, Ms. Sanchez, 
for her opening statement.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 51.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman. I apologize to you 
for my voice. I am a little under the weather today. I would 
like to join Chairman Turner in welcoming Dr. Miller, General 
Kehler, Under Secretary Tauscher, and Administrator D'Agostino 
for being before us once again. I look forward to hearing about 
the opportunities and the progress in moving beyond a Cold War 
arsenal.
    I would like to know, hopefully, through this hearing what 
our requirements are and how we will implement the policies and 
vision outlined in the Nuclear Posture Review, including how we 
can maintain a strong and reliable deterrent at lower levels, 
and what kind of arsenal we need to address current and 
foreseeable threats and, of course, how do we do that in a 
fiscally responsible manner?
    And at the end of my comments, I will make a comment about 
the controversial NDAA provisions contained in that bill. But 
first, I am pleased that the President is leading the much-
needed efforts to reduce the dangers posed by nuclear weapons 
in this post-war era because, of course, we need to move beyond 
policies and force structure derived from Cold War-era 
requirements and shift to deterrents that protect us today.
    Looking in particular at the threats that are out there--
and there are many--President Obama noted in his Palm Sunday 
speech in Prague in 2009 that ``The existence of thousands of 
nuclear weapons is the most dangerous legacy of the Cold War.'' 
Even with the considerable reductions of the past decades, it 
is still important to remember that the United States and 
Russia still maintain thousands of nuclear weapons.
    Over 95 percent of the nuclear weapons available are in 
those two countries' hands. And so there is a lot of progress 
that can be made in bringing down those levels and ensuring and 
checking and working with each other to ensure that it is a 
safer world.
    In 2009, the National Defense Authorization Act-mandated 
independent Commission on the Strategic Posture of the United 
States--it was led by Secretaries Perry and Schlesinger--
concluded that ``This is a moment of opportunity to revise and 
renew the U.S. nuclear strategy, but also a moment of 
urgency.'' I think we all agree and we have talked off to the 
side, many of us, including the chairman. There is a lot of 
movement going on right now in these times, and it is a time of 
opportunity.
    The two Secretaries noted that ``the nuclear deterrent of 
the United States need not play anything like the central role 
that it did for decades in U.S. military policy and national 
security strategy. But it remains crucial for some important 
problems.''
    And in their 2007 Wall Street Journal op-ed, ``A World Free 
of Nuclear Weapons,'' Secretaries Henry Kissinger, George 
Shultz, William Perry and Senator Sam Nunn recommended ``a 
series of agreed and urgent steps that would lay the groundwork 
for a world free of the nuclear threat.''
    And among those have included, ``Changing the Cold War 
posture of deployed nuclear weapons to . . . reduce the danger 
of an accidental or unauthorized use of a nuclear weapon,'' and 
``Continuing to reduce substantially the size of nuclear forces 
in all states that possess them,'' and ``Eliminating short-
range nuclear weapons designed to be forward-deployed,'' and 
``Initiating a bipartisan process . . . to achieve ratification 
of the Comprehensive Test Ban Treaty.''
    We must also take a hard look at what we need to meet our 
national and our allies' deterrence requirements in light of 
the current and new threats out there. And we also have the 
responsibility to bear in mind the ramifications of the current 
economic crisis, and we must carefully consider what is urgent, 
what can be delayed, and what is no longer necessary.
    Given what the requirements are, we must find ways to make 
smarter investments, and nuclear weapons activities and 
operations are no exception--are no exception. We are going 
through that right now with the ``super committee'' and we have 
to also take a look at this arena. These are important 
oversight decisions and, quite honestly, pretty awesome 
responsibilities for all of us up here and there to take a look 
at.
    So I look forward to discussing what the requirements are 
for our nuclear deterrent, including: how do we size our 
nuclear arsenal to best reflect and address the current 
threats? What further nuclear weapons reductions may be needed 
as a tool to strengthen U.S. and international security and 
stability? Do we need, and can we afford, to sustain the triad 
for the next 70 years; what are the decision points; and what 
considerations impact that decision now? And what are the risks 
and the costs of retaining forward-based nuclear weapons in 
Europe merely as a political symbol if they are no longer a 
unifying element of NATO and a useful military asset? And are 
there other ways to maintain a strong nuclear NATO alliance?
    Third, our committee has had an engaging and serious debate 
on the nuclear policy provisions proposed by the chairman and 
my Republican colleagues during markup of the House-passed 
NDAA.
    There was significant disagreement on these, and for the 
need for legislative action. There are issues that we have to 
revise, revisit, address with the Senate as we finalize our 
bill, and I remain concerned about several of these provisions, 
including their impact on national security and, quite frankly, 
whether they are even constitutional.
    So, public debate on these issues is important. I look 
forward to advancing that debate today, and again, I thank all 
four of you for being before our committee. And with that, Mr. 
Chairman, I yield back.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 57.]
    Mr. Turner. Thank you. I will now turn to our witnesses. 
Before they begin, of course, I would like, if you would, to 
summarize your testimony in the 5-minute period so we can get 
to the issue of questions from Members.
    But also, reminding you of my opening statement, we would 
appreciate if you, in your comments, might incorporate whether 
you would recommend that, in this upcoming continuing 
resolution, that NNSA Weapons Activities receive full funding 
and receive, as you know, an anomaly, and also if you believe 
that the President should, in 2013, continue his commitment of 
full funding for modernization.
    Dr. Miller.

   STATEMENT OF HON. JAMES N. MILLER, PRINCIPAL DEPUTY UNDER 
  SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Dr. Miller. Chairman Turner, Ranking Member Sanchez and 
members of the subcommittee, thank you for the opportunity to 
testify today. I am very pleased to join STRATCOM [United 
States Strategic Command] Commander Bob Kehler, Under Secretary 
Ellen Tauscher, and Administrator D'Agostino.
    The subcommittee asked us to address the ongoing 
administration review of U.S. nuclear planning guidance and 
several additional issues. I would like to summarize key points 
from my written statement and ask that the full statement be 
entered into record. First, I am going to start with some 
numbers for context. The U.S. nuclear arsenal today consists of 
about 5,000 warheads. In addition, we have several thousand 
warheads awaiting dismantlement. Unclassified estimates suggest 
that Russia has 4,000 to 6,500 total nuclear warheads, of which 
2,000 to 4,000 are tactical nuclear warheads.
    China is increasing the size of its nuclear arsenal, but is 
estimated to have only a few hundred nuclear weapons. North 
Korea has tested a plutonium-based weapon design and appears to 
be trying to develop a highly enriched uranium design and Iran 
continues to defy the will of the international community and 
pursue its nuclear ambitions.
    It is in this context that President Obama directed a 
follow-on analysis to implement the 2010 Nuclear Posture 
Review, or NPR. That work, as the chairman and ranking member 
noted, is now under way and we are focused on achieving the 
five objectives described in the Nuclear Posture Review.
    First, preventing nuclear proliferation and nuclear 
terrorism; second, reducing the role of U.S. nuclear weapons in 
U.S. strategy; third, maintaining strategic deterrence and 
stability at reduced nuclear force levels; fourth, 
strengthening regional deterrence and reassuring U.S. allies 
and partners; and fifth, and critically, sustaining a safe, 
secure, and effective nuclear arsenal. We expect this analysis 
to be completed before the end of the calendar year.
    This NPR Implementation Study will be followed by new 
Presidential guidance, and then in succession, the Secretary of 
Defense and Chairman of the Joint Chiefs will then issue more 
detailed planning guidance to the military, and then STRATCOM 
will revise its military plans.
    When complete, our analysis of deterrence requirements will 
also help inform future arms control proposals, as the Under 
Secretary will discuss in more detail, and I might note, as the 
military did and the Department of Defense did as part of the 
Nuclear Posture Review to inform New START treaty negotiations.
    As the chairman noted, in parallel to this administration 
work, NATO is undertaking a Deterrence and Defense Posture 
Review to determine the appropriate mix of nuclear, 
conventional, and missile defense forces that NATO will need to 
deter and defend against threats to the alliance.
    Work is ongoing. We expect it to be complete before spring 
2012, prior to the NATO summit in Chicago. And it is proceeding 
in accordance with the principles that have been central to 
NATO's nuclear posture for decades, including retaining an 
appropriate mix of conventional and nuclear capabilities, 
sharing the risks and burdens of nuclear deterrence, and 
encouraging Russia to better secure and reduce its arsenal of 
non-strategic nuclear weapons.
    The United States is fully engaged in this effort, and I 
want to reiterate that any changes in NATO's nuclear posture 
would only be undertaken as part of a decision by the alliance. 
A critical issue that we face is ensuring funding for the 
nuclear enterprise. When he took office, President Obama made 
reversing the declining budgets for the nuclear complex a top 
priority. And the administration's Section 1251 Report, in 
fact, includes a plan for over $125 billion in spending on 
strategic delivery systems, and about $88 billion for stockpile 
and infrastructure costs over a 10-year period.
    And I would like to thank this subcommittee for supporting 
the administration's budget request for fiscal year 2012. Cuts 
to NNSA funding in the House and Senate appropriations bills 
are a big concern. The President has asked for the resources 
that we need even in a tough fiscal environment. Now we need 
Congress' help. We look forward to working with this committee 
and other Members to that end.
    I also want to touch very briefly on a number of provisions 
of concern in the current version of the NDAA, the Defense 
Authorization Act, as passed by the House, H.R. 1540. And I 
would be pleased to discuss them further after this statement. 
H.R. 1540 would dictate the pace of reductions under New START 
in a way that would bar DOD and DOE [Department of Energy] from 
following the most cost-effective means to implement 
reductions.
    It could preclude DOD from being logistically able to meet 
New START Treaty timelines for reductions. It would divert 
resources from stockpile sustainment in ways that tax the very 
programs that we all want to support, and it would encroach on 
the authorities to set nuclear employment policy that have been 
exercised by every President in the nuclear age.
    In conclusion, sustaining the U.S. nuclear deterrent will 
be the work of many administrations and many Congresses, and we 
believe strongly that it will require sustained bipartisan 
support. And even as we face sustained downward pressure on DOD 
and DOE budgets, we believe we need to sustain a strong 
bipartisan consensus to address these nuclear issues as 
apolitical national security priorities.
    As our work on the NPR Implementation Study continues, we 
welcome vigorous and important debate on these matters of 
national importance, and I appreciate the opportunity to be 
here today and look forward to follow-on conversations, 
including in a classified environment, and look forward to 
working with the committee on these issues.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Miller can be found in the 
Appendix on page 60.]
    Mr. Turner. Thank you.
    General.

  STATEMENT OF GEN C. ROBERT KEHLER, USAF, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Kehler. Thank you, Mr. Chairman, Ranking Member 
Sanchez, members of the subcommittee. I really appreciate you 
inviting me to share my views on strategic nuclear deterrence 
issues, including the implementation of the Nuclear Posture 
Review, New START, and nuclear deterrent force requirements. I, 
too, appreciate the opportunity to join with my colleagues here 
today as well, and would ask that my full statement be accepted 
into the record as well.
    Like Dr. Miller, I think it is useful to place my remarks 
in the context of the April 2010 Nuclear Posture Review, which 
placed the prevention of nuclear terrorism and proliferation at 
the top of the U.S. policy agenda, and described how the United 
States will reduce the role and the numbers of nuclear weapons. 
At the same time, the NPR recognized as long as nuclear weapons 
exist, the United States must maintain a safe, secure, and 
effective nuclear arsenal to maintain strategic stability with 
other nuclear powers, deter potential adversaries, and reassure 
our allies and partners of our security commitments to them.
    The United States Strategic Command is assigned several 
important roles in executing the Nation's nuclear strategy, as 
it was described in the NPR. First, we are responsible for 
synchronizing planning for DOD combating weapons of mass 
destruction efforts, in coordination with the other combatant 
commands, the services, and appropriate U.S. Government 
agencies.
    Second, our men and women operate the Nation's strategic 
nuclear deterrent forces 24 hours a day, 365 days a year, as 
directed by the President. And third, we are responsible with 
providing the President with credible response options to deter 
attack and to achieve national security objectives should 
deterrence fail.
    We do so mindful that deterrence is no longer a one-size-
fits-all proposition, that the Nation's deterrence approaches 
must be tailored to today's global environment, and that the 
Nation's deterrence toolkit includes capabilities beyond 
nuclear weapons. In short, these demands drive our strategy 
and, in turn, our nuclear requirements and employment planning.
    As directed in the Nuclear Posture Review, we are now 
working with the Office of the Secretary of Defense, the Joint 
Staff, and the services to inform the review of the nuclear 
weapons employment guidance that STRATCOM receives from the 
President, the Secretary of Defense, and the Chairman of the 
Joint Chiefs of Staff.
    STRATCOM plays a significant role in analyzing how the 
deployment planning guidance drives nuclear force requirements 
and force structures, and we are playing such a role in the 
strategic requirements study. We are supporting the study by 
providing military advice regarding potential changes in 
employment guidance consistent with the NPR, and we are 
providing analysis and advice on the force structuring and the 
force posture required to meet our strategic needs.
    As you know, STRATCOM played a similar role providing 
analysis and advice to the team that developed the U.S. New 
START negotiating position. We have a little more than 6 years 
to comply with treaty limits, so we are also working closely 
with OSD [Office of the Secretary of Defense], the Joint Staff 
and the services to determine how to implement the treaty 
provisions safely, securely, and efficiently, what resources 
are required, if any, to implement the eventual force structure 
decisions, and how best to phase and synchronize the 
implementation strategy.
    The NPR validated the continuing need for the triad, and 
the 1251 Report outlined the necessary sustainment and 
modernization plans, including requirements and timelines. 
These plans are essential to maintaining long-term confidence 
in our nuclear deterrent capabilities. Unfortunately, the 
nuclear enterprise simultaneously faces significant 
recapitalization challenges and extraordinary fiscal pressures.
    But in my view as the combatant commander responsible for 
the nuclear deterrent force, for our Nation's security, we must 
invest in these forces and the highly specialized enterprise 
that supports them. This includes completing our nuclear weapon 
life extensions, sustaining and beginning the phased 
modernization of our delivery platforms, conducting scientific 
surveillance of the stockpile, eliminating unneeded weapons, 
and positioning for further reductions that may be directed.
    Mr. Chairman, STRATCOM is moving forward to implement the 
New START and NPR effectively, while maintaining our focus on 
ensuring a safe, secure, and effective nuclear deterrent force 
today and for the long term.
    Thank you again for this opportunity, and thanks to you and 
the committee for your interest and support. I look forward to 
answering your questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 70.]
    Mr. Turner. Thank you. Under Secretary Tauscher.

 STATEMENT OF HON. ELLEN O. TAUSCHER, UNDER SECRETARY FOR ARMS 
  CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF STATE

    Secretary Tauscher. Chairman Turner and Ranking Member 
Sanchez, members of the subcommittee, I want to thank you for 
this opportunity to testify on the future direction of U.S. 
nuclear weapons policy and posture.
    I am really happy to appear before your subcommittee, which 
provided me the honor of working side by side with many of you 
over seven terms in the House. I am equally proud to be sitting 
next to my esteemed interagency colleagues and testifying on 
the Obama administration's nuclear policies.
    I will focus my initial marks on two areas where State is 
playing a major role. The ongoing Deterrence and Defense 
Posture Review, or DDPR, in NATO, and the preparations, 
process, and expectations for future arms control efforts with 
Russia and other countries. As outlined 2 years ago by 
President Obama in Prague, the administration is committed to 
continuing a step-by-step process to increase U.S. security by 
reducing nuclear weapons worldwide. That effort includes the 
pursuit of a future agreement with Russia for reductions in all 
categories of nuclear weapons: strategic, non-strategic, 
deployed, and non-deployed.
    President Obama is committed to seeking to initiate 
negotiations to address the disparity between the non-strategic 
nuclear stockpiles of Russia and the United States, and to 
secure and reduce non-strategic nuclear weapons in a verifiable 
manner. The key principles that Secretary Clinton outlined at 
the 2010 NATO Foreign Ministerial meeting in Tallinn will guide 
our approach.
    We aim to show strong Allied support for the President's 
Prague vision and underscore our common view, as the Alliance 
agreed at the November 2010 Lisbon summit, that NATO will 
remain a nuclear alliance as long as nuclear weapons exist.
    At Lisbon, the Alliance reaffirmed that the strategic 
nuclear forces of NATO's nuclear armed member states are the 
``supreme guarantee of the security of the Allies'' and agreed 
that NATO should maintain the broadest possible level of 
burden-sharing on nuclear matters.
    NATO allies further agreed to seek to create the conditions 
for future nuclear reductions, and noted that the Alliance 
should seek Russia's agreement to increase the transparency of 
its nuclear weapons in Europe and to relocate those weapons 
away from the territories of NATO members. We are committed to 
consulting closely with allies and making decisions by 
consensus on NATO's nuclear deterrent.
    The DDPR is examining NATO's overall posture in deterring 
and defending against the full range of threats to the 
Alliance. The review is to identify the appropriate mix of 
conventional, nuclear, and missile defense capabilities that 
NATO needs to respond effectively to 21st century security 
challenges. The review also aims to strengthen deterrence as 
part of our commitment to Allied security. The goal is to 
complete the review for the May 2012 NATO summit that President 
Obama will host in Chicago.
    The DDPR also provides us an important opportunity to 
consult with allies about nuclear deterrence in future Russian 
nuclear talks. Those consultations will inform our 
consideration in the next steps with Russia on nuclear 
reductions. As a next step in our bilateral dialogue with 
Russia, we seek to conduct a broad policy discussion on the 
various considerations that affect strategic stability.
    We also hope to deepen this engagement to discuss key 
concepts in terminology which will become relevant as we 
prepare to discuss future reductions in strategic and non-
strategic nuclear weapons, including both deployed and non-
deployed weapons. We also would like to increase transparency 
on a reciprocal basis with Russia. We are thinking through how 
such transparency measures might be implemented, and have 
consulted with our allies through the DDPR.
    I am happy to report that implementation on the New START 
Treaty is proceeding smoothly since its entry into force on 
February 5th. The New START Treaty places equal arms limits on 
both sides, limits that are significantly lower than the levels 
provided for in the earlier START treaty and the Moscow Treaty.
    The New START Treaty provides us confidence that, as Russia 
modernizes its strategic forces, Russian force levels will not 
exceed the treaty limits 7 years after entering into force and 
continuing for the remainder of the treaty's duration. The New 
START Treaty contributes to our security not only through its 
limits, but also through its strong verification regime.
    The treaty provides us greater certainty about the 
composition of Russia's forces. This verification regime 
provides information and access that we would otherwise lack. 
Without the New START Treaty, our inspectors would not be able 
to visit Russian strategic weapons bases. To date, we have 
conducted 13 onsite inspections inside Russia. New START's 
verification regime enhances predictability and stability with 
the U.S.-Russian nuclear relationship, and reduces the risk of 
miscalculation, misunderstanding, and mistrust.
    Mr. Chairman, Ranking Member, I look forward to answering 
any of your questions and, once again, it is an honor and a 
privilege to be here.
    [The prepared statement of Secretary Tauscher can be found 
in the Appendix on page 80.]
    Mr. Turner. Thank you.
    Mr. D'Agostino.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
   NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Mr. D'Agostino. Chairman Turner, Ranking Member Sanchez and 
members of the subcommittee, it is a real honor to be here 
today and be able to talk to you about the work we are doing in 
the National Nuclear Security Administration as well as with 
our interagency partners on taking care of this vital mission.
    I also want to thank the committee for your continued 
support of the Department of Energy and the National Nuclear 
Security Administration. We have more than 35,000 men and women 
across our enterprise working to keep the country safe, protect 
our allies, and enhance global security. Your leadership and 
support have made their jobs easier.
    The President has made strengthening the nuclear security 
and the nonproliferation regime one of his top priorities. Over 
the last few years, we have worked tirelessly to establish a 
consensus on U.S. nuclear policy. The commitment of the White 
House has reinvigorated my entire organization. Furthermore, 
President Obama's commitment to reverse a decline in investment 
that took place before he entered office is essential for 
accomplishing our nuclear security work.
    This commitment was reflected in the President's 2012 
budget request for the NNSA and, in fact, it was also reflected 
in his 2011 budget request. This request reflects an integrated 
10-year plan and identifies the funding necessary to ensure the 
safety, security, and effectiveness of our nuclear stockpile, 
modernizing infrastructure we need to execute our mission, and 
revitalize the science, technology, and the engineering base 
that supports the full range of our nuclear security 
activities.
    Investment in these capabilities over the next decade is 
essential, and--I cannot over emphasize this point--it will 
require sustained, multi-year support from future 
administrations and Congress.
    The stability we have gained from the NPR and New START has 
allowed us to plan and use our resources much more effectively. 
We have a comprehensive Stockpile Stewardship and Management 
Plan that is updated annually and provides a long out-year 
review on the stockpile as well as the science, infrastructure, 
and human capital necessary to execute the nuclear 
modernization work and perform the full range of nuclear 
security work.
    I would like to express my concern, however, that this 
sense of stability could be eroded given the uncertainties 
stemming from the reductions Congress is contemplating in the 
fiscal year 2012 budget process. These uncertainties directly 
impact our workforce, our ability to efficiently plan and 
execute our programs and, ultimately, the ability to be 
successful.
    In order to plan and execute an integrated, complicated 
program efficiently, we have developed and received support for 
the 10-year plan outlined in the 1251 Report. However, this 
consensus for nuclear modernization is facing great uncertainty 
in the face of today's fiscal challenges and limitations 
imposed by Congress in the Budget Control Act.
    This consensus is also under attack by some who are 
spreading incorrect cost estimates. By using numbers at 
potentially three or four times higher than what it would 
actually cost to modernize and maintain our stockpile, the 
approach appears to use our current fiscal environment to 
potentially tear up the path that the President and Congress 
have laid out for us.
    The 1251 Report makes clear that the total for the 
Department of Defense and NNSA will cost approximately $200 
billion over the next 10 years, not the $600-plus billion or so 
that some are claiming.
    It is critical to accept the linkage between modernizing 
our current stockpile in order to achieve the policy objective 
of decreasing the number of weapons we have in our stockpile, 
while still ensuring that the deterrent is safe, secure, and 
effective.
    As you know, the United States will continue to have 
nuclear weapons for the foreseeable future, and many of our 
projects are vital to national security. The longer these 
projects are delayed, the more expensive they become. Projects 
like the Uranium Processing Facility and the Chemistry and 
Metallurgy Replacement Facility will allow us to replace aging 
Cold War infrastructure.
    And at the other end of the life cycle of these materials, 
the Mixed Oxide Fuel Fabrication Facility represents a critical 
nonproliferation effort that will result in the elimination of 
enough material for approximately 17,000 nuclear weapons. It is 
the only permanent plutonium disposition method agreed to by 
the United States and Russia, and has been supported by every 
President and Congress since the idea was introduced.
    Our Stockpile Stewardship Program, which allows us to 
assess and certify the stockpile without returning to 
underground testing, has grown increasingly important. Our 
world-class scientific capabilities, for example in modeling 
and simulation, continue to be developed to realize the 
Stockpile Stewardship Program today. And today we actually have 
a greater understanding of how a nuclear weapon behaves than we 
did during the days of testing.
    Investing in a modern 21st century enterprise is not just 
about the stockpile. As the President said in Prague in April 
of 2009, the threat of a terrorist acquiring and using a 
nuclear weapon is the most immediate and extreme threat we 
face.
    The investments we make today help support the full range 
of our nuclear security mission, which includes countering 
nuclear terrorism.
    As part of our nonproliferation work, we are working to 
support the International Atomic Energy Agency and assisting 
many member states around the world to implement their Nuclear 
Non-Proliferation Treaty obligations.
    In our strategic arms control verification work, we are 
leveraging the expertise of our physicists, our engineers, and 
our scientists to advance radiation protection technology and 
equipment, and we are leading the international effort to 
implement more stringent standards for the physical protection 
of nuclear material around the world.
    Our engineers are also working to complete the design work 
on the nuclear reactor plant for the Ohio-class replacement 
submarine. This effort is a continuation of the longstanding 
unique role the NNSA serves in partnership with the United 
States Navy.
    I would like to take a moment, a brief moment, to answer 
your question about the anomaly, Mr. Chairman. The anomalies 
depend of course if they are--we anticipate a continuing 
resolution coming, we know the day is approaching us, 18 
November. But the decision of whether to pursue an anomaly 
involves a couple of factors. One is the length of the anomaly. 
At this point right now, we don't know if there will be an 
anomaly, first of all, and if there is a continuing resolution, 
how long it will be. A short-term continuing resolution coupled 
with the second factor, which is, what kind of resources do we 
currently have available to continue our programs without 
impact to the overall direction that we have--those two factors 
are key elements in deciding whether the administration pursues 
an anomaly. We are working very closely with the White House on 
this question and as we get closer to the date, we will be in a 
position to make a recommendation on this particular point. It 
really depends on those two particular factors of which right 
now, I don't have all the data, particularly on the first one, 
the length of the continuing resolution.
    That concludes my statement, sir.
    [The prepared statement of Mr. D'Agostino can be found in 
the Appendix on page 84.]
    Mr. Turner. Thank you. I just, to follow on your comment on 
the anomaly. I certainly understand your answer and it 
certainly is a very practical and reasonable statement of, 
basically, if you need the money you would ask for it, and if 
you have other reasons, other ways to--you have the money or it 
is not needed in the short term, that you might not ask.
    But I would like you to consider, and all of our witnesses 
to consider, the message that it sends. Because at the same 
time the House is looking at cutting, if the anomaly is not 
requested, it looks as if it is not necessary for the House to 
fund, and so that might be your third environmental context 
that you might want to put in, as far as your request for 
anomaly, because it doesn't look like the administration is 
doing an ``I want it'' in one hand, and a wink in the other, by 
not asking for the anomaly. So if you would take that into 
consideration, and all of you, as you look to recommendations 
of the anomaly, I would appreciate that.
    Because we have so many Members in attendance we want to 
make certain that we have an ability for people to ask 
questions. I am going to ask three questions for my start, two 
of which, the first two, are relatively easy because they are 
commercials. I am going to give an opportunity for each of you 
to give a commercial for us.
    Mr. D'Agostino, you begin, actually, in your statement, 
addressing what my first concern is of the first of those two 
where I am asking for a commercial. And that is, the issue of 
the statements that have been circulating that the U.S. is 
going to spend over $700 billion of nuclear weapons and related 
programs over the next 10 years. Mr. Markey circulated a letter 
signed by 62 Members that said that. It was followed on by The 
New York Times in an editorial that said the number is $600 
billion over the next 10 years.
    You, in your statement before us just now, said it is 
slightly over $200 billion that is going to be spent. So I 
would like each of you to respond to that, the issue of the 
actual cost.
    The second part of that is, is the reason why that that is 
coming about is because we are under these budgetary pressures? 
I think that this false assumption that with budgetary 
pressures that if there are reductions, there is this great 
savings that is going to occur. And I try to tell people that, 
you know for example, if this room was a nuclear storage 
facility and you had a nuclear weapon in it, and you only had 
1, versus if you had 20, you are not going to have less people 
outside the door. And, similarly, I know, Mr. D'Agostino, you 
tell us about the room down the hall where we have scientists 
charged with knowledge with respect to nuclear weapons, and 
knowledge is not something that has a reduced demand based upon 
the numbers of weapons that we have deployed.
    So my first question is, would you all speak--and Under 
Secretary Tauscher, you are welcome to chime in on this one 
also if you would like, but it is not directed at you--to the 
issue of that we are not spending $700 or $600 billion, that it 
is slightly over $200 billion over the next 10 years. And the 
second aspect is that policy, not budgetary pressures, should 
be the focus of reductions, and that the savings are somewhat 
elusive, they are not as they are being expressed in these 
calls for reductions. If you might give us some of your wisdom 
on that, I would appreciate it.
    We will start with Dr. Miller.
    Dr. Miller. Mr. Chairman, as you know, the Section 1251 
Report that was submitted by the administration included our 
best estimate of the total costs of sustaining and modernizing 
the nuclear enterprise and the delivery systems from fiscal 
year 2012 through fiscal year 2021. That estimate was $125.8 
billion for the delivery systems and about $88 billion for the 
NNSA-related costs.
    And my math suggests that that is, as the administrator 
said, a little over $200 billion over that period--close to 
$214 billion.
    I have had an opportunity to look at some of the materials 
that were referenced in the cost estimates just before coming 
over here and I, without giving this more time than it 
deserves, suffice it to say there was double counting and some 
rather curious arithmetic involved.
    Mr. Turner. Do you wish to comment with respect to the 
issue of savings? Because I think that people really do look at 
this as a ``take a number and divide by how ever many you 
reduce them, and you have those savings,'' and that is not 
exactly the case.
    Dr. Miller. Yes, I would like to comment, thank you.
    A strategic approach to the budget overall does not involve 
taking an equal percentage from every element of the budget, 
and the Department of Defense certainly is committed to taking 
a strategic--in a different sense than strategic weapons, now, 
but a thoughtful approach, a strategy-driven approach to the 
reductions. We are looking to take north of $450 billion out of 
the defense program over the next decade and as a result of 
that, as Secretary Gates had said and Secretary Panetta has 
said since, essentially everything is on the table; that 
doesn't mean everything should get the same treatment.
    We will look hard at our own spending within nuclear forces 
to ask where savings could be gained while still producing the 
same capabilities that we need, just as we are looking hard in 
other areas. And I know that we will owe another Section 1251 
Report with the new budget.
    And the one constant I can promise in that is that we will 
continue to propose what we believe is necessary for sustaining 
a safe, secure, and effective nuclear deterrent, including the 
delivery systems and including the infrastructure, science, and 
technology and work on weapons that is required.
    Mr. Turner. Thank you.
    General Kehler.
    General Kehler. Mr. Chairman, I would agree with both those 
comments. I, too, agree with the 1251 Report and the $200-plus 
billion that it documented for the need to both sustain and 
begin the modernization of the nuclear enterprise over the next 
10 years.
    The second point--and I would agree here, totally, with Dr. 
Miller as well--given the magnitude of the first round of 
budget cuts that the Department is dealing with, and certainly 
that the combatant commanders have been asked to help the 
services deal with, we are looking for every possible place 
that we can find that we can be more efficient while we 
maintain our military capability. I would say that we have not 
been immune from that look, nor should we have been immune from 
that look. I think that Congressman Sanchez said this, though, 
in her opening remarks, that there are decision points that are 
along the way here that do give us some flexibility in terms of 
how we ultimately decide to modernize and how we can go 
forward.
    So I do think that, in addition to looking for every place 
we can save money, I also agree with you, in some places, this 
is not a one-for-one, ``take something out and you 
automatically save some X amount of money.'' It is a more 
complicated answer than that. But there are also some key 
decision points that are coming along, where I think that there 
is still some flexibility to do some shaping.
    Mr. Turner. Mr. D'Agostino, would you like to embellish 
your comment you made in your statement?
    Mr. D'Agostino. I would agree with Dr. Miller with respect 
to the math and the numbers that the administration put out in 
its 1251 Report. Regarding your second question, I would like 
to add a little bit if I could.
    I think it is important to recognize that what we have is a 
capability-based enterprise. This is a nuclear security 
enterprise. It is not a nuclear weapons enterprise; it is a 
nuclear security enterprise. It is an enterprise that, of 
course, takes care of the deterrent--because the President 
said, as long as weapons exist, we are going to take care of 
them to make sure they are safe, secure, and effective.
    But it is an enterprise that does so much more. As an 
enterprise, it does nuclear nonproliferation work in over 100 
countries around the world with the State Department. It is an 
enterprise that does nuclear counterterrorism work with our 
partners in the Intelligence Community and the Defense 
Department.
    It is an enterprise that does nuclear forensics work, as we 
work with our key allies to make sure that, if material is 
found, we are in a best position to be able to attribute where 
this material came from, and it is an enterprise that does 
nuclear emergency response.
    And nuclear emergency response is something that we 
actually used earlier this year in assisting our Japanese 
colleagues with the Fukushima event. Those assets, those key 
assets, came from the account that Congress authorized and 
appropriates. It is called the Weapons Activities Account. In 
reality, not all of that account, that Weapons Activities 
Account, is work exactly on the nuclear weapon. It provides 
that base capability to address all of these other things.
    One last point, and I will yield back. This enterprise, 
because it is a capability-based enterprise, it can work up and 
take care of a stockpile size. I mean, it is fairly independent 
at low numbers. And this is where we are.
    Jim Miller talked about the number of warheads that we have 
and are active in the stockpile. It is able to take--that 
capability, whether you do one or whether you do more than one, 
you need the same amount of material. And that is the kind of 
enterprise we have.
    This is not a Cold War enterprise, where we can do 
thousands and thousands and thousands of warheads, as we did 
back in the 1960s, where we had over 31,000 warheads. It is 
completely different.
    But I wanted to make--the shift we are making in the NNSA 
and in the administration is to shift the work from a nuclear 
weapons complex to a nuclear security enterprise, to bring in 
those other elements, because those are the elements that the 
President had laid out in the NPR, that we feel would be a key 
national security and global security challenge.
    Mr. Turner. Thank you. And in the second aspect of the 
commercial, we are all in agreement that the nuclear 
modernization needs to go forward. I mean, this committee 
passed in its bill full funding, the administration asked for 
full funding.
    We are all facing now the bills that came out of the Senate 
and the House Energy and Water Appropriations Subcommittees, 
and then that had reductions in funding for nuclear 
modernization. So a question, obviously, that people will have 
is, you know, what is the difference? Is there? What is the 
effect, if the cuts go into place, instead of what we all have 
agreed would be the appropriate level of funding?
    I will start with you, Dr. Miller.
    Dr. Miller. Mr. Chairman, I will answer at a general level, 
and leave the technical details to Administrator D'Agostino.
    At a general level, the first order effects are going to be 
that the NNSA, with the overall level of funding, will be 
forced to make very difficult trades between investing in 
science and technology that is necessary to support the overall 
efforts that the administrator described, and the 
infrastructure that is required to implement those, and to do 
the life extension programs that the Department of Defense is 
focused on. As you look at the level of reductions that have 
been proposed by both the House and the Senate in the 
appropriations, some essential activities will not be 
undertaken.
    If you look within those reductions, at the specifics, we 
have particular concerns for the Department of Defense 
reductions in funding for the B61 Life Extension Program.
    That is a critical weapon system for both our bombers and 
for our dual-capable aircraft, and reductions also in the W78 
Life Extension Program, where there are cascading effects, if 
one program is delayed, the next one is delayed. And again, Mr. 
D'Agostino can give greater details, but one of those effects 
is that, at the end of the day, the United States gets less 
product for more cost because these changes in programs are 
going to drive up costs overall.
    Mr. Turner. General Kehler.
    General Kehler. Mr. Chairman, I would just add that if we 
are referring specifically to the markups dealing with 
Department of Energy and NNSA part of the budget, then I would 
just add that I am very concerned about the impact on life 
extension programs.
    I have a concern for the broader enterprise as well, as the 
administrator suggested, but we have got some near-term issues 
that will impact us in terms of life extension programs for 
aging weapons.
    In a broader context, though, I also have concerns as 
budget reductions are related, either to our efforts to sustain 
the existing force, or our efforts to modernize the existing 
force. And we find ourselves at a point in time where several 
modernization programs have begun.
    It is important for us to continue to sustain this safe, 
secure, and effective deterrent force as we transition this 
time period to future modernization. And, of course, I have 
concerns in both of those areas, in the macro sense, as we 
struggle with budget reductions.
    Mr. Turner. Mr. D'Agostino.
    Mr. D'Agostino. Obviously, we have two bills--one from the 
House, one from the Senate, in both subcommittees; the marks 
are different. The House is down, overall, for the NNSA by 
$1.16 billion. That is out of about the request of $11 billion 
or so. So it is a pretty sizable percentage-wise reduction. The 
Senate reduction is significantly less, $732 million as a 
result of that.
    Focus a little bit on the weapons account, I believe that 
may be where some of your questions come from, but I do want to 
mention nonproliferation, because that has an impact. The 
President has laid out a fairly clear message with respect to 
the desire to secure nuclear material around the world in 4 
years, which, we believe, is absolutely critically important.
    Both bills are marked on the plutonium and uranium 
facilities, about $150 to $200 million. Those reductions are 
going to cause us to look very closely--if they, if we end up, 
in some way, in this region, are going to cause us to have to 
look very closely at both of those facilities.
    It doesn't, because we obviously are authorized and 
appropriated on an annual basis, the 1251 Report makes very 
clear about out-year commitments and requirements to do this.
    It would be difficult to actually run--in fact, I would say 
close to impossible--to run a large construction project 
efficiently if every year we will anticipate having huge deltas 
between House and Senate and the administration requests, 
whether it is President Obama's budget request or whatever 
happens out in the future.
    It is just a horribly inefficient way to deliver a 
construction project. And nobody, frankly, in their right mind 
would run a program this way.
    We will have to take a look at what makes sense, balancing 
what Congress will support in the out-years but, more 
importantly what the requirements are, because the requirements 
are the things that ultimately will take us in the direction 
that we believe the Nation needs to go into. And the President 
has been very clear about his requirements and he has done it 
with two budgets in a row.
    On the life extension area, both the Senate and the House 
took different approaches in the life extension area. 
Essentially, the House largely did not reduce the resources in 
the Directed Stockpile Work account, which is actually the 
account that works on the stockpile itself directly.
    But the Senate took a bit of an aggressive approach. That 
is going to have to get worked out if there is a conference, if 
things don't work out, we are going to wait and see how that 
one looks. But I am with General Kehler on this.
    We have very real needs with respect to the B61 warhead. We 
are looking at it from a strategy standpoint, on it being able 
to address the Nation's needs out in the future. We don't want 
to necessarily disarm by, you know, just attrition, because we 
can't agree.
    We are seeking--we believe this is the right plan, and this 
is why we have it put forward.
    This group has spent a lot of time on Capitol Hill talking 
to folks, both Members and staff, and obviously we are going to 
continue to need to work with you and others to make sure that 
there is clear understanding about what the President has put 
forward in his plan and what the best way to move forward in 
that area.
    It is important also to say that reductions in what we call 
the campaigns--the science campaigns, the computing work--these 
types of reductions themselves, in one area it is cut by $140 
million, in another area it is only cut by $60 million. But 
this is work that directly supports enabling technologies.
    This is the work to make sure these technologies are the 
ones that allow us to certify the stockpile on an annual basis 
without underground testing. Reductions in these areas have a 
direct impact on the President today in the ability to certify 
the stockpile without underground testing. We cannot 
overemphasize that particular point.
    I should probably just state one thing about 
nonproliferation, and then the naval reactors area before I 
stop. Unfortunately, I could probably talk for too long on this 
area.
    Nonproliferation work we have right now, we are deeply 
concerned about our ability to convert research reactors 
worldwide from highly enriched uranium to low-enriched uranium. 
And two, having the resources to buy the long-lead material, 
the casks and containers necessary to move highly enriched 
uranium and plutonium materials from around the world back to 
the United States or back to Russia where it is in a secure 
area.
    We are on the ragged edge, in my opinion, of dropping the--
making it very difficult for us to meet the President's vision 
here. And I don't think that is good for anybody.
    The Naval Reactors Program itself, in both cases, has 
undergone either, depending on how you look at it, $60 million 
or $100 million reduction or so. Those reductions, in many 
cases, foreshadow decisions that the Defense Department has 
already made--decisions on the path forward on the need to 
replace the submarine.
    So, we are responding with a program. This is what this 
does. And what this does is put significant--makes it very 
difficult, in my opinion, to be able to honor those commitments 
that the Defense Department is asking us to do.
    I will stop there. I think I can go longer, but----
    Mr. Turner. I am going to hold the--you guys have given 
such great and excellent answers on those topics, which are 
very important. So, I am going to hold the rest of my questions 
until the second round.
    But before I turn it over to the ranking member, Dr. 
Miller, I have one real quick one for you. In the same vein 
that you were commenting, we all know that those cuts coming 
out of the Energy and Water Appropriations bills affect the 
fact that Secretary Gates transferred $8.3 billion in DOD top 
line budget authority at the NNSA over a 5-year period to help 
the modernization efforts.
    Did you know the Energy and Water Appropriations bills cut 
those modernization efforts while adding money to the 
President's budget request for water projects? What is DOD's 
view of that?
    Dr. Miller. Mr. Chairman, let me say on the record that DOD 
transferred those funds with the expectation and understanding 
that the resources would go to weapons-related activities.
    I think I do not want to get into the question of trying to 
track dollars and proposals as it goes from the administration 
over to the Hill. But clearly, as we look at the future of NNSA 
funding and we look at any possibility of DOD transferring 
additional resources, some of which of the amount you have 
noted have been withheld in DOD. We would want to have an 
understanding that the budget provided by Congress was going to 
be at a level that was, of course, both sufficient but also 
sustainable over time so they can get stability in the program.
    Mr. Turner. Okay.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The current Nuclear Force Modernization Plans call for the 
Navy to spend around $110 billion to build a new fleet of 
nuclear-armed submarines. And the Pentagon estimates that the 
total cost of building and operating the new submarine is going 
to be about $350 billion over its 50-year lifespan.
    And the Air Force also intends to spend about $55 billion 
on procurement of 100 new bombers and an unknown sum on new 
land-based intercontinental ballistic missiles. And 
additionally, the NNSA plans to spend $88 billion over the next 
decade to refurbish existing nuclear warheads and rebuild the 
factories that make key nuclear warhead parts. However, U.S. 
military leaders have stated that our nuclear weapons budget is 
not grounded in a coherent overall strategy.
    Former Vice Chair of the Joint Chief of Staff General 
Cartwright noted in July 2011, ``We haven't really exercised 
the mental gymnastics, the intellectual capital on that, what 
is required for nuclear deterrence, yet . . . I'm pleased that 
it's starting, but I wouldn't be in favor of building too much 
until we had that discussion.'' Now, that was in July of 2011.
    Do you agree with General Cartwright that the U.S. 
shouldn't make procurement commitments until we establish how 
many nuclear weapons we need for deterrence? Dr. Miller.
    Dr. Miller. General Cartwright was involved in the, as we 
began planning for the study that we were talking about 
earlier. And so his comments about thinking hard about the 
requirements for deterrence in the future I think are well 
taken, and they are something that this administration is 
working hard on. We intend to have a conclusion by the end of 
the year.
    At the same time, the requirement to reconsider what is 
needed for deterrence and how to best provide stability, what 
is the best approach for nonproliferation, is something that 
has got to be done on an ongoing basis. And, in fact, Congress 
should expect future administrations to conduct comprehensive 
Nuclear Posture Reviews that address those questions.
    And we can't say that, because the world is going to 
change, therefore we are going to wait until the world 
stabilizes and stops changing in order to make the necessary 
investments in our nuclear weapons infrastructure and delivery 
systems.
    The figures that you cited for the future SSBN, the Ohio-
class replacement, would be consistent--although they are very 
rough estimates at this point, would be consistent with 
something that--not 10-year, not 20-year, not 30-year, but over 
even a longer period of time. And the fact is that the cost of 
these systems are significant.
    The requirement to provide effective deterrence and to have 
stability is critical to this country. And these investments, 
while we are looking at every possible means to save costs, 
these investments are essential enough that they deserve--in my 
view, they deserve to get serious consideration. And if we can 
have a stable approach with bipartisan political support over 
time for a level of investment, we would do the right thing by 
not just this administration, but by future administrations as 
well.
    Ms. Sanchez. General.
    General Kehler. If I may add, I completely agree that our 
force structure and our force posture need to be strategy-
based. And we would argue that every single time the question 
is asked.
    Here is what we know: what we know is that, at present, we 
are still looking to sustain our current triad of strategic 
forces. Even as we are looking at the appropriate mixture in 
there, both to, within the limits of the New START, to sustain 
our military effectiveness, but also to see if we can get some 
fiscal efficiency out of doing that.
    We know that the sustainment programs that are under way 
for those three legs will take those forces to a certain point 
in time. This gets back to your question about decision points. 
What we do know is that, as far as we can see into the future, 
the need for a sea-based leg and the attributes that it brings 
is going to remain.
    And so, the current Ohio submarine has a finite life. We 
don't know exactly what year that is. The Navy probably can't 
draw a specific bright line on the chart and say it is that 
year. But what we know is that risk will go up as life 
increases. And so there will have to be a replacement in place 
at some time, we think in the late 2020s or so.
    That brings it to today to begin research and development, 
given acquisition lead times. So, in my view, it is not 
premature to go forward with research and development for a 
replacement to the Ohio-class submarine, a part of our 
strategic deterrent that we believe is going to be with us for 
a very, very long time.
    That leads to the next one in serial order, which would be 
the bomber, the B-52s, of course, that have been around since 
the early 1960s. The Air Force intends to field a new long-
range strike platform that will be dual-capable, both 
conventional- and nuclear-capable.
    My view is we should leverage that. That is a wise leverage 
point for us. That decision point is here now and, again, 
research and development money is under way.
    That leaves the ICBM, and there is not a decision yet about 
how to go forward. Those analyses of alternatives are under 
way.
    And so I think there are a series of decision points here 
as we go forward. Some we have reached. Some have crossed the 
threshold, I think, of needing to have investment made starting 
today.
    And then there is the part about the warheads that we have 
been discussing here, as well as some of the other pieces that 
go with this; command and control, intelligence, surveillance, 
and reconnaissance, other things that make this a credible 
deterrent.
    Ms. Sanchez. General, my reason for asking the question was 
just to put on the record that, in fact, it is fluid and we 
continue to reassess, and that there are key milestones or 
break points where we have to make a decision. And that it is a 
long lead time to get some of this done.
    But it is a lot of money that we are talking about also. 
That is why we need to continually assess it.
    And it really leads--I don't know if the other two had any 
comment on that. But it really leads to my next question 
about--not my next question, but one that I had in here.
    The whole issue of, if we can decide unilaterally that we 
can reduce the weapons and still be as strong as we need to be. 
Or if we reach a particular point in time in the near future 
where we can actually sit down with the Russians and decide to 
reduce even further, despite or according to or whatever the 
New START. Would that be a smart investment also to leave those 
decision points open also?
    Dr. Miller. Ma'am. Let me answer first, and then I know 
that each of my colleagues is likely to want to add as well.
    The Nuclear Posture Review stated that although precise 
numerical equality or parity is not as important as it might 
have been during the Cold War, that it was still important to 
us that Russia join us as we work to further reductions. And 
indeed, as Under Secretary Tauscher has suggested, our approach 
is to work towards a proposal that would include strategic, 
non-strategic, deployed, and non-deployed.
    The Deterrence and Defense Posture Review is also seeking 
to have Russian involvement with respect to transparency, a 
movement of weapons and reductions as well.
    There is one point that is worth parsing on this, and that 
is, as we look at how to manage the stockpile to support those 
weapons that are deployed as part of our strategic deterrent, 
and that are forward-deployed and forward-deployable as well, 
we do need to take cost into consideration. We need to take 
reasonable planning for both what we call the technical hedge 
and the geopolitical hedge into account.
    The technical hedge is about being prepared to deal with 
any problem or technological issue that arises with a warhead 
or delivery system. And the geopolitical hedge being to be 
prepared for changes in the environment in the future. And we 
need to take those into account.
    But then we need to, in my view, have a stockpile, a 
combined stockpile and infrastructure that is able to support 
those hedges at a reasonable cost. And just by way of example, 
President George W. Bush reduced the stockpile from 10,000 
weapons to 5,000 during his time. It wasn't a negotiated 
change; it was a very sensible change that allowed the 
different scaling for future size of the infrastructure and 
allowed NNSA to plan along the lines that they are now.
    So, those changes, with respect to the stockpile ought to 
be considered in a different light than the changes with 
respect to deployed strategic or with respect to our forward-
deployed or forward-deployable weapons.
    Ms. Sanchez. Thank you, Dr. Miller.
    Anybody else want to chime in?
    Secretary Tauscher. Well, I will very quickly add that, as 
Dr. Miller said, when the Nuclear Posture Review was completed, 
the President directed a review of the nuclear requirements in 
the post-START environment and objectives to consider for 
future reductions. And specifically, our goals with New START 
bilateral negotiations with Russia include reducing non-
strategic tactical nuclear weapons and non-deployed nuclear 
weapons as well as deployed strategic nuclear weapons on ICBMs, 
SLBMs [submarine-launched ballistic missiles], and nuclear-
capable heavy bombers.
    When the President wrote in February and certified to the 
Senate that we would initiate negotiations with the Russian 
Federation, we also said we would consult with our NATO allies. 
And that is part of the consultation that you know is going on 
now.
    And Secretary Clinton also made very clear last year that 
Allies agreed in the NATO new Strategic Concept, which is the 
previous detailed thought pattern, that any further steps on 
U.S. nuclear weapons in Europe must take into account the 
disparity between our stockpiles and the much larger Russian 
stockpiles of non-strategic nuclear weapons.
    So, we have unilateral steps that the previous 
administration took, bilateral steps that this administration 
took. We are talking about strategic, non-strategic, deployed, 
non-deployed. We are talking about consultations with our 
allies. So, as you can see, this as a very turbulent--not 
necessarily in a bad way--but lots of activities going on and 
lots of decision points coming forward based on a lot of 
consultation and a lot of results in the post-New START 
implementation phase.
    So, I think that this is a very energetic area. Obviously, 
it is important that we keep in mind the long-term goal of a 
world without nuclear weapons. But at the same time, what we 
are specifically talking about today is the investment strategy 
that gets us a safe and reliable and effective stockpile in the 
meantime.
    Ms. Sanchez. Thank you, Mr. Chairman. I will yield back 
because I know there are a lot of people waiting.
    Mr. Turner. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you for being here. I want to extend a special 
thanks to Under Secretary Tauscher for being here. I had the 
privilege of sitting with her on committees in the past. It is 
really nice to see you here.
    So, Ms. Tauscher, in the short time I have, you know how 
these things are. I hope you will grant me diplomatic immunity 
here. But everything I say is in the greatest deference.
    Secretary Tauscher. Not until I hear the question.
    Mr. Franks. Okay. All right. Well, here it goes. See, she 
has gone and done it now.
    Ma'am, in your the recent remarks at the Atlantic Council 
you said the following: ``The Obama Administration's approach 
provided more protection sooner against the existing threat, 
using proven systems, and at a lower cost than the previous 
proposal.''
    Now, I understood that the MDA [Missile Defense Agency] is 
developing a new interceptor, the SM-3 [Standard Missile-3] IIB 
for that process, which at this point hasn't been developed 
yet, and a brand-new satellite system, the Precision Tracking 
Space System, about which this committee, of course, has 
already expressed some considerable concerns because of the 
unproven approach regarding technology.
    So, I guess my first diplomatic question is, can you 
explain the statement ``using proven systems'' in connection 
with the EPAA [European Phased Adaptive Approach]? Help me 
understand your understanding of these two European Phased 
Adaptive Approach components?
    Secretary Tauscher. Well, the EPAA is a huge success, 
Congressman. It is not only on station and working, but it is 
using a proven system, as you remember from many years of 
committee testimony.
    The EPAA is based on the SM-3 interceptor, which is an over 
25-year-old Navy rocket that has been fully tested and tested 
with great success. It is both a land-based and a sea-based 
system, as you know--Aegis and Aegis Ashore--and the focus on 
the ``now'' distinguishes our approach from the previously 
proposed system, which focused on a longer-range missile threat 
that has been slower to develop and a system that is still 
under testing, which is the ground-based interceptor.
    We already have the monitoring on station. So, the EPAA is 
now actually working. It is now protecting not only our NATO 
allies, populations, and territories against a proven short-, 
medium-, and intermediate-range threat, but it also protects 
American forward-deployed troops.
    We also have finished all three negotiations with Poland, 
Turkey, and Romania. Actually, the Poland and Turkey agreements 
are in force, and the Romanian agreement is just about to be 
ratified by their parliament.
    So, we have the entire system; it is proposed, it is agreed 
to by our NATO allies. It is the United States contribution as 
a national asset to the NATO system. And we are working to 
NATO-ize the planning and the command and control of that 
system. So, that is pretty much the difference between what was 
proposed and what is now actually on station and protecting our 
NATO allies and forward-based American troops.
    Mr. Franks. Let me shift gears a little bit. Your 
legislative affairs staff was asked to provide the committee 
the basis for the statement ``at a lower cost than the previous 
proposal.'' When could this committee receive that information?
    Secretary Tauscher. I didn't understand that you hadn't 
received it, but I think that we certainly will endeavor to get 
it to you very quickly. The proposal for the EPAA is one that 
you have not only passed through this committee, but you have 
also voted on. So, I am assuming it is something that meets 
with your approval.
    But it is at lower cost than the previous system, not only 
because the previous system was out into the future, but 
because we use systems, including Aegis system, that is a 
multipurpose system. So, it has cost-benefits as opposed to 
systems that just rely on ground-based interceptors.
    Mr. Franks. Thank you.
    Dr. Miller, I am going to try to get through this one here 
quickly, I am about running out of time here. Regarding the 
EPAA, the committee's majority has stated its concerns that, 
with the current budget environment, it may not be possible to 
provide to Europe's missile defense through the EPAA and 
homeland defense in the United States.
    Part of this is, of course, understanding the actual cost 
of the EPAA, which the administration, it appears, has 
generously offered to Europe free of charge, essentially to be 
a U.S. contribution to the defense of Europe. At the same time, 
the administration, the previous majority in the House, and the 
Senate majority cut funding significantly for the GMD [ground-
based midcourse defense] system by $1.6 billion in President 
Obama's 3 years in office.
    When Chairman Langevin and Representative Turner wrote to 
GAO [Government Accountability Office] and asked for a 
comprehensive review of the EPAA, the GAO responded, ``We found 
that the DOD has not fully implemented a management process 
that synchronized EPAA acquisition activities and ensured 
transparency and accountability. The limited visibility into 
cost and schedule for the EPAA reflect the oversight challenges 
with the acquisition of missile defense capabilities that we 
have previously reported.''
    Since then, the committee has told us that the EPAA 
approach and content has matured significantly since this 
document was developed. So, we have already talked about PTSS 
[Precision Tracking Space System]. We already talked about the 
SM-3 IIB missile which, it appears, the 2009 assumptions have 
been essentially changed dramatically.
    So, I guess my question to you, I will throw it out here 
quickly. Dr. Miller, and to you, Ms. Tauscher, can you provide 
to this committee by, say, the end of the month, a 
comprehensive, soup to nuts, whole of Federal Government cost 
for each phase of the EPAA?
    Dr. Miller. Sir, we have included in the Missile Defense 
Agency's budget submission the key elements of EPAA in terms of 
our best estimate over this coming year and over the Future 
Year Defense Program. One of the issues I think may have 
possibly confused the GAO is that the EPAA, the European Phased 
Adaptive Approach, while it includes two fixed sites, the Aegis 
Ashore sites in Poland and Romania, and includes the fixed 
radar in Turkey which, as Under Secretary Tauscher noted, are 
all agreed, relies very heavily on mobile systems.
    And these mobile systems will be available globally and on 
Aegis ships. The SM-3 IA missile that we have in the force 
today is a proven technology with a very strong record of 
testing. The TPY-2 [Army Navy/Transportable Radar Surveillance] 
radar is a proven technology with a very strong record.
    The phases of the system were defined by the steps that we 
intended to take to bring additional capability to bear and, 
predominantly, defined by the next types of missiles from IA to 
IB, to IIA to IIB. And so we knew that there was going to be 
technological growth in the system that would improve those 
capabilities.
    It is also important to understand that the costs of the 
system are shared. For NATO there is the ALTBMD [Active Layered 
Theater Ballistic Missile Defense] system for command and 
control, that is NATO shared costs. For the SM-3 IIA missile, 
we are co-developing it with Japan. And so it is true that we 
are devoting significant resources to Phased Adaptive Approach 
in Europe. It is also true that the investment in the systems 
that will help on EPAA will also be valuable for a scenario in 
Northeast Asia or for a scenario in the Middle East or 
Southwest Asia.
    Finally, very briefly, with respect to your question of the 
national missile defense, the administration remains fully 
committed to defending the Nation against limited missile 
attacks.
    Mr. Franks. Thank you, Mr. Chairman. Thank you all.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. There we go. Thank you. Again, it is a 
pleasure to have the panel before us, and especially I want to 
welcome back Secretary Tauscher.
    It is wonderful to see you back here with us as always, and 
we miss you in the House, of course. But we are certainly glad 
to have your leadership at State and your guidance, first from 
this subcommittee, and now in the administration, have been 
valuable to our Nation. And I just want to thank you for all 
your work.
    And if I could, Madam Secretary, I will start with you. 
Could you please comment on the status of the implementation of 
the New START Treaty to date? Can you tell us how much data the 
two sides have exchanged about each other's nuclear forces? How 
many on-site inspections has the U.S. performed in Russia?
    Can you share any information on what we have learned about 
Russia's nuclear arsenal as a result of the treaty that we did 
not know if the treaty were not in force?
    Secretary Tauscher. Yes. Thank you, Congressman. And it is 
always my pleasure to be back here.
    As you know, we have implemented the treaty and the treaty 
is, you know, we are doing our exchanges and our inspections. 
We have had a number of them in a very short term. We have a 
question right now of, me finding the page that tells me all 
the numbers, which is right here someplace. But we have a 
significant record right now in the New START Treaty.
    Right now we have, as you know, the New START limit of 700 
deployed ICBMs, SLBMs and nuclear-capable bombers will allow 
the United States to retain their current 14 SSBNs. And we have 
56 SLBM launchers. Not deploying SLBMs, but an additional 40 
launchers.
    So, we have, I think in the last number of months we have 
had seven or eight exchanges that have brought to us a 
significant amount of information. As we said repeatedly during 
the ratification process of START, this is not only about 
bringing us down to lower levels, but it is also about the fact 
of access.
    If we didn't have the New START Treaty, it was likely that 
both countries would have reduced weapons, but very unlikely 
that we would have been able to verify it. So the verification 
regime that is part of New START and the compliance regime that 
is part of New START, much of it that is adding technology and 
new ways for us to improve the accounting rules so that we have 
much greater assurance that this weapon that we see this time 
is the weapon that we see the next time.
    All of that information is vitally important to the kind of 
assurance that we get here in the United States about what the 
Russians are doing, what they get when they come to see us. But 
I think what is most important, too, is that it is important 
for the two great nuclear powers to be able to do this so that 
the world sees what we are doing. So we are able to also 
reassure everyone else that we have these inspections.
    As I said, we have had eight or nine inspections, but back 
and forth. And I think that we are expecting new inspections.
    Do you know what the next date is, by any chance?
    Dr. Miller. I don't have the next date, but I could suggest 
that we provide the data for the record.
    My recollection is that we have conducted 13 and the 
Russians have conducted 12 inspections. We have done two data 
exchanges and had two meetings at the Bilateral Consultative 
Commission. And that because these are occurring almost real 
time----
    Secretary Tauscher. That is right.
    Dr. Miller [continuing]. If we could provide something for 
the record I think it would be----
    Mr. Langevin. That would be helpful. Thank you.
    [The information referred to can be found in the Appendix 
on page 127.]
    Secretary Tauscher. Thank you.
    Mr. Langevin. And then let me now open the question up to 
the panel. The House version of the Fiscal Year 2012 NDAA 
includes a provision, Section 1055, that would delay force 
reduction under New START until the Secretaries of Defense and 
Energy certify that the plan to modernize the nuclear weapons 
complex and delivery systems is being carried out.
    The provision also limits reductions in the stockpile of 
U.S. warheads held in reserve until several conditions are met. 
In particular, two new facilities, the Chemistry and Metallurgy 
Research Replacement [CMRR] nuclear facility and the Uranium 
Processing Facility [UPF] must be operational, which will not 
be until at least 2024.
    Finally, Section 1055 prevents any unilateral reductions 
below the limits contained in New START. A Statement of 
Administration Policy threatened to veto the final bill if it 
includes this provision. Could you elaborate on how these 
conditions could prevent the Pentagon from implementing New 
START?
    Dr. Miller. Thank you, sir. I would be glad to offer some 
examples. The requirement not to make any reductions until CMRR 
and UPF are in place, as you noted, would push the timeline for 
those reductions into the 2020s. The requirement under the New 
START Treaty is to make all reductions within a 7-year period 
after the entry into force of the treaty, so that that would 
become infeasible.
    If it is applied only to reductions in the stockpile, if 
the requirement for CMRR and UPF is interpreted to apply only 
to making reductions in the nuclear stockpile, what that would 
then mean is that the administration would be required to 
sustain a level of the stockpile through to the mid-2020s, 
irrespective of the requirements for a geopolitical hedge or a 
technical hedge. And that additional cost to the government, in 
an era of limited budgets, what that means is that less is 
going to something else. So maybe less science and technology--
--
    Mr. Turner. Just a second, please, if I can interrupt for 
just a moment. The second point that you are making is not a 
New START Treaty issue, correct?
    Dr. Miller. The second point is not----
    Mr. Turner. I want to make that clear. The language that is 
actually in that provision clearly limits it to non-deployed. 
So, it would be the second--that you are talking about, which 
is not a New START. I think his question was how does it affect 
our New START compliance, and this really wouldn't.
    Dr. Miller. So, then we focus on the second part. Thank 
you, Mr. Chairman. The issue with respect to the stockpile is 
as I said, that the provision would require this 
administration, the next administration, the administration 
after that, to sustain the stockpile at the present level at 
additional cost, and irrespective of the geopolitical and 
technical requirements.
    If that provision had been in place under President George 
W. Bush, we would have a stockpile of 10,000 instead of 5,000 
today. It would be excess to need for national security and it 
would be something that we, in an era of limited budgets, that 
we would be wasting resources.
    The question of no unilateral reductions under the levels 
of the New START Treaty, I think is worth considering in two 
parts.
    The first is that if the interpretation is that the United 
States must maintain precisely no fewer than 1,550 accountable 
deployed nuclear weapons under the New START Treaty, one gets 
into the question of, if it makes more sense because of the 
specifics of how--to take one example, how SSBNs are loaded to 
have slightly fewer to allow a balance loading of our SSBNs. 
That is something that would be precluded. So, to be required 
to hit 1,550 on the nose doesn't necessarily make operational 
sense.
    And the second element, and a critical element for the 
administration, is that it is going well beyond what the Senate 
had in the Resolution of Ratification. The Resolution of 
Ratification said that any militarily significant reductions 
below New START levels should be--I will paraphrase. I don't 
have it in front of me. But should be negotiated and brought 
back for the consent and advice of the Senate.
    To understand that requirement, understand that militarily 
significant changes should come back to the Senate, back to the 
Congress. But to say that it has to be a specific number 
exactly, under the treaty can be no more, under this law, can 
be no less, would tie the hands of the commander and of the 
President. And to say no reductions, no changes whatsoever will 
be allowed, those are constitutional issues.
    Mr. Langevin. Mr. Chairman, if the rest of the panel could 
respond in kind for the record if we have time right now.
    [The information referred to can be found in the Appendix 
on page 127.]
    Mr. Turner. That would be great. And we also have a second 
round if you want to revisit the issue.
    Mr. Langevin. Okay.
    Mr. Turner. Mr. Lamborn.
    Mr. Lamborn. All right. Thank you.
    Continuing this discussion, you heard the chairman mention 
Condition 9(B) of the Senate Resolution of Ratification. And do 
you all agree that the U.S. should go to the point of 
reconsidering remaining a party to the New START Treaty if 
indeed we do not have the dollars the President--and this is to 
the President's credit. He asked for the dollars for 
modernization in fiscal year 2012 NNSA budget. And I would like 
all of you to respond to that.
    Dr. Miller. Two parts to the answer, sir.
    The first is that we understand the requirement to report 
if we have less funding than in the Section 1251 as requested 
in Section 1251 Report. Our interpretation of that has been 
substantially less. In fiscal year 2011 actually slightly less 
was appropriated than requested. Our judgment was that a one 
percent or less change didn't require us to submit the report. 
The difference we are looking at now in both the House and the 
Senate appropriations bill, I think, would trigger that, and we 
would have to examine that question.
    We entered into New START Treaty because it was in our 
national security interest. We have the right to withdraw from 
that treaty as a country. And, in principle, this is an issue 
that should be considered whenever the security conditions 
arise that would require it.
    If there is substantially less funding than requested, we 
will, of course, provide the report to Congress.
    General Kehler. And, sir, I would just add that, 
understanding what the language requires, I would form my 
recommendation in this regard, based upon my assessment of 
whether we could perform the military mission that is being 
asked of us. And given the certain number of weapons and type 
of weapons that we have, understanding, again, that there are 
some trigger conditions here for reporting, I would form my 
assessment based upon the force that we have and whether we can 
execute the missions. And as long as we can execute the 
missions, then my recommendation would be that we would 
continue to go forward.
    Mr. Lamborn. Are you saying, General, that you would not 
take into account whether or not dollars were added to our 
budget for modernization?
    General Kehler. I would most certainly take that into 
account. But I would be asked to provide a today 
recommendation, and I would base that recommendation on whether 
or not we could execute the mission that we were being asked to 
perform. If a budget reduction was resulting in some decline in 
that mission, as we could look to the future, then I would 
offer my judgment accordingly.
    Secretary Tauscher. You know, I think that there has been a 
co-joining of these two issues for quite a long time. And in my 
opinion, it has been almost a red herring. Who is not for 
modernization of the forces? The President has made clear he 
is. The President has put a tremendous amount of increase of 
budget. He has talked about it for years. So the President has 
said what he wants to do. He has put the money in the budget. 
And now it is up to the Congress to provide the money. That is 
where we seem to be having the problem.
    Mr. Lamborn. That is right. And I said----
    Secretary Tauscher. Not with the President.
    Mr. Lamborn. No, exactly. And I said, to the President's 
credit, the House and Senate have not, however, followed up in 
the current status of both appropriation bills.
    Secretary Tauscher. That is right. That is right. But the 
New START negotiations were already something that was 
considered previous to the end of the START Treaty, which 
expired in December of 2009. And when we achieved those limits, 
way before the end of the START Treaty, by the way, 
subsequently, we had the Moscow Treaty that President Bush came 
through. And that was a unilateral decision to decrease forces.
    General Kehler is really the person with the Strategic 
Command, and the National Command Authority, and the DOD and 
the DOE, that are going to look to make sure that he has what 
he needs. You also have the President and the lab directors 
that have to sort of view the capability, effectiveness, 
safety, and reliability of the stockpile every year.
    So there are different components here that all add into 
the question of, does the President, as Commander in Chief, 
have what he needs in order to not only deter and defend the 
United States, but to those countries to whom we extend our 
deterrent, do we have the capability to do that?
    And so the decision was made to modernize the NNSA and the 
force and to make sure that we had at, lower levels, the kind 
of numbers that were going to be able to be agreed to by 
General Kehler and certified by the lab directors and to 
satisfy the President's concern that we have what we need.
    And there is a very, you know, significant process to that. 
It includes the Nuclear Posture Review, as we have discussed. 
It also includes dealing with our allies on the DDPR. So there 
are many components to this. It is not just one or the other. 
It is not just, ``if you don't have this, you don't get that.''
    So I think that you have to look at this in a very holistic 
way. You have to look at it more than just the simple boiling 
down of, if you don't have modernization, can you actually keep 
the New START Treaty? We have agreed to the New START levels. 
We have done that assuming that we are going to get the 
funding, assuming that we are going to have modernization, 
assuming that we are going to have lower levels and that we are 
going to be able to certify.
    But I think that, you know, just saying ``if you don't have 
one, you don't have the other,'' I think almost misses the 
point of a very sophisticated strategy that numerous Presidents 
have been working with that have put us in a position where we 
do have a very safe and reliable stockpile, one that General 
Kehler can tell you is going to meet the military requirements.
    Mr. Lamborn. Well, Under Secretary Tauscher, am I wrong in 
assuming that if we don't have the dollars for modernization, 
then we can't rely on the lower numbers of weapons that New 
START calls for?
    Secretary Tauscher. I don't believe so. I believe that this 
is not a zero-sum game.
    Mr. Lamborn. We could disarm through attrition, like Tom 
was saying?
    Secretary Tauscher. I don't know how you get to that 
assumption. What I am saying is, everybody is for doing what we 
have agreed to do. The question is, where do we get the money? 
The President has made very clear that he wants to have major 
investments in the NNSA, the stockpile, human capital, and 
refurbishing the enterprise to make it more responsive to the 
reality of lower numbers.
    And that is what we are going to have. We have not exactly 
what the President has asked for in the budget, but we are not 
at zero. This is not, you know, a supertanker where you hit the 
brakes and you stop on a dime. This is going to take a while 
for the fact that we don't have this money to affect the 
system. Will it affect the system? Yes. Will we be able to get 
what we need? No. Is it wrong to assume that these cuts are 
fungible and that we can live with them? No.
    But at the same time, it is not true that we endanger our 
ability to go to lower levels tomorrow because we don't have 
the budget numbers that the Congress is meant to give us and 
agree with the President's numbers.
    Mr. Lamborn. Okay, we are going to have to continue this 
discussion, especially after we see what the appropriations 
process yields. And my very last thing, Under Secretary 
Tauscher, is, and I will just conclude with this, because we 
are starting to run out of time. Is this administration 
contemplating any unilateral cuts or any other further cuts at 
all in U.S. nuclear warheads, platforms, delivery vehicles, or 
capability?
    Secretary Tauscher. Well, as I told you, the President 
agreed in his letter to Senator Reid and Senator McConnell late 
last year during the consideration of New START by the Senate 
in the lame-duck session that, you know, this year we would 
begin to work with the Russians on deployed, non-deployed, 
strategic, non-strategic. I have my counterpart in what is 
called the Ryabkov-Tauscher channel. We have already sat down 
and started to have conversations with them about the kinds of 
framework for future reductions, both, as I said, on strategic 
and non-strategic, deployed and non-deployed. We have had 
conversations with the P5 [permanent five members of the UN 
Security Council] on different things, including verification 
and the new kind of technology and the new science involved in 
that.
    So I don't make the policy. I just go off and do it. But 
previous administrations have made the decision to do that. I 
don't know of anything that the President has said where he has 
said that he is considering unilateral cuts, so I will tell you 
that my mission is to talk to the Russians and to continue what 
we did in New START and also to talk in a multilateral range 
with the P5.
    Mr. Lamborn. Thank you. I yield back.
    Mr. Turner. Mr. Garamendi.
    Mr. Garamendi. I want to thank all of you for a fascinating 
discussion about where we are with nuclear security.
    Mr. Miller, you dismissed those who said that the numbers 
are bigger as bad math and faulty assumptions. Could you please 
be very specific, not now, but in writing, as to the math and 
the assumptions, so that everybody can get it straight?
    Dr. Miller. Yes, sir. And our first submission is the 
Section 1251 Report that we provided to Congress with far 
estimates.
    Mr. Garamendi. Okay.
    Dr. Miller. So if I can give one quick example, and----
    Mr. Garamendi. Please. I only have a few moments.
    Dr. Miller. Okay, quick example----
    Mr. Garamendi. There are assumptions that were made, 
numbers that were put. You say they are bad math. I assume they 
are. Just tell me how, okay? Now----
    Dr. Miller. Will do.
    Mr. Garamendi. Thank you. This discussion is almost 
occurring in a vacuum. Sequestration is out there. Whether 
there is sequestration or not, there are very significant cuts 
being discussed for the military. It is like a stovepipe here. 
We are only discussing the nuclear security in this context, 
and there are other things that are going on within the 
military. And it is, frankly, driving me crazy that all of this 
happens and we don't know how we are going to put this together 
and we may have, like, a month and a half to put something 
together.
    The people around this town that think about these things, 
think tanks from the left and the right, have thought about the 
nuclear security issue over the years and have made 
recommendations from the left of about, I don't know, $135 
billion of cuts over the next 2 years and, from the right, a 
little less than $100 billion, exactly $104 billion from the 
Cato Institute and $139.5 billion from the Sustainable Defense 
Task Force. That is the left and the right.
    How does that figure into what we are doing here? 
Basically, I heard you say we are tied up by treaties, but 
apparently within that treaty there are some opportunities. 
What I am looking at is, I would like to know what is really 
viable. No cuts at all? Or, if there are going to be cuts in 
the military, where does this particular portion of the 
military fit? And what is viable? You know, it ranges from, 
``okay, we don't need a triad'' or ``we don't need all of those 
missiles'' or ``we don't need all of those new bombers right 
now.'' We can wait; we can wait.
    At some point, it is going to have to get beyond, ``gee, it 
is going to be terrible if we have to make cuts.'' We are going 
to have to say, ``here is what can actually happen.'' And I am 
waiting for that information. And you have got 1 minute and 53 
seconds to share it.
    [Laughter.]
    Dr. Miller. Mr. Garamendi, thank you. As I said earlier, 
the Defense Department is looking at north of $450 billion in 
cuts over the next decade, and a good fraction of those in the 
next 5 years.
    Nuclear delivery systems, which are funded out of DOD, are 
not off the table for that discussion. And we are looking hard 
at what the core requirements are and the timing of those 
requirements, as well. That is true for each leg of the triad, 
as it is true across the board. Secretary Panetta has talked 
about these reductions being hard, but manageable. I can 
confirm that they are hard, and as I said, no element of the 
Department of Defense budget is off the table from examination.
    Mr. Garamendi. And here is my point. And I said this 
earlier to the chiefs. Terrific. And I know that eventually you 
will tell us what it is. By my count, we have one month and a 
few days before December 23rd, at which point we are, by law, 
to make some decisions. May very well our decision is to not 
make a decision and we will just change the law, which we could 
do. But assuming we actually follow the law, we need to make a 
decision.
    So when will you share with us that information? Are we 
talking about maybe the 22nd of December?
    Dr. Miller. Sir, I think it is fair to say that is a 
question that is above my pay grade. I will take it back to my 
bosses.
    Mr. Garamendi. I took it to your bosses about 3 hours ago. 
I am taking it to you. I guess I am taking it to the chairman 
of our committee here, is that at some point along the line, we 
are going to have to make some tough decisions. And the sooner 
we have that information, the more thorough the debate will be 
and, quite possibly, the better the result.
    But ignorance is not a good way to proceed. And we are 
proceeding with a high level of ignorance, despite what you 
have said. Now, you have all talked about it, but you have not 
given us one piece of information about what a cut could be in 
your area, other than it is going to be bad. I will let it go 
at that.
    Mr. Turner. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. And I want to thank 
the panel today. You all are definitely studied up on the 
issue, and I appreciate that.
    I am going to, we have been talking about math here, and I 
am going to ask you about a little different math, General 
Kehler and Mr. Miller. If the Navy and STRATCOM were 
comfortable with 192 launchers on 12 SSBN(X) submarines based 
on the assumption that New START levels will be those required 
in 2027 and beyond, meaning 48 fewer launchers than suggested 
for the submarine-based deterrent in the original 1251 Plan, 
what other reductions are needed to the ICBM and bomber legs to 
comply with the New START limits?
    Dr. Miller. Sir, what we have previously said is that we 
aimed toward a New START force structure of 240 SLBM launchers, 
up to 420 ICBMs, and up to 60 bombers. In the context of the 
budget situation in which we find ourselves, we are looking 
hard at those numbers again and, in fact, want to be informed 
by this NPR Implementation Study that is underway.
    I think it is worth noting that the number of SLBM 
launchers that you described would provide a very significant 
number of warheads that could be deployed and that would allow 
the SLBM leg to still account for two-thirds of the overall 
strategic arsenal.
    General Kehler. Sir, I would just add that I think this is 
another one of those areas where it is helpful to me, anyway, 
to separate this into two sets of questions. One is, how will 
we structure today's force to get into the central limits of 
the New START Treaty? And that is one set of issues that we are 
working our way through, and that gets to the 240 up to 420 and 
60, in terms of the three legs of the triad.
    We have been looking very hard, because we are allowed to 
mix, within the 1,550 deployed warheads that were allowed and 
the up to 700 operational delivery vehicles that were allowed, 
we are allowed to mix that force in many, many other ways. And 
so we have been looking whether or not there are alternative 
force mixtures that preserve a triad, that keep our military 
effectiveness, and that maybe are more financially efficient.
    So we are looking. That was certainly a baseline that we 
departed from, but we are looking to see if there are other 
ways to go at that mixture. The next question then becomes, for 
questions of modernization, beyond this current force 
structure, how should we go about looking at follow-ons, the 
Ohio replacement, for example? And we have looked at various 
numbers of tubes that might be on a replacement.
    The requirement from STRATCOM has been, we have looked at 
both 16 tube variants, we have looked at 20 tube variants. My 
number-one issue is we must be able to get a replacement 
platform. And therefore, affordability has to be an issue here. 
What we don't have to make a decision on today is what the 
ultimate number of submarines is that we might have to deploy, 
depending on the world situation that we find as we go to the 
out-years.
    So my view is, I have been comfortable with talking about 
submarines, like they were talked about in the 1251 Report and 
elsewhere, that could have 16 tubes, provided we have enough to 
put to sea to meet our needs, and given that we may make 
different decisions as we go forward, our successors two or 
three removed may decide that is not the right number of 
submarines as we go forward. To me, it has to be survivable. It 
has to be affordable, because we have to have it.
    Dr. Fleming. All right, let me simplify this a little bit 
for my understanding and for everyone here. So you are saying 
that it may be a financially driven decision to go below the 
understood limits and, in doing so, we can compensate in other 
areas with other launch devices, other platforms. And are you 
also saying that over time, in the out-years, we can actually 
mix that up? That is fluid. We can move back and forth within 
the total New START limits.
    General Kehler. Yes, sir, that is exactly right. Plus, we 
are making a big assumption here that the current limits in New 
START will, in fact, carry beyond the 10-year term of the 
treaty, plus another 5-year extension. We are beyond that, 
even, when we are talking about a follow-on submarine platform, 
for example.
    So I think preserving flexibility, preserving our ability 
to make judgments as we go forward, but committing now to the 
fact that we must invest in the research and development, and 
we must proceed with these modernization efforts at this point 
in time, with the idea that we can make adjustments as we go to 
the future, I think, is the most prudent thing for the security 
of the country.
    Dr. Fleming. Anyone else would like to add to that at all? 
Just one other quick thing. Well, the full cost of eliminating 
converting from deployed to non-deployed and converting to non-
nuclear status DOD systems is known by the Department at this 
point?
    General Kehler. The answer is they are not, sir, not to my 
knowledge. That is something we are still working our way 
through to include, as you know, in the number of launchers 
that we count. We talked about, the Under Secretary talked 
about the two data exchanges we have done with the Russians to 
date. Our numbers look high, and they look high in some 
respects because we are still counting what we would term as 
``phantoms,'' ICBM silos that have already been deactivated, 
but still remain technically on the books for us, airplanes 
that are in the boneyard at Davis-Monthan down in Arizona, that 
need to come off the books, as well.
    Those costs are still being worked. We know we have those 
costs to bear. The services know they have those costs to bear. 
And we are working our way through how we will address those, 
unless there is something more.
    Dr. Miller. General Kehler is exactly right. I would just 
add that the New START Treaty has more flexible provisions for 
the elimination or conversion of systems than was the case 
under the previous START Treaty. And we have asked for 
estimates from the Air Force and Navy for the alternative 
approaches, to include the lowest-cost approach, consistent 
with the treaty, for the elimination of ICBMs, for the 
elimination of bombers or conversion of bombers, and for the 
conversion of SLBM tubes, which amounts to taking them off the 
books.
    And I have seen some initial estimates, but we have sent 
them back for re-estimates, and we are looking to drive those 
numbers down as low as possible.
    Dr. Fleming. Thank you. I yield back.
    Mr. Turner. Thank you.
    Dr. Miller, you had spoken about the provisions in the 
National Defense Authorization Act, of which some the 
administration had threatened to veto. And I want to walk 
through some of those issues, because as you know in the 
discussion, you know, we believed that we were just codifying 
the administration's policy, that the administration's stated 
policy, it would be X, and so we thought we had put it in the 
legislation.
    Now, I understand you not wanting it in legislation, but I 
am concerned as to why the administration would go to the level 
of arguing for a veto over what appears to be its own policy. 
So I thought we could have a discussion on whether or not these 
issues remain administration policy.
    And before I do that, I want to disagree with you a little, 
for a couple moments on the issue of your interpretation of 
those provisions. With respect to the provision that we have in 
the National Defense Authorization Act that ties modernization 
to reduction, you had said of your concern that it might be an 
impediment to our implementation of New START within the 
requirements of New START.
    Well, there is a provision that permits a waiver, and it is 
a waiver that the Secretary of Defense and the Secretary of 
Energy may sign. So the administration has the ability to waive 
that if it saw it as an impediment. So I am not necessarily 
persuaded by the argument that it would prevent us from 
complying with New START.
    The second thing that you had said is the issue of, you 
know, what if we had some operational issues that kept us going 
under the 1,550 and how that would be a concern? The numbers 
requirement of the legislation that we have in the NDAA says 
that the President may not retire, dismantle, or eliminate, or 
prepare to retire, dismantle, or eliminate. Operational issues 
are not retiring. Operational issues are not dismantling, and 
they are not eliminating. So the only reductions that we have 
in here that might be viewed as a restraint are not, certainly, 
ones that you would run into. It is just operational.
    And with respect to the new facilities and the, with 
respect to the hedge, you know, those are the Chemistry and 
Metallurgy Research Replacement Facility in New Mexico and the 
Uranium Processing Facility in Tennessee, having those 
operational before we do further reductions. And I believe that 
that has been the administration's policy, that that was an 
actual need that we had to have those facilities up before 
further reductions were taken.
    But my questions go not to the issues of whether or not we 
should have this in legislation; I understand you say you would 
prefer it not. My questions go to, are these things still 
administration's policy? We have got four of them. The first 
is, when the administration came forward and requested New 
START to be ratified, the premise was that the reduction would 
be taken in concert with modernization, meaning that they could 
not be separated; that, in fact, modernization had to be done 
in order to justify the lowered numbers.
    Is that still the administration's view? Or does the 
administration believe that we could just go to this number and 
modernization is irrelevant to the reductions?
    Dr. Miller. The administration views that both 
modernization and the New START Treaty remain in the national 
security interest of the United States.
    Mr. Turner. Great. And that is what we put in the 
legislation, so we wanted to confirm it was still a policy, 
since we are facing a veto threat.
    Dr. Miller. Mr. Chairman, let me add. Each of them remains 
in the national security interest of the United States. Both of 
them together are strongly preferred. And so you say, what 
happens if we have somewhat less than the requested funding 
under the 1251 Report? Does that mean we should withdraw from 
the New START Treaty? I think the answer is----
    Mr. Turner. And that wasn't my question, but go ahead and 
answer that one.
    Dr. Miller. Well, the answer is, we are going to be obliged 
to provide a report on that question, but the New START Treaty 
has benefits to the United States, including the 18 on-site 
inspections per year, the exchange of data, and the ability to 
have a much better understanding of Russian strategic forces 
than otherwise would. So withdrawing from it would not be 
without other costs.
    Mr. Turner. The next issue goes to the issue of reducing 
without the hedge. You know, our provision is that the 
Chemistry and Metallurgy Research Facility in New Mexico, 
Uranium Processing Facility in Tennessee, that they need to be 
operational. President Obama's National Security Advisor, Tom 
Donilon, said at the Carnegie Endowment earlier this year, in 
fact, ``If Congress approves the President's funding program 
for the nuclear complex, it allows us to reduce the size of our 
nuclear stockpile because we will be able to maintain a robust 
hedge against technical problems with a much smaller reserve 
force.''
    We had put in the legislation that these two facilities had 
to be operational. Obviously, if they are not operational, they 
are not contributing to the hedge. Is it now the 
administration's policy that they are not necessary for further 
reductions in the hedge?
    Dr. Miller. The administration continues to strongly 
support the CMRR and UPF facilities. The issue on the 
provision, and it is in, I believe it is 1055, says that the 
Secretary of Defense, Secretary of Energy may not retire, 
dismantle, or eliminate, or prepare to retire, dismantle, or 
eliminate any deployed strategic or non-strategic nuclear 
weapon until the date that is 90 days after certification that 
these facilities are fully operational. And so----
    Mr. Turner. I will just read it. I mean, do you have it 
front of you? It says Department is to retire, dismantle, or 
eliminate or prepare to retire, dismantle, or eliminate any 
non-deployed strategic or non-strategic weapon until the date 
that is 90 days after the date.
    Dr. Miller. Mr. Chairman, is a B-52 bomber that is no 
longer operational considered in this category?
    Mr. Turner. The reason I am reading it is because your 
answer used the word ``deployed,'' and this clearly does not 
say ``deployed.'' I am not going to argue over what deployed 
and non-deployed means, other than to reflect that the language 
of the legislation is non-deployed.
    Dr. Miller. So there is a semantic question that we would 
need to clarify, and this is a relatively small issue, is 
whether the intent of the House is to have this apply to 
nuclear warheads only or to delivery systems. Frankly, I have 
heard both of those explanations. That is the relatively 
smaller issue.
    Well, it is important, but I would hope that the intent was 
nuclear warhead. If that is the case, then what it says is 
that, given the timelines with--if we have received full 
funding--the timelines for making CMRR and UPF operational, it 
means that there may be no retirement, dismantlement, or 
elimination of non-deployed weapons until the mid-2020s.
    Is that something that makes sense for the country? My 
guess is, my strong view, actually, is that the answer is 
likely to be no.
    Mr. Turner. Well, and I believe that that actually had 
reflected the administration's policy, but with respect to the 
issue of clarifications, considering that this is going into 
conference, I would love to work with you on any language that 
you think would be necessary to clarify that for you so we 
don't have language that is confusing.
    Dr. Miller. Sir, could I just be clear. The policy is to 
look to shift from a reliance on non-deployed warheads to a 
reliance on infrastructure over time. That is indeed the 
objective and policy of the administration.
    Mr. Turner. And that is those two facilities----
    Dr. Miller. And, indeed, it involves more than that, but 
the policy is not to avoid dismantling, eliminating, or 
preparing to retire, dismantle, or eliminate any non-deployed 
weapon until the time that all those investments are complete. 
Indeed, the cost, that would be, I guess, and to use a term 
usually used elsewhere, that would be a cost-imposing strategy 
on the NNSA.
    Mr. D'Agostino. Yes, if I could just jump in on that just a 
little bit. Clearly, you know, the idea of including the word 
``non-deployed'' in a sentence, or even preparing to retire, 
dismantle, or eliminate, the reality is, we move these systems 
with the Defense Department from a non-deployed to deployed 
status all the time. We are constantly doing surveillance, 
which includes destructive surveillance, which actually means, 
in effect, we would be coming back to the Secretaries--both 
Secretaries with a bit of a bureaucratic, I would say ponderous 
bureaucratic process that would slow down and render some 
significant inefficiencies, in my line of work. I won't speak 
for how it would impact the Defense Department on their 
delivery systems.
    So I don't particularly care for the language at all, 
because it adds a level of bureaucracy that I believe is 
unnecessary, because we have proven our ability to work with 
the Defense Department on moving systems back and forth in 
order to meet the national needs at the particular time. And I 
just think it is extra work. It is unnecessary. As Jim was 
talking about----
    Mr. Turner. And you don't think the exception that says 
activities determined by the Secretary of Defense ``be 
necessary to ensure the continued safety, security, and 
reliability'' is a big enough umbrella of your activities that 
exempt, because, I mean, clearly, the intent is, you know, it 
is not ``dismantle'' meaning we are cleaning. It is 
``dismantle'' meaning it is not being put back together. Or 
``eliminate,'' that is pretty clear. ``Retire,'' I think that 
is pretty clear. I would be glad to work with you on language 
for that exception, but I certainly understand----
    Mr. D'Agostino. Yes, sir.
    Mr. Turner. Okay, thank you.
    Dr. Miller, we had a conversation on the telephone today, 
which I greatly appreciated, concerning the issue of nuclear 
weapons targeting and doctrine and the ongoing review. We 
referenced as a great starting point that fact that you were a 
professional staffer on this committee and participated in the 
1990s when those type of activities were ongoing. And the 
expectation on behalf of the committee that your knowledge of 
that exchange between staff and the administration is expected 
would be the benchmark point for us looking to a satisfactory 
exchange between the administration and this committee.
    I know we have the letter from Secretary Panetta indicating 
that there will be an exchange between the committee. I note 
your taking back to the administration our benchmarking of your 
participation when you were a staff member as being a level of 
exchange that we are expecting, now that you are in the 
administration. So we appreciate your level of experience and 
expertise that you get to take to that discussion. And I 
understand from your answer that you are going to be 
endeavoring to get us clarification of that.
    Dr. Miller. Mr. Chairman, I will ask for a clarification. I 
will say that the language of the letter speaks for itself, in 
a sense, in terms of what the Secretary has proposed we do. And 
I will ask his guidance on the additional questions that you 
have asked.
    Mr. Turner. Great. I appreciate that. Because, again, back 
to our conversation on the phone, reading this letter in light 
of our discussion of what your experience was, we don't have 
confidence that it is the same, and we would want the treatment 
of the committee to be the same with you in the administration, 
as it was when you were with the committee. Thank you.
    Under Secretary Tauscher, you and I had conversations 
before about the NATO Deterrence and Defense Posture Review. 
And I have appreciated both the exchange that we have had and 
your expertise. I am, as you know, very concerned on the issue 
of what will count as a reduction. You have, in your answer 
here today, I think very clearly stated that you look to 
reductions, if there were to be reductions, with respect to 
NATO's nuclear posture or European--U.S. nuclear weapons in 
Europe, that you would see that as tied to a response from 
Russia, and I would like some assurances from you that you 
agree that mere geographic relocation of Russian tactical 
nuclear weapons is neither a reduction, nor a significant 
Russian action for addressing the threat to Europe posed by 
Russia's thousands of tactical nuclear weapons.
    As I indicated, the NATO Parliamentary Assembly said in its 
resolution, which we will provide you a copy of, that they do 
not view mere geographic relocation as a reduction. And I would 
like to know if you agree.
    Secretary Tauscher. I do.
    Mr. Turner. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    The only question I had is to allow the other members of 
the panel to respond to my question, with respect to Section 
1055, and how those conditions could prevent the Pentagon from 
implementing New START. So, Secretary Tauscher, I know that you 
have to leave. If you want to respond to me in writing, that is 
fine. If the rest of the panel, if you could just take that 
right now, that would be helpful.
    General Kehler. Sir, again, I would just say, from my 
perspective, the issue of whether or not the funding would be 
sufficient to cause us to invoke a withdrawal from the treaty. 
My view is that it is about risk.
    And my perspective here is that, ultimately, I would be 
asked, and I believe that I should provide, my military advice 
on whether or not the force, as it is constituted, could 
accomplish the job at hand. But there are some risk points 
along the way.
    And as we began to get to some of those risk points, for 
example, we have issues today about, with the current level of 
funding that has been allowed, through the congressional marks, 
whether our air-delivered weapons can go through life 
extension. I think that is a risk point that we would have to 
assess, and I think it would go on from there. So that would be 
my comment.
    Mr. Langevin. Thank you.
    Secretary.
    Mr. D'Agostino. In our role in supporting the warfighter 
and supporting General Kehler's organization, you know, that is 
ultimately the job that I have in supporting the Defense 
Department is to make sure they have the systems they need.
    I would be concerned, though, clearly it is not my area of 
work, but I would be concerned that as things change, as 
concerns with our ability, essentially, maybe to extend the 
life of a particular system, comes up and it becomes an issue. 
The Defense Department would be in a position to say ``how do I 
change the mix of warheads necessary in order to keep the 
nation safe'' and made our commitments to our allies as well. 
And, therefore, this provision, in my view, would say what, we 
can't do that, until after these two facilities are completed.
    I don't believe that is the intent. Ultimately it might not 
be the intent of the committee, but it does place a restriction 
on our ability, and the warfighter's ability, to say ``this is 
the kind of mix that you should might recommend to the 
President,'' and then ultimately my ability to support that.
    General Kehler. Sir, if I could just add one more piece to 
this, there are really two fundamental things that I am asked 
to do on a recurring basis. One is I am asked to comment on my 
view of the ability of the stockpile and the safety, security, 
and effectiveness of the stockpile. And so every year I provide 
my assessment of the stockpile.
    That is one place where I can make my viewpoints known, as 
the combatant commander, for the investment that we make in the 
stockpile, not only in the life extension programs, but in 
things like surveillance and basic science and the other things 
that go with that.
    So in one place, I would have an opportunity to comment on 
what I thought funding was doing to the overall health of the 
stockpile. In the other place, I have a commitment, 
essentially, to be able to tell the President whether or not 
the force as it is currently constituted is capable of 
performing the fundamental mission here.
    And the fundamental mission is to deter nuclear attack on 
the U.S. and our allies, assure our allies, et cetera. And so I 
am constantly looking at whether or not the force, as it is 
constituted, is capable of performing the job that we are being 
asked to do. As we would get to these decision points, where 
funding would begin to impact that, I am obligated to stand up 
at that point and say whether or not I think that either the 
stockpile is impacted or, overall, whether we are able to 
perform the mission that we can. And I would be prepared to do 
that.
    Mr. Langevin. Okay. Good.
    Secretary Tauscher, did you have anything to add or----
    Secretary Tauscher. Yes, I will just, you know, I will just 
agree with my colleagues. You know, I think that there is the 
issue of funding for the complex modernization and then the 
limitations on nuclear forces contained in the House bill, I 
think that there are some things that I just want to make very 
clear.
    The first is that this administration is following through 
on all of its commitments on modernization. And modernization, 
as I said earlier, is in the same room with the New START 
Treaty and what the New START Treaty reductions will do. But 
they are linked tangentially. They are not specifically linked. 
It is not one for one.
    We didn't go into the New START Treaty saying that, unless 
we got this money, we would not go forward with these 
reductions. The reductions are based on the Nuclear Posture 
Review. But the President made clear that he believed that 
these reductions are in the national security interest of the 
country, and that these investments are in the national 
security interest of the country.
    So, you know, they are related, but they are not a quid pro 
quo. One is not about the other. And I think my colleagues have 
tried to make that as clear as possible. The reductions that we 
went about in the New START Treaty were based on analysis 
conducted under the Nuclear Posture Review.
    And during that same review, it was very clear that we 
needed to make investments in the modernization of the complex, 
in the human capital, building facilities and making it a much 
more capabilities-based environment than just dealing with this 
number, that number. So I think it is a complicated situation.
    But, you know, General Kehler's responsibilities, Dr. 
Miller's, Administrator D'Agostino's are different than mine. 
We all have specific responsibilities, but they are all 
related. But, you know, it is really up to General Kehler on 
the annual basis to make decisions about the safety, the 
reliability, and the effectiveness of the stockpile for the 
military requirements.
    Mr. Langevin. Very good.
    General Kehler. And if I could just pile on with one more 
comment, there are two questions here. One question is do we 
need to modernize? Do we need to invest? And the answer from my 
perspective is, unequivocally, yes. Yes, we do.
    The other question is, what happens if we don't? And at 
that point in time, that is a different set of considerations 
that we have to work our way through. And from my perspective, 
that is when we get into the military judgment about our 
ability to do the job.
    Mr. Langevin. Good. I share many of your concerns, and you 
know, I do have deep concern about Section 1055 and what do we 
do in terms of preventing the Pentagon from implementing New 
START.
    So as you think about it, if there are other things that 
you would like to add, and you can forward to me and to the 
committee in writing, that would be helpful so that we have 
full transparency into the implications of that section.
    [The information referred to can be found in the Appendix 
on page 127.]
    Mr. Langevin. With that, my questions have ended.
    And, Mr. Chairman, I yield back.
    Mr. Turner. Thank you, Mr. Langevin. This has been a very 
long hearing, and I have two more questions, but my two 
questions are for Dr. Miller and for General Kehler. So I am 
going to offer to Mr. D'Agostino and to Under Secretary 
Tauscher, if they would like to be excused, you are excused. 
And if you want to stay to watch and observe, you certainly 
can. But I wanted to let you know that the questions for you 
are done.
    Secretary Tauscher. Thank you, Mr. Chairman. And please, 
you know, if you are keeping them behind in class, let me tell 
you how hard they work.
    Mr. Turner. Very good. Well, I wanted to say that the 
reason why this hearing has been so long is because you all are 
working so hard. The amount of work that you have, the review 
you are undertaking, everything that you are doing is really 
the subject matter of this.
    I have only two more questions, and they really are for the 
record. But, I do certainly appreciate Under Secretary Tauscher 
and Mr. D'Agostino's participation in the hearing.
    Turning to Dr. Miller, nuclear force structure requirements 
are developed based upon high-level guidance on nuclear 
targeting strategy and nuclear weapons employment issued by the 
White House.
    DOD has informed this committee that a 90-day Nuclear 
Posture Review Implementation Study is currently underway to 
review this guidance and consider options for changes. We 
understand the President has issued terms of reference for this 
study in PPD [Presidential Policy Directive] 11.
    Dr. Miller, what are the terms of reference for this study? 
I have a four-part question. What are the terms of reference 
for this study? Briefly, what targeting, employment, and force 
structure options have been considered as a part of this 
review?
    And how might those different options affect the size and 
structure of a nuclear force structure? Also, will you provide 
us with a copy of the PPD-11, and any other terms of reference 
or study charge? Also, please provide us with a list of the 
agencies and officials who are directly involved in the study. 
Please provide these to the committee within the next 7 days.
    Based upon statements we see in the Nuclear Posture Review 
and those made by senior administration officials, including 
the National Security Advisor Tom Donilon, and White House 
Coordinator for Arms Control and Weapons of Mass Destruction 
Gary Samore in this study, is this study only considering what 
further reductions can be made?
    Or are the only possible outcomes those that enable and 
justify further reductions? Is it possible that the study's 
analysis will show that the current U.S. stockpile and force 
structure is exactly right? Or even inadequate, especially in 
view of the nuclear modernization programs in Russia and China? 
And how is a potential failure to fund the modernization plan 
in Section 1251 Report being factored into the options 
considered as part of the NPR Implementation Study? If Congress 
doesn't fully fund the modernization plan, does this limit what 
options on the table are possible?
    To give you a recap, the first one was, briefly, what 
targeting, employment, and force structure options are being 
considered as part of this review and the documents that we 
requested, including the PPD 11.
    [The committee notes that the administration did not 
provide a copy of PPD-11 or a summary of that document, as had 
been repeatedly requested.]
    Dr. Miller. Mr. Chairman, I assume by the length of that 
list that you have written it down. Many of the questions that 
you ask go to the White House, and not to the Department of 
Defense. I would propose to pass them along.
    But I can say about the----
    Mr. Turner. I am sorry. Before we go on, you are involved 
in this, are you not?
    Dr. Miller. I am.
    Mr. Turner. So you would have to be qualified to answer the 
questions. I mean, I didn't ask a policy question of what is 
the conclusion. I asked the question of what is being 
considered.
    Dr. Miller. The question of what is being considered under 
presidentially directed review, in my estimation, comes under 
the purview of the White House to respond to, not under the 
purview of the Department of Defense to respond to. So what I 
will be happy to do is to take that question to the White 
House.
    Mr. Turner. But you are knowledgeable of these answers?
    Dr. Miller. I am.
    Mr. Turner. And you would be capable of answering them? 
Okay.
    Dr. Miller. I would be capable of answering them to the 
best of my ability. What I would suggest is that you've asked 
for a copy of the directive, you have asked for a number of 
other things. That I would take that back to the National 
Security Staff.
    Mr. Turner. I understand your answer.
    General Kehler, you have previously warned against cutting 
the budget or size of our nuclear forces too deeply, resulting 
in what you called a ``hollow force.''
    Will you please explain what you mean by a ``hollow 
force''? What are the risks of a hollow force to readiness, 
morale, safety, security, and critical skill retention in the 
nuclear components of the military for the three legs of the 
triad? What are the break points or red lines in the size of 
the force that would result in a ``hollow force''?
    And what analysis has been done to examine these questions 
and anything that you would be able to share with us? And, you 
know, for example, how would cutting a whole wing of ICBMs, 150 
missiles in total, affect nuclear weapons targeting?
    And have you seen any calls for or desire for changing the 
requirement of continuous at-sea deterrence, the number of 
ships required to keep that continuous presence in both the 
Atlantic and the Pacific?
    General.
    General Kehler. Sir, let me start with the question about 
the ``hollow force.'' It is a term, as I think you know, that 
is being used again extensively across the Department of 
Defense from my colleagues, the other combatant commanders, 
from the service chiefs, all with a cautionary note from things 
that we have seen in our past.
    Very simply, what I would say is that ``hollow force'' is 
one, in my definition now, I don't know that there is a formal 
definition for ``hollow force,'' but it is one that gives the 
appearance of being able to do the job, but doesn't have the 
capability to do it.
    And I think you can have a ``hollow force'' in a lot of 
ways. You can have a ``hollow force'' because you are not 
properly organized, because you are not properly trained, 
because you are not properly equipped, because you are not 
properly sustained, because you don't have the number of 
qualified people that it takes in order to provide an 
enterprise that is a complex, experienced-based enterprise, 
like the nuclear enterprise.
    You can have a ``hollow force'' regardless of the size of 
the force. You can have a large force that is a ``hollow 
force''--my opinion, again, sir--you can have a small force 
that is a ``hollow force.'' And so when I have referred to the 
potential here for a ``hollow force'' in the nuclear force, I 
am sounding the same cautionary note that my colleagues are 
sounding about the conventional forces.
    We can find ourselves in a position here, if we are not 
careful, where either through our sustainment efforts or lack 
thereof, or other elements here, that we can find ourselves in 
a place where we have a hollow nuclear force.
    I will tell you that my experience here is that, four or so 
years ago, some parts of our nuclear force, I think we came to 
the brink of, potentially, a ``hollow force.'' I think we 
discovered that we had some issues in our nuclear enterprise 
because of lack of sustainment funding.
    I think we found that there were some issues in our nuclear 
enterprise because lack of experience. I think we found that 
there were some issues in our nuclear enterprise because we 
were so committed to the wars that we had in the Middle East 
and Southwest Asia that we found that, perhaps at some level, 
we had taken our eye from some of the most critical pieces of 
what it takes to have perfection as the standard.
    So in my view, those are the cautions we need to make sure 
that we are looking at as we go forward. Where the mixture of 
forces that we are looking at, inside New START limits, at this 
point in time, no decisions have been made about what that 
ultimate force will look like. But we are looking at various 
alternatives here.
    Are there better ways than were described in the 1251 
Report to get to the balancing that is going to be required, 
and that still allows us to sustain properly while it allows 
us, perhaps, to be more fiscally efficient? Those are the 
issues that we are going to continue to look at.
    And I must say that I would want to make it clear from my 
perspective, anyway, that in these budget discussions we have 
been having, the nuclear deterrent force has not been immune 
from the conversations that we have been having, nor should 
they have been immune.
    And I think what we are looking at today and what we would 
look at if sequestration occurs are two different things. I 
think the current Secretary, the previous Secretary, both said 
everything is on the table. If sequestration occurs, I think 
everything, certainly in my world, is back on the table, while 
we are trying to balance other things as well: space, cyber and 
the other things that I am responsible for.
    So, again, my caution has been that if we are looking at 
alternative force mixtures, that we are mindful of all of the 
pieces that I believe must be in place as we go forward so that 
we do not result in a hollow force.
    One of those pieces, I believe, is professional expertise 
and professional experience and making sure that as we go 
forward to come up with balanced triads--and, by the way, I 
believe at this point in time, certainly, a triad is still the 
right way to go--that we do that with the thought in mind that 
we would be careful that we don't have that as a ``hollow 
force'' as we go forward.
    You asked about force posture as well, and so just let me 
add one other thing about force posture. We both size and 
posture our force today based upon the job that we have to 
perform, recognizing that the force that we give to the 
President has to be able to do a number of things.
    One thing it has to be able to do is provide day-to-day 
deterrence and assurance. Another thing it has to be able to do 
is respond to surprise. Another thing it has to be able to do 
is respond in a crisis so that we provide stability in a 
crisis. And another thing it has to be able to do is get larger 
within the treaty limit so that we can grow that force up to 
the treaty limits, or close to those limits if, in fact, the 
operational need dictates that in a deep crisis or, perhaps, if 
we were engaged in some kind of a world situation that required 
that.
    That means that we maintain a portion of our force in a 
ready-to-use posture on a day-to-day basis. I believe that is 
an appropriate posture today, and that is certainly an element 
of that as the at-sea survivable SSBNs, which I think is a 
critical piece of our posture. If that helps.
    Mr. Turner. Thank you, General.
    In concluding, I wanted to say to Dr. Miller and to General 
Kehler, we greatly appreciate not only your time in working 
with this committee and your commitment to a strong deterrent, 
which is, of course, evidenced in your questions, but also the 
fact that you guys are the experts.
    Thank you for being dedicated to this topic because we rely 
on your expertise so greatly. And when you come before 
Congress, you help us learn so that we can be a very good 
partner with you. So thank you again.
    And with that, we will be adjourned.
    [Whereupon, at 6:07 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            November 2, 2011

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 2, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1527.001
    
    [GRAPHIC] [TIFF OMITTED] T1527.002
    
    [GRAPHIC] [TIFF OMITTED] T1527.003
    
    [GRAPHIC] [TIFF OMITTED] T1527.004
    
    [GRAPHIC] [TIFF OMITTED] T1527.005
    
    [GRAPHIC] [TIFF OMITTED] T1527.006
    
    [GRAPHIC] [TIFF OMITTED] T1527.007
    
    [GRAPHIC] [TIFF OMITTED] T1527.008
    
    [GRAPHIC] [TIFF OMITTED] T1527.009
    
    [GRAPHIC] [TIFF OMITTED] T1527.010
    
    [GRAPHIC] [TIFF OMITTED] T1527.011
    
    [GRAPHIC] [TIFF OMITTED] T1527.012
    
    [GRAPHIC] [TIFF OMITTED] T1527.013
    
    [GRAPHIC] [TIFF OMITTED] T1527.014
    
    [GRAPHIC] [TIFF OMITTED] T1527.015
    
    [GRAPHIC] [TIFF OMITTED] T1527.016
    
    [GRAPHIC] [TIFF OMITTED] T1527.017
    
    [GRAPHIC] [TIFF OMITTED] T1527.018
    
    [GRAPHIC] [TIFF OMITTED] T1527.019
    
    [GRAPHIC] [TIFF OMITTED] T1527.020
    
    [GRAPHIC] [TIFF OMITTED] T1527.021
    
    [GRAPHIC] [TIFF OMITTED] T1527.022
    
    [GRAPHIC] [TIFF OMITTED] T1527.023
    
    [GRAPHIC] [TIFF OMITTED] T1527.024
    
    [GRAPHIC] [TIFF OMITTED] T1527.025
    
    [GRAPHIC] [TIFF OMITTED] T1527.026
    
    [GRAPHIC] [TIFF OMITTED] T1527.027
    
    [GRAPHIC] [TIFF OMITTED] T1527.028
    
    [GRAPHIC] [TIFF OMITTED] T1527.029
    
    [GRAPHIC] [TIFF OMITTED] T1527.030
    
    [GRAPHIC] [TIFF OMITTED] T1527.031
    
    [GRAPHIC] [TIFF OMITTED] T1527.032
    
    [GRAPHIC] [TIFF OMITTED] T1527.033
    
    [GRAPHIC] [TIFF OMITTED] T1527.034
    
    [GRAPHIC] [TIFF OMITTED] T1527.035
    
    [GRAPHIC] [TIFF OMITTED] T1527.036
    
    [GRAPHIC] [TIFF OMITTED] T1527.037
    
    [GRAPHIC] [TIFF OMITTED] T1527.038
    
    [GRAPHIC] [TIFF OMITTED] T1527.039
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            November 2, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1527.073
    
    [GRAPHIC] [TIFF OMITTED] T1527.074
    
    [GRAPHIC] [TIFF OMITTED] T1527.075
    
    [GRAPHIC] [TIFF OMITTED] T1527.076
    
    [GRAPHIC] [TIFF OMITTED] T1527.077
    
    [GRAPHIC] [TIFF OMITTED] T1527.040
    
    [GRAPHIC] [TIFF OMITTED] T1527.041
    
    [GRAPHIC] [TIFF OMITTED] T1527.042
    
    [GRAPHIC] [TIFF OMITTED] T1527.043
    
    [GRAPHIC] [TIFF OMITTED] T1527.044
    
    [GRAPHIC] [TIFF OMITTED] T1527.045
    
    [GRAPHIC] [TIFF OMITTED] T1527.046
    
    [GRAPHIC] [TIFF OMITTED] T1527.047
    
    [GRAPHIC] [TIFF OMITTED] T1527.048
    
    [GRAPHIC] [TIFF OMITTED] T1527.049
    
    [GRAPHIC] [TIFF OMITTED] T1527.050
    
    [GRAPHIC] [TIFF OMITTED] T1527.051
    
    [GRAPHIC] [TIFF OMITTED] T1527.052
    
    [GRAPHIC] [TIFF OMITTED] T1527.053
    
    [GRAPHIC] [TIFF OMITTED] T1527.054
    
    [GRAPHIC] [TIFF OMITTED] T1527.055
    
    [GRAPHIC] [TIFF OMITTED] T1527.056
    
    [GRAPHIC] [TIFF OMITTED] T1527.057
    
    [GRAPHIC] [TIFF OMITTED] T1527.058
    
    [GRAPHIC] [TIFF OMITTED] T1527.059
    
    [GRAPHIC] [TIFF OMITTED] T1527.060
    
    [GRAPHIC] [TIFF OMITTED] T1527.061
    
    [GRAPHIC] [TIFF OMITTED] T1527.062
    
    [GRAPHIC] [TIFF OMITTED] T1527.063
    
    [GRAPHIC] [TIFF OMITTED] T1527.064
    
    [GRAPHIC] [TIFF OMITTED] T1527.065
    
    [GRAPHIC] [TIFF OMITTED] T1527.066
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            November 2, 2011

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    Dr. Miller. The next inspection in Russia after November 2, 2011, 
was on November 16, 2011. The next inspection in the U.S. after 
November 2, 2011, was on November 7, 2011. [See page 28.]
    General Kehler. New START identifies ceilings for deployed and non-
deployed strategic delivery vehicles, launchers and accountable 
warheads. The language proposed in H.R. 1540, Section 1055, defines New 
START ceilings as the floor for delivery systems and warheads and 
restricts non-deployed warhead reductions. As the combatant commander 
responsible for the nuclear deterrence mission, my responsibility is to 
advise the Secretary of Defense and the President whether the force, as 
currently constituted, is mission capable. Section 1055 sets provisions 
that limit flexibility to implement treaty provisions, as well as limit 
our ability to efficiently and cost-effectively manage our strategic 
force structure and stockpile. These provisions could result in the 
diversion of strategic deterrence sustainment resources from critical 
programs needed to maintain mission capabilities and support the long-
term safety, security and reliability of our nuclear deterrent. [See 
page 30.]
    General Kehler. As the combatant commander responsible for managing 
forces and implementing the New START, I am concerned reporting 
requirements and waiting periods have the potential to impact New START 
implementation timeline. Additionally, the second provision restricts 
the DOD/DOE annual weapons requirements process by tying the adjustment 
of non-deployed quantities to infrastructure improvements that, given 
the current fiscal environment, may not materialize. This provision has 
the potential to divert resources from critical stockpile sustainment 
efforts and delay prudent reductions to the non-deployed stockpile. In 
my view, existing consultative processes (e.g., 1251, SSMP) ensure we 
work jointly with Congress to implement New START and manage the 
stockpile. [See page 42.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 2, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. At the House Armed Services Committee's October 13 
hearing, Secretary of Defense Panetta said, ``With regards to reducing 
our nuclear arena, I think that is an area where I don't think we ought 
to do that unilaterally--we ought to do that on the basis of 
negotiations with the Russians and others to make sure we are all 
walking the same path.'' To ensure we are not reducing unilaterally, 
will we retain nuclear forces that are at--or very near--the limits on 
strategic forces imposed by the New START Treaty? Otherwise, wouldn't 
it by definition be ``unilateral'' reductions?
    a. Would you support reductions if they were a part of a non-
binding agreement with Russia?
    b. At what force levels do we need to start bringing the ``others'' 
Secretary Panetta mentions, particularly China, into the picture?
    Dr. Miller. The Administration has not made a final decision on the 
specific mix of forces to be deployed under the New START Treaty. DOD 
continues to plan on 240 SLBM launchers, up to 420 ICBM launchers, and 
up to 60 nuclear-capable heavy bombers. It is important to note that 
the U.S. retains the flexibility to modify the mix of delivery systems 
under the Treaty.
    a. As stated in the Nuclear Posture Review (NPR), because of our 
improved relations, the need for strict numerical parity between the 
United States and Russia is no longer as compelling as it was during 
the Cold War. But large disparities in nuclear capabilities could raise 
concerns on both sides and among U.S. Allies and partners, and may not 
be conducive to maintaining a stable, long-term, strategic 
relationship, especially as nuclear forces are significantly reduced. 
Therefore, we will place importance on Russia joining us as we move to 
lower levels.
    b. Maintaining strategic stability with both Russia and China will 
remain a critical challenge in the years ahead. China is estimated to 
have only a few hundred nuclear weapons and to be modernizing its 
nuclear arsenal; a Chinese ``sprint to parity'' has not materialized. 
That said, the overall lack of transparency surrounding China's nuclear 
programs and capabilities raises questions about China's future 
strategic intentions. We continue to pursue high-level, bilateral 
dialogues with both Russia and China that seek to promote more stable, 
resilient, and transparent strategic relationships. It is impossible at 
this time to pinpoint an exact force level at which the United States 
and Russia would want to bring other nations into a binding agreement. 
However, given that the United States and Russia will still account for 
90 percent of the world's nuclear weapons after New START is 
implemented, there is a clear opportunity for future bilateral 
reductions--including of tactical nuclear weapons, which the Russians 
have in much larger numbers.
    Mr. Turner. Dr. Miller, you noted that the NPR stated that ``strict 
numerical parity between the United States and Russia is no longer as 
compelling as it was during the Cold War,'' but that ``we will place 
importance on Russia joining us as we move to lower levels.'' In my 
mind, ``placing importance on'' is not the same as ``we won't do 
this.'' Will the administration make reductions without reciprocal and 
proportionate reductions from Russia?
    Dr. Miller. The Administration is conducting a Nuclear Posture 
Review (NPR) implementation study to determine the nuclear force size 
and structure needed to support U.S. national security requirements and 
meet international obligations in a dynamic security environment. The 
ongoing study was directed by the President as part of the 2010 NPR. 
The analysis from this study will provide options for the President's 
guidance to the Departments of Defense and Energy on nuclear planning 
with respect to the force structure, force posture, and stockpile 
requirements needed to protect the United States and its Allies and 
partners, and to inform plans for the employment of nuclear weapons in 
the event that deterrence fails. As stated in the NPR, the United 
States intends to pursue further reductions in nuclear weapons with 
Russia. When complete, the analysis of deterrence requirements and 
force postures will inform the development of any future arms control 
objectives.
    Mr. Turner. How many military and civilian personnel in the 
executive branch have full or partial access to nuclear employment and 
targeting guidance issued by the President, the Secretary of Defense, 
the Chairman of the Joint Chiefs of Staff, and the Commander of U.S. 
Strategic Command? Please break down this information by the numbers of 
personnel with access to each level of guidance. How many personnel in 
the legislative branch have full or partial access to each level of 
guidance?
    Dr. Miller. A very small group of personnel in the executive branch 
have access to the nuclear employment guidance issued by the President, 
the Secretary of Defense, the Chairman of the Joint Chiefs of Staff, 
and the Commander, U.S. Strategic Command. Even within the Department 
of Defense (DOD), access to this sensitive material is tightly 
controlled. Within the Department of Defense, fewer than twenty copies 
of the President's guidance are distributed in the Office of the 
Secretary of Defense, the Joint Staff, and U.S. Strategic Command. 
Fewer than 200 copies of the most recent amplifying guidance issued by 
the Secretary of Defense were produced, and distribution was limited 
primarily to Office of the Secretary of Defense, the Joint Staff, U.S. 
Strategic Command, and other Combatant Commanders. The Chairman's 
guidance is distributed more widely within DOD (fewer than 200 copies), 
as the document assigns responsibilities to several defense agencies 
and the intelligence community. Commander, U.S. Strategic Command must 
issue guidance to his planners and forces in the field, so distribution 
is somewhat wider because of that need.
    There is a long history of debate about providing the legislative 
branch access to this material. As a result, instances of providing 
access to a member of Congress and senior staff personnel have been 
quite limited and under restrictive terms.
    This Administration is committed to working with Congress and 
supporting effective congressional oversight on nuclear policy and 
modernization issues. To this end, the Secretary of Defense has invited 
the Chairmen and Ranking Members of the House and Senate Armed Services 
Committees and the Strategic Forces Subcommittees, and the relevant 
staff directors, to participate in a set of classified briefings that 
the Office of the Secretary of Defense would provide, in conjunction 
with the Joint Staff and U.S. Strategic Command. The provision of such 
information would be subject to strict safeguards given its extremely 
sensitive nature.
    Mr. Turner. The House Appropriations Committee reported a Defense 
Appropriations bill that contains a 1% reduction from the President's 
budget request for DOD. The House Appropriations Committee reported an 
Energy and Water appropriations bill that contains a 10% reduction for 
NNSA and all of its defense activities. This came after strong and 
vocal support from Secretary Gates and senior military leaders for 
NNSA's full budget request. How do these discrepancies affect planning, 
budgeting, and coordination between NNSA and DOD on the overall nuclear 
security enterprise? Should all aspects of the nuclear security 
enterprise be consolidated into a single budgetary and appropriations 
authority?
    Dr. Miller. The modernization program was closely coordinated 
between the Department of Energy and the Department of Defense to 
ensure that modernization efforts are funded, but also to manage costs 
wisely. If Congress makes reductions without context and without 
thoroughly examining the long-term effects on the national interest, 
such actions could undermine our plans to ensure a safe, secure, and 
effective nuclear deterrent.
    It is essential to look across the complete nuclear security 
enterprise to review budgetary impacts fully, particularly in light of 
our current fiscal situation and the new constraints imposed by the 
Budget Control Act of 2011; however, this does not necessarily require 
a single budgetary and appropriations authority. As you know, the 
Nuclear Weapons Council (NWC), established in Title 10, Section 179, of 
the U. S. Code, has responsibility for coordinating programming and 
budget matters pertaining to nuclear weapons programs between the 
Department of Defense and the Department of Energy. The NWC has been 
active in this role, and the Departments of Defense and Energy will 
continue to consider any steps that could further improve effective 
planning and oversight.
    Fulfilling the President's commitment to modernize the nuclear 
enterprise will require full and sustained congressional support. As we 
review our defense budget for the most cost-effective means to secure 
our Nation, I look forward to working with Congress to ensure funding 
for the critical activities within the Department of Defense and 
Department of Energy that are necessary to sustain the most effective 
nuclear deterrent.
    Mr. Turner. You said the 1251 Report shows that the total cost of 
sustaining, operating, and modernizing our nuclear forces, nuclear 
weapons, and their supporting infrastructure over the next ten years--
for both DOD and NNSA--is on the order of $214 billion. What percentage 
of the defense budget is this? What percentage of the full federal 
budget is this? How does this compare to historical trends, including 
the Cold War? Please be as specific as possible.
    Dr. Miller. The $214 billion is about 3 percent of the 10-year 
defense base budget of $6.3 trillion (including the Department of 
Defense (DOD) and the National Nuclear Security Administration) and is 
about 2 percent of the Federal budget of $12.2 trillion (excluding 
Overseas Contingency Operations).
    The following are some historical trends based on the DOD budget:
    <bullet>  Funding for Strategic Forces ($0.6 trillion) as a percent 
of the DOD budget ($12.7 trillion) from FY 1962 to FY 2011 was about 4 
percent.
    <bullet>  Funding for Strategic Forces ($0.4 trillion) as a percent 
of the DOD budget ($4.4 trillion) during the Cold War (based upon data 
from FY 1962 to FY 1991) was about 8 percent.
    <bullet>  Funding for Strategic Forces ($.2 trillion) as a percent 
of the DOD budget ($8.3 trillion) after the Cold War (from FY 1992 to 
FY 2011) was about 2 percent.
    Note: The source for the historical data was from Table 6.4, 
Department of Defense TOA by Program, in DOD's ``National Defense 
Budget Estimates for FY 2012'' book (commonly referred to as the 
``Green Book.'' This historical data includes all supplementals and 
Overseas Contingency Operations/Global War on Terrorism funding.
    Mr. Turner. We have heard that within the Deterrence and Defense 
Posture Review (DDPR) process, some NATO allies might be encouraging 
several changes to NATO's nuclear posture, possibly including: (1) 
consolidation of U.S. nuclear forces in Europe to one or more 
centralized bases, (2) decreasing the number of dual-capable aircraft 
our allies are required to maintain, (3) relaxing or eliminating 
requirements for pilots from allied nations to be trained and exercise 
in the nuclear mission, and (4) potential removal of U.S. nuclear 
weapons from Europe.
    a. Are any of these actions being considered by the DDPR? Which 
ones?
    b. Would NATO and the U.S. consider taking any of these steps 
unilaterally, without reciprocal and proportionate action on the part 
of Russia?
    i. What actions would we consider taking unilaterally, and what 
actions would we only undertake bilaterally with Russia?
    ii. What reciprocal actions would the U.S. look for from Russia in 
exchange for any of these four actions?
    Dr. Miller. The DDPR process is still in the deliberative stages. 
However, in keeping with the Strategic Concept, any future reductions 
will be made on the basis of reciprocity with Russia, not unilaterally. 
We have not determined what reciprocal actions from Russia would be 
sufficient for future changes.
    Mr. Turner. Some subset of F-35 joint strike fighters are intended 
to be nuclear-capable, replacing the nuclear-capable F-16s that will be 
retired due to age. Can you affirm that there will be nuclear-capable 
F-35s? This decision has been made and is being implemented?
    a. How many F-35s will be nuclear-capable?
    b. Based on the current F-35 program plan, when will the first 
nuclear-capable F-35s be deployed?
    c. When will the first nuclear-capable F-35s be deployed to Europe?
    Dr. Miller. Yes, the 2010 Nuclear Posture Review confirmed the need 
to retain a dual-capable fighter to ensure that the United States 
retains the ability to forward deploy non-strategic nuclear weapons in 
support of Alliance commitments. The Air Force plans to replace current 
DCA-capable aircraft with the F-35 Joint Strike Fighter and intends to 
program, develop, and integrate nuclear capability as part the Joint 
Strike Fighter's Block 4 upgrade planned to be released to the field in 
the early 2020s.
    a. The Air Force plans to purchase 1,763 F-35As. The Air Force 
remains committed to deliver the DCA capability with the Block 4 
upgraded F-35As in the early 2020s.
    b. The Air Force will be prepared to deploy nuclear-capable F-35As 
after the Block 4 upgrade in the early 2020s.
    c. The first nuclear-capable U.S. Air Force F-35As will be 
available for Europe in the early 2020s.
    Mr. Turner. How does the deployment of the B61-12 warhead align 
with deployment of nuclear-capable F-35s? Is deployment of the two 
systems linked? Can one deploy without the other, while still retaining 
our nuclear capability in Europe?
    Dr. Miller. The B61-12 will sustain the U.S. extended deterrence 
commitment to our Allies through life extension of the aging B61 family 
of bombs. As part of this life-extension effort, compatibility with the 
F-35 will be preserved; however, the B61 and F-35 programs are not 
dependent on one another. Until the F-35 becomes nuclear-capable, non-
strategic deployment of the B61-12 will, if required, occur though the 
use of existing Dual-Capable Aircraft.
    Mr. Turner. Are our NATO allies still planning to purchase dual-
capable F-35s to replace their aging dual-capable aircraft? How many do 
they plan to purchase and when? Please describe the plans for NATO 
countries to replace or modernize their nuclear-capable aircraft, 
including numbers of aircraft and timelines for purchase. How are these 
plans being reflected in the DDPR?
    Dr. Miller. Although the specific dates and quantities are 
classified, some Allies are still planning to purchase F-35 aircraft. 
The DDPR process is still in the deliberative stage.
    Mr. Turner. When NNSA conducts a life extension program on a 
particular weapon type, will NNSA extend the life of all warheads of 
that type, including those in the non-deployed ``hedge'' part of the 
stockpile? Or will it only extend those weapons in the active, deployed 
part of the stockpile?
    Dr. Miller. Each nuclear weapon life extension is unique to its 
type and the hedge required to support operational requirements. Total 
quantities for each life extension are determined by accounting for 
operational needs, reliability and surveillance testing, spares, and 
hedge needs. Hedge quantities are affected by geopolitical and 
technical requirements to support each leg of the triad. The 
Administration is reviewing hedging requirements and their implication 
for stockpile size and status as part of the Nuclear Posture Review 
implementation study.
    Mr. Turner. Would you please elaborate on your statement that ``To 
date no decisions have been made with respect to future force sizing or 
the modernization plans for nuclear delivery systems; such decisions 
will be informed by the Administration's ongoing review of deterrence 
requirements''? Do the commitments made for modernization in the 1251 
Report still hold? Does the President's commitment to the Senate during 
New START consideration still hold? In a message to the Senate on New 
START, the President said: ``I intend to (a) modernize or replace the 
triad of strategic nuclear delivery systems: a heavy bomber and air-
launched cruise missile, an ICBM, and a nuclear-powered ballistic 
missile submarine (SSBN) and SLBM.''
    Dr. Miller. To date, no final decisions have been made with respect 
to the specific future force sizing or the modernization plans for 
nuclear delivery systems--i.e., the exact mix of delivery systems and 
warheads under the New START Treaty. Such decisions will be informed by 
the Administration's ongoing review of deterrence requirements. I can 
assure you, however, that these decisions will be consistent with the 
goals of the NPR, including to maintain strategic stability, provide 
assurance to our Allies and partners regarding the credibility of the 
U.S. nuclear umbrella and other security commitments, and to maintain a 
safe, secure, and effective nuclear deterrent.
    The Administration is committed to making the investments necessary 
to recapitalize the nuclear enterprise and ensure we have the highly 
skilled personnel needed to maintain our nuclear capabilities. These 
are large investments that must be made over an extended period, but 
are essential to U.S. national security.
    Mr. Turner. The 2010 Nuclear Posture Review (NPR) says that ``the 
presence of U.S. nuclear weapons--combined with NATO's unique nuclear 
sharing arrangements under which non-nuclear members participate in 
nuclear planning and possess specially configured aircraft capable of 
delivering nuclear weapons--contribute to Alliance cohesion and provide 
reassurance to allies and partners who feel exposed to regional 
threats.''
    a. Please explain how the presence of nuclear weapons in Europe 
contributes to NATO cohesion, reassurance, and stability.
    b. In particular, which NATO allies value these nuclear weapons and 
``feel exposed to regional threats''?
    c. Will unanimity among NATO members be required before any major 
changes are made to our nuclear posture in Europe? What sorts of 
changes to our nuclear posture in Europe might we undertake without 
unanimity of NATO members?
    Dr. Miller. The Strategic Concept reinforced that the Alliance will 
maintain an ``appropriate mix'' of nuclear and conventional forces, and 
that the Alliance would ``remain a nuclear Alliance as long as nuclear 
weapons exist.'' As such, nuclear weapons contribute to overall 
cohesion and stability of the Alliance. The Strategic Concept also lays 
out the threats to which all members are exposed, including 
conventional threats, proliferation threats, terrorism, and cyber 
attacks. No major changes to nuclear posture would be expected without 
consensus from Alliance members.
    Mr. Turner. Dr. Miller, you recently told a reporter that DOD might 
be willing to contribute more funding to NNSA's nuclear modernization 
efforts, but would not be willing to transfer any more budget authority 
if the Energy and Water appropriators do not use it for the intended 
modernization purpose. Were you referring to some of the $8.3 billion 
in budget authority DOD has already pledged for NNSA, or were you 
referring to additional funds beyond this $8.3 billion?
    Dr. Miller. The approximately $8.3B pledged for NNSA consisted of 
two separate transfers--the first was $5.7B during Fiscal Year (FY)11-
FY15 and the second was $2.5B during the FY12-16 period. This second 
transfer was intended to be distributed annually. It is the annual 
distribution of this second transfer that I believe should be 
reconsidered if funding is not appropriated as it was intended.
    Mr. Turner. Dr. Miller, you recently said that you haven't seen 
anything to suggest that $7.6 billion for NNSA Weapons Activities is 
not the correct figure for FY12. Would you please elaborate?
    Dr. Miller. The Fiscal Year (FY)12 Presidential Budget Request for 
NNSA Weapon Activities was $7,629,716,000, which is the amount required 
to meet DOD nuclear weapons requirements. This figure was arrived at 
after careful consideration of the need to implement the policies of 
the Nuclear Posture Review and the requirements of the New START 
Treaty. This funding request is in alignment with the ten-year funding 
profile in the report pursuant to Section 1251 of the National Defense 
Authorization Act for Fiscal Year 2010; this profile was provided to 
Congress in February 2011. It also includes a transfer of funds from 
the DOD to the NNSA to ensure weapon life extension programs and 
nuclear facility modernization efforts are funded appropriately.
    Mr. Turner. The 2010 NPR states that nuclear force reductions are 
possible because of overwhelming conventional military superiority. 
Since the NPR was written, $330 billion in weapons systems have been 
cancelled and $489 billion has been taken out of the defense budget. 
And now we have the specter of sequester looming ahead with the promise 
of an additional half trillion in cuts. Is this premise in the 2010 NPR 
still valid? At what point is it not? Where is the break-point in terms 
of our conventional military superiority as we see both China's large 
buildup in conventional military capability and asymmetric capabilities 
and China and Russia's major nuclear modernization programs?
    Dr. Miller. Under the funding levels required by the Budget Control 
Act, the United States will continue to possess overwhelming 
conventional capability against any conceivable adversary for the 
foreseeable future. If sequestration occurs, the scale and arbitrary 
nature of the required cuts to defense spending would inflict severe 
damage on the U.S. military. In this case, the United States would need 
to reconsider all elements of its defense strategy.
    Mr. Turner. After implementation of the New START Treaty and the 
NPR, what percentage of our strategic forces will be deployed on 
submarines?
    a. Has the U.S. ever deployed so much of its deterrent on a single 
platform before? In other words, on one leg of the triad and on one 
type of submarine, ICBM, or bomber? What risks does the U.S. accept by 
doing so?
    Dr. Miller. Final decisions on specific force mix under New START 
have not yet been made, but more than half of our operational strategic 
warheads will be deployed on submarines.
    The United States since the end of the Cold War, has deployed a 
large portion of our forces on SSBNs. The percentage of warheads 
deployed aboard SSBNs today is very similar to what we would expect 
after full implementation of the New START Treaty.
    There are both operational and technical risks associated with 
strategic submarines. The operational risk is that these submarines 
could become vulnerable--a scenario that appears highly unlikely for 
the indefinite future. The technical risk is that a problem with the 
type of warheads carried on the submarines, or with our submarine-
launched ballistic missiles, or the submarines themselves, could result 
in that portion of the force becoming unavailable. A massive technical 
failure is also highly unlikely. However, because of the importance of 
the nuclear deterrence mission we mitigate these risks by maintaining 
the capability to upload other legs of the Triad in response. To be 
well-hedged against a technical surprise remains a key priority, and is 
one of the metrics we use when evaluating force structures.
    Mr. Turner. The NPR concluded that ``the current alert posture of 
U.S. strategic forces . . . should be maintained for the present.'' 
Please explain why the NPR reached this decision. What are the benefits 
of our current alert posture? Do you anticipate changes in this 
decision?
    Dr. Miller. The Nuclear Posture Review (NPR) considered the 
possibility of reducing alert response requirements for ICBMs and at-
sea response requirements of SSBNs, and concluded that such steps could 
reduce crisis stability by giving an adversary the incentive to attack 
before ``re-alerting'' was complete. At the same time, the NPR 
concluded that returning heavy bombers to full-time nuclear alert was 
not necessary, assuming the other two Triad legs retain an adequate 
alert posture.
    The current alert posture supports strategic stability through an 
assured second-strike capability. It ensures that, in the calculations 
of any potential opponent, the perceived gains of attacking the United 
States or its Allies and partners would be far outweighed by the 
unacceptable costs of the response.
    At this time, I do not anticipate any major changes in the alert 
posture for U.S. strategic forces.
    Mr. Turner. Germany and Norway have put forward ideas in the DDPR 
process to increase transparency in NATO's nuclear mission and NATO's 
nuclear forces. What transparency measures are being considered?
    a. What NATO transparency measures are the U.S. comfortable with 
NATO doing unilaterally (i.e., without reciprocal and proportionate 
action by Russia)?
    b. What NATO transparency measures would we only consider doing 
bilaterally based on agreements with Russia? Would you anticipate such 
bilateral agreements being based on non-binding agreements or through 
some sort of binding treaty or agreement?
    c. How does the administration define ``transparency''? How does it 
define ``verification''? How are the two concepts related?
    Dr. Miller. The Deterrence and Defense Posture Review (DDPR) 
process is still in the deliberative stages. We have not determined 
what constitutes ``transparency measures'' and which ones will be 
considered.
    Transparency and verification are closely related concepts. The New 
START Treaty, for instance, provides significant transparency regarding 
the strategic nuclear relationship between the United States and Russia 
through its extensive verification regime. The Treaty's verification 
measures include extensive notifications, prohibitions on interference 
with National Technical Means (NTM), unique identifiers, inspections, 
and exhibitions. These measures allow each side to gain important 
insights into the other side's strategic forces. They also reduce 
uncertainty about the future direction of Russian strategic forces and 
assist in improved planning for our future defense needs. On the whole, 
this shared knowledge is valuable for maintaining strategic stability 
between the two major nuclear powers.
    Mr. Turner. How does the B61 Life Extension Program (LEP), which 
would consolidate several different versions of the B61 into a single 
B61-12 version, link to our extended deterrent in Europe?
    a. What are the implications, both to our extended deterrent and 
more broadly, of delay in the B61 LEP?
    b. Why is it important to increase surety in B61 warheads during 
the LEP?
    Dr. Miller. The intent of the B61 LEP is to consolidate four 
current versions of the B61 family of bombs into one single version 
that will continue to sustain both our strategic and extended 
deterrence missions. NNSA, in coordination with the Department of 
Defense (DOD), identified the Initial Operating Capability (IOC) and 
Full Operating Capability (FOC) to ensure that a seamless transition 
between the B61-12 and the earlier versions that it is replacing is 
achieved without any loss in operational capability. The NNSA and DOD 
will continue to address any delay in meeting these dates that could 
potentially jeopardize those missions and the extended deterrence 
commitment to our Allies and friends.
    As part of any life extension program, NNSA considers options for 
enhancing the safety, security, and use control features of a weapon 
system as part of the Phases 6.1/2/2A process. Policy directives 
require an assessment of the warhead to meet safety and security 
objectives for the future. This process ensures that viable weapon 
surety features are identified and evaluated against all other design 
requirements and balanced against cost and schedule risks to assure our 
commitment to a safe, secure, and effective nuclear deterrent.
    Mr. Turner. When will a decision be made regarding how specifically 
our nuclear forces will be structured to comply with the New START 
Treaty? When will de-MIRVing of our ICBM forces begin to occur?
    Dr. Miller. To date, no final decisions have been made with respect 
to force structure under the new START Treaty; such decisions will be 
informed by the Obama Administration's ongoing review of deterrence 
requirements. I can assure you that these decisions will be consistent 
with the goals of the Nuclear Posture Review (NPR), including to 
maintain strategic stability, provide assurance to our Allies and 
partners regarding the credibility of the U.S. nuclear umbrella and 
other security commitments, and to maintain a safe, secure, and 
effective nuclear deterrent.
    Partial ``de-MIRVing'' (MIRV, Multiple Independent Reentry Vehicle) 
of our ICBM forces began in the 1990s as part of our reductions under 
the START Treaty. The Air Force has also begun the complete de-MIRVing 
of the rest of the ICBM force, as directed in the NPR, in conjunction 
with previous commitments and Air Force-established maintenance plans. 
This minimizes disruption to our operational forces and is the most 
cost-effective method for carrying out the NPR guidance to de-MIRV the 
ICBM force.
    Mr. Turner. Dr. Miller, in your remarks, you said ``The U.S. 
nuclear arsenal included 5,113 weapons as of September 30, 2009, at the 
time of our last unclassified release of stockpile totals.'' How many 
of those weapons were in the various categories of active, inactive, 
deployed, non-deployed, etc.? Is there any intention to make such 
detailed numbers public?
    Dr. Miller. The specific numbers associated with the deployed/non-
deployed, active/inactive stockpile remain classified and, as such, are 
not to be made public. However, the United States declared an aggregate 
1,790 warheads on deployed ICBMs, deployed SLBMs, and counted for 
deployed heavy bombers to the Russian Federation as part of the New 
START Treaty on September 1, 2011. There is no current plan to make 
public the specific numbers of deployed/non-deployed, active/inactive 
stockpile weapons.
    Mr. Turner. How many nuclear warheads does Russia make each year? 
What is our estimate for how many it can make? How does this compare to 
actual U.S. production and our potential production capacity?
    Dr. Miller. [The information referred to is classified and retained 
in the committee files.]
    Mr. Turner. Dr. Miller, when you said ``unclassified estimates 
suggest that Russia has 4,000 to 6,500 total nuclear weapons, of which 
2,000 to 4,000 are non-strategic tactical nuclear weapons,'' are those 
numbers active warheads or all Russia warheads (including those in 
storage or non-deployed status)?
    Dr. Miller. [The information referred to is classified and retained 
in the committee files.]
    Mr. Turner. Are you concerned about reports about China potentially 
increasing the MIRVing of its land- and sea-based ballistic missiles? 
How might this trend affect the nuclear balance and our nuclear 
policies 10 or 20 years from now? Are you concerned about reports of 
Russia developing and deploying new heavy, highly-MIRV'd, silo-based 
ICBMs? How would deployment of this system affect strategic stability 
and U.S. nuclear policies and strategies? Did the U.S. seek to ban such 
systems during New START negotiations?
    Dr. Miller. We are concerned about the pace and scope of the 
modernization of China's nuclear capabilities, both quantitatively and 
qualitatively. We are also concerned about the lack of transparency 
regarding the strategy and doctrine guiding this effort. Moreover, the 
overall lack of transparency surrounding China's nuclear programs and 
capabilities raises questions about China's future strategic intentions 
and makes it difficult to assess the future nuclear balance.
    A Russian deployment of a new heavy, highly MIRVed, silo-based ICBM 
would reduce our strategic stability. The United States is taking steps 
to enhance strategic stability, including de-MIRVing ICBMs and 
sustaining a robust at sea presence of strategic submarines. These U.S. 
steps reduce first-strike incentives for both sides, thereby enhancing 
stability.
    These questions and potential concerns illustrate why we continue 
to pursue high-level, bilateral dialogues with China and Russia that 
seek to promote a more stable, resilient, and transparent strategic 
relationships.
    Mr. Turner. The NPR mentions ``strategic stability'' more than a 
dozen times, but never defined it. How does the administration define 
``strategic stability''? How does it relate to force structure, 
numbers, and modernization? How do nuclear modernization programs in 
Russia and China affect strategic stability? How is strategic stability 
affected in the long-term if other countries continue their nuclear 
modernization efforts but our own modernization effort stalls or is 
greatly reduced in scope?
    Dr. Miller. Strategic stability exists when no side has incentives 
or believes the other side has incentives to attempt to conduct a 
disarming first-strike, whether in a day-to-day situation (``bolt-from-
the-blue'' scenario) or in a severe crisis (``pre-emption in crisis'' 
scenario). Survivable nuclear forces and command and control are 
critical to strategic stability, and other factors including the de-
MIRVing of silo-based ICBMs contribute to stability. Modernization that 
sustains or improves the survivability of nuclear forces and command 
and control can be stabilizing. Increased transparency and discussions 
on strategic doctrine, which the United States would like to expand 
with Russia and initiate with China, can also improve stability by 
reducing the prospects for miscommunication or misperception.
    Mr. Turner. General Kehler, you cautioned against cutting the 
budget or size of our nuclear forces too deeply, resulting in what you 
called a ``hollow force.'' For each of the three legs of the triad, 
what are the breakpoints or red-lines in the size of the force or 
budget that would result in a ``hollow force'' for that leg?
    a. What analysis has been done to examine these questions?
    b. Would cutting one wing of ICBMs--leaving us with two wings--
potentially result in a hollow force in that leg of the triad?
    General Kehler. A hollow force is a force giving the appearance of 
readiness when, in fact, the capability is not there. The force may be 
hollow if it is too small for the job, is inadequately supported, or 
lacks an adequate industrial base. Therefore, any discussion and 
assessment on ``hollow force'' or breakpoints must be preceded by a 
thorough analysis of the strategy, its objectives, force composition, 
and the level of budgetary support.
    A. Resources and force structure identified in the President's 
Budget and the updated 1251 Report are adequate to support today's 
strategic deterrent strategy and policy goals as we move forward to 
implement New START.
    B. Eliminating a wing of ICBMs would not necessarily create a 
hollow force, provided the remaining wings can meet national strategic 
deterrent requirements, and are properly trained, equipped, maintained, 
sustained, and led.
    Mr. Turner. At the House Armed Services Committee's October 13 
hearing, Secretary of Defense Panetta said, ``With regards to reducing 
our nuclear arena, I think that is an area where I don't think we ought 
to do that unilaterally--we ought to do that on the basis of 
negotiations with the Russians and others to make sure we are all 
walking the same path.'' To ensure we are not reducing unilaterally, 
will we retain nuclear forces that are at--or very near--the limits on 
strategic forces imposed by the New START Treaty? Otherwise, wouldn't 
it by definition be ``unilateral'' reductions?
    a. Would you support reductions if they were a part of a non-
binding agreement with Russia?
    b. At what force levels do we need to start bringing the ``others'' 
Secretary Panetta mentions, particularly China, into the picture?
    General Kehler. As specified in the 1251 report, we are presently 
looking at New START implementation plans that are ``at or very near 
the limits imposed by the New START Treaty.'' Any recommendations to 
depart from that approach would have to be based on the international 
situation and our deterrence, assurance and stability needs.
    Regarding bringing states other than Russia into negotiated nuclear 
arms reductions, the New START negotiating position took into account 
our total force requirement involving all potential threats. As 
discussed in the Nuclear Posture Review, we should bring others into 
the ``picture'' now. But the ``picture'' is not necessarily limited to 
negotiated arms reductions. Rather, the nature and objectives of our 
interactions with others should be tailored to the countries involved.
    Mr. Turner. Would you support unilateral reductions in our nuclear 
forces, below the levels prescribed by New START? Would you support 
reductions if they are part of a non-binding agreement with Russia?
    General Kehler. I support the 13 October statement of Secretary of 
Defense Panetta: ``With regards to reducing our nuclear arena, I think 
that is an area where I don't think we ought to do that unilaterally--
we ought to do that on the basis of negotiations with the Russians and 
others to make sure we are all walking the same path.'' We are 
currently looking at New START force structures that are at or very 
near the limits contained in New START.
    Mr. Turner. General Kehler, your predecessor at U.S. Strategic 
Command, General Kevin Chilton, said in June 2010 that, with regards to 
the size of our nuclear arsenal, ``I do not agree that it is more than 
is needed. I think the arsenal that we have is exactly what is needed 
today to provide the deterrent. And I say this in light of--when we 
talk about the non-deployed portion of the arsenal, it is sized to be 
able to allow us to hedge against both technical failures in the 
current deployed arsenal and any geopolitical concerns.'' Do you agree?
    General Kehler. The nuclear arsenal is sized to meet current policy 
and strategy objectives and manage technical and geopolitical risks. 
The non-deployed stockpile provides considerable flexibility to respond 
to operational issues, technical failures or breakthroughs, and 
geopolitical uncertainty. We annually review stockpile requirements to 
seek the most cost efficient force mix to provide deterrence 
capabilities and manage risk.
    Mr. Turner. How many military personnel have full or partial access 
to STRATCOM's OPLAN 8010? How many must have knowledge of its contents 
to fulfill their jobs and missions?
    General Kehler. Full access to all portions of OPLAN 8010 is 
limited to our most senior leadership. OPLAN 8010 is built on a full 
spectrum of missions (nuclear, conventional, and non-kinetic) that 
involve all levels of USSTRATCOM and its components. Because the 
majority of the base plan and supporting annexes are classified SECRET, 
military members with at least a SECRET clearance and need-to-know can 
be granted access. However, those portions of the plan do not include 
the details of our nuclear employment planning. Some portions of the 
plan contain data which are classified at a higher level, including 
those portions that include the details of our nuclear employment 
planning, and access to those portions is limited accordingly.
    Mr. Turner. When does our current force of Minuteman III ICBMs 
start aging out? What life extension programs are currently underway 
for the ICBMs?
    a. What assessments or surveillance are we doing related to aging 
in the ICBM force?
    b. What are our plans or programs to extend the life of our 
Minuteman III ICBMs? When must the decision be made to proceed with 
life extension?
    c. What are our plans or programs to replace the Minuteman III ICBM 
force? When must the decision be made on a replacement program?
    General Kehler. We are confident Minuteman is sustainable through 
mid-2020s and are engaged with the Air Force to identify any additional 
steps required to sustain Minuteman through 2030. The Air Force is 
refurbishing the propulsion system rocket engines and warhead fuzes, 
making improvements to depot and field support equipment, and security 
and C2 sub-systems.
    A. The Air Force conducts a comprehensive aging and surveillance 
program and reports the results to USSTRATCOM. The surveillance and 
testing program includes ground and flight testing. Results are used to 
assess performance of the weapon system and provide insights on the 
need for refurbishment and replacement programs.
    B. The current Air Force plan is to extend Minuteman through 
component replacement. This program is ongoing and reflected in the 
PB12 budget. Major sub-systems being refurbished include the propulsion 
system rocket engine and warhead fuzes. Guidance and propulsion sub-
systems require attention in the very near future to ensure performance 
through 2030. Additionally, the Air Force is making investments in 
advanced technology to support these future efforts.
    C. Analysis is underway to support the Minuteman recapitalization. 
The Air Force plans to conduct a Ground Based Strategic Deterrent 
(GBSD) Analysis of Alternatives (AoA) to examine the full range of 
alternatives including mobile options, as directed by the NPR. The 
decision on investment for a Minuteman replacement depends on AoA 
findings. Early investments may be required in the FY14 budget. The 
goal is to ensure current and future investments on sub-systems are 
leveraged in the recapitalization solution.
    Mr. Turner. How do we support the industrial base for ICBMs and 
submarine launched ballistic missiles? Please compare and contrast our 
approach to maintaining the industrial base for these two programs.
    a. The committee has been informed that there is a low-rate 
production program in place for the D5 SLBM program. Is a similar 
program in place for Minuteman III?
    b. Do you have any concerns related to the rocket motor industrial 
base, now that NASA has canceled so many of its human spaceflight 
programs? Is DOD shouldering too much of the burden in this area now?
    General Kehler. Various DOD solid rocket motor investments support 
the industrial base. DOD Director of Defense Research and Engineering 
(DDR&E) conducts science and technology (S&T) activities in propulsion 
in the Technology for Sustainment of Strategic Systems Program. The Air 
Force conducts propulsion Research Development Testing and Evaluation 
(RDT&E) activities in the Demonstration and Validation Program. The 
Navy D5 Life-Extension Program executes ongoing production of the D5 
missile.
    A. The Air Force conducts ongoing RDT&E efforts which could support 
a future low-rate production activity, if funded by the Air Force.
    B. In order to support strategic systems, the DOD will bear an 
increased proportion of the industry's overhead costs. These increases 
will be reflected in ongoing production and future development 
programs. In addition, the U.S. needs to ensure the complete design-to-
production industrial capability and suppliers are sustained. Loss of 
these capabilities would require numerous years and significant cost to 
reconstitute.
    Mr. Turner. General Kehler, your predecessor as commander of 
Strategic Command, General Kevin Shelton, said the following in June 
2010: ``The reason we have to maintain this large inventory is because 
we no longer have the ability to produce nuclear weapons in this 
country. The infrastructure has been allowed to decay and get to a 
point where we cannot do that. The Russians, on the other hand, have an 
ability to produce nuclear weapons. That is how they hedge. And so, 
this is why it's--I think, the NPR findings and the investments in the 
nuclear infrastructure and the personnel and expertise that is required 
to sustain the stockpile are so important so that by the time we get to 
next decade, we'll be in a position to look at our non-deployed arsenal 
and consider future reductions to that. But today, I think we have what 
we need to support the deterrent.'' Earlier this year, Administrator 
D'Agostino testified before this subcommittee that NNSA's new plutonium 
and uranium facilities--the Chemistry and Metallurgy Research 
Replacement (CMRR) facility in New Mexico and the Uranium Processing 
Facility (UPF) in Tennessee--need to be ``up and running'' before we 
make substantial cuts to the non-deployed stockpile. General Kehler, do 
you agree with these statements by General Chilton and Administrator 
D'Agostino?
    a. Should ``up and running'' mean the facilities are being built, 
or should they have demonstrated actual production capability? What 
metrics should we be using to judge that the infrastructure is robust 
enough to support reductions in the non-deployed stockpile without 
undue risk?
    b. General Kehler, would you please provide the military's 
perspective on the link between nuclear modernization and the ability 
to reduce non-deployed weapons?
    c. Do DOD and NNSA have a clear plan on what reductions in the non-
deployed stockpile are possible or planned for the future, and how 
those reductions align with infrastructure and stockpile modernization 
milestones?
    d. Has STRATCOM provided NNSA input regarding how many non-deployed 
weapons the military requires kept in the stockpile as a ``hedge''? 
Please provide this information to the committee.
    e. If nuclear modernization is delayed or postponed, can we reduce 
the size of the non-deployed stockpile? How many non-deployed nuclear 
weapons would STRATCOM want to see retained as a risk mitigation 
measure or ``hedge''? If one or both of UPF and CMRR are delayed in 
getting ``up and running,'' what levels and types of non-deployed 
warheads would you recommend keeping in the stockpile as a risk 
mitigation measure or ``hedge''? Please be specific.
    General Kehler. NNSA's uranium and plutonium facilities are vitally 
important, but are not the only considerations associated with 
reductions in non-deployed weapons. There is a broader set of 
considerations including the stockpile's condition, progress on life 
extension programs, and demonstrated infrastructure capabilities 
(existing or modernized). The current non-deployed stockpile's purpose 
is to manage risk and we continuously assess and look for cost-
efficient opportunities to mitigate risk.
    A. For the infrastructure to have a significant role in risk 
mitigation there needs to be demonstrated production capabilities. 
Again, there is a broader set of considerations beyond capacity that 
influence non-deployed stockpile composition. For example, NNSA needs 
to demonstrate the ability to conduct surveillance, perform maintenance 
and execute weapon life extension programs on schedule.
    B. As the U.S. currently has a limited production capacity, we rely 
on the non-deployed stockpile for the following reasons: 1) mitigate 
technical risk in our aging stockpile; 2) provide logistics spares to 
ensure efficient operations; 3) provide risk management for 
geopolitical uncertainty. The link is the ability of the infrastructure 
to assume some of these functions.
    C. The SSMP reflects our current estimate of planned reductions in 
the non-deployed stockpile. Considerations that went into the 
development of the SSMP included alignment with stockpile modernization 
milestones and projected infrastructure capabilities. We conduct an 
annual process to evaluate and adjust stockpile size and composition to 
meet strategic deterrence requirements and manage risk.
    D. We participate in an annual interagency process that proposes 
stockpile composition and is reviewed by the Nuclear Weapons Council 
and submitted to the President for approval. A document produced in 
support of this process contains a detailed breakdown of non-deployed 
weapons including those retained as a hedge. Release authority resides 
with the Chairman, Nuclear Weapons Council.
    E. I consider three important elements of nuclear modernization: 1) 
sustainment activities needed to ensure a safe, secure, and effective 
stockpile and annual stockpile certification; 2) progress on longer-
term life extension activities; and, 3) the infrastructure's capacity 
to support the stockpile and assume some of the functions of the non-
deployed hedge. An assessment of these elements is necessary to make 
informed recommendations on further reductions. It may be possible to 
make prudent reductions of the non-deployed stockpile without incurring 
operational risk. Again, from my perspective, the facilities are 
important, but are not the only considerations associated with non-
deployed reductions.
    Mr. Turner. What are STRATCOM's requirements for the Chemistry and 
Metallurgy Research Replacement (CMRR) facility and Uranium Processing 
Facility (UPF) in terms of capacity at each facility? When does 
STRATCOM need the facilities to be fully operational?
    a. General Kehler, are you familiar with NNSA's Stockpile 
Stewardship and Management Plan (SSMP), which projects a 20-year plan 
for NNSA facilities and assumes further reductions in the number of 
total warheads? Has STRATCOM fully endorsed that plan for the entire 
20-year timeframe it covers? If not, up until when are NNSA and 
STRATCOM in agreement? As NNSA's customer for the nuclear weapons it 
produces and sustains, is STRATCOM in full agreement with NNSA's SSMP 
plan?
    General Kehler. NNSA's uranium and plutonium facility capacity is 
important to sustain the stockpile, dismantle retired weapons, and 
support non-proliferation efforts. These facilities represent a 
national capability and they need to be updated. USSTRATCOM's 
requirement is for a capability to conduct surveillance, maintenance 
and life extensions in sufficient capacity to sustain our deployed and 
non-deployed stockpile.
    A. I am familiar with the SSMP and was consulted during development 
through the Nuclear Weapons Council. The FY12 SSMP captures the planned 
activities needed to sustain a safe, secure and effective stockpile. 
There is DOD and NNSA consensus on the need to modernize the complex 
and agreement on projected stockpile quantities through FY2030. The 
stockpile requirements are reviewed annually by an inter-agency process 
to maintain stockpile effectiveness and manage risks. The plan's 
execution is dependent on a long-term commitment of funding.
    Mr. Turner. If we continue reducing the total number of nuclear 
weapons and delivery vehicles, there will naturally be a drive to 
reduce the number of types of weapons and delivery vehicles. We are 
already seeing this with consolidation of several B61 variants into a 
single variant, and the drive to study a common ICBM and SLBM warhead. 
Are we increasing technical risk by this consolidation--that is, are we 
increasing the consequences and likelihood of a technical failure that 
puts a large portion of the stockpile out of action? How are we dealing 
with this problem as we move towards a smaller stockpile?
    General Kehler. Reducing the total number of nuclear weapon types 
can allow us to cost effectively sustain capabilities without 
necessarily increasing technical risk. The principal technical risk is 
age related degradation. Therefore, comprehensive life extension 
programs that consolidate variants and improve reliability are more 
important than multiple weapon types. For example, today there are five 
aged B61 weapon types in stockpile. Upon completion of the planned B61 
life extension there will be single B61 variant with improved long-term 
reliability. This reduces stockpile resource requirements needed for 
sustaining this air delivered capability. Likewise, introduction of 
commonality for multiple ballistic missile warheads increases 
operational flexibility and allows the reduction of non-deployed 
warheads retained as a hedge. Consolidation and commonality risk are 
further managed through acquisition strategies, comprehensive 
surveillance, and increased component testing over the life cycle.
    Mr. Turner. General Kehler, what are your views on warhead 
diversity? In what cases would you be comfortable going down to a 
single warhead or bomb for a leg of the triad or a particular delivery 
system? For example, why is it helpful to have a B61 and a B83 in terms 
of failure of one warhead type? Does your view change at smaller 
stockpile sizes?
    General Kehler. Warhead diversity and condition of the stockpile 
are important factors in our ability to mitigate the risk of technical 
failure. Given the ``aged'' condition of our nuclear weapons and 
limited production capacity of our complex, diversity becomes 
significant as we strive to maintain a credible deterrent over a range 
of potential risk scenarios. However, there is inherent flexibility in 
our Triad as we can mitigate risk of warhead failure in one leg with a 
warhead from another. We assess diversity and condition of the 
stockpile during our annual stockpile planning process.
    Mr. Turner. How would cutting a wing on ICBMs--150 missiles in 
total--affect STRATCOM's nuclear targeting? Could STRATCOM fulfill the 
nuclear targeting and employment guidance that exists today, if a wing 
of ICBMs were eliminated?
    General Kehler. ICBMs remain a valuable component of our nuclear 
deterrent force. They provide a prompt response option to the President 
and complicate an adversary's decision calculus in many ways. We are 
presently looking at a variety of force mixtures that would meet our 
deterrence objective and fulfill current nuclear targeting and 
employment guidance. Any decision by the President to reduce the ICBM 
force, or any other leg of the Triad, could require adjustments to the 
rest of the strategic force.
    Mr. Turner. Is STRATCOM involved in setting requirements for 
surveillance activities needed for sustainment and monitoring of the 
stockpile? How? Is STRATCOM comfortable with NNSA's current 
surveillance program--does it meet STRATCOM's needs and requirements?
    General Kehler. NNSA establishes the detailed surveillance 
requirements to ensure data is available to support annual stockpile 
certification. USSTRATCOM annually assesses the safety, security and 
military effectiveness of the stockpile based on surveillance findings. 
Our annual assessment process highlighted the need for the increased 
surveillance investment contained in the FY11 and FY12 budgets. These 
funding levels need to be continued to address the backlog of 
surveillance activities and improve understanding of our aging systems.
    Mr. Turner. After implementation of the New START Treaty and the 
NPR, what percentage of our strategic forces will be deployed on 
submarines?
    a. Has the U.S. ever deployed so much of its deterrent on a single 
platform before? In other words, on one leg of the triad and on one 
type of submarine, ICBM, or bomber? What risks does the U.S. accept by 
doing so?
    General Kehler. Current plans detailed in the 1251 Report reflect a 
10% increase in accountable weapons on submarines over current levels.
    A. In the early years of the Triad, bombers carried a significant 
percentage of our nuclear deterrent. As Triad systems developed, 
distribution of the deterrent became more balanced. The risk of 
technical failure or technological breakthrough on one leg of the Triad 
is mitigated by the unique and complimentary attributes of the Triad. 
Retaining all three legs is the best method to mitigate risk and 
maintain strategic stability.
    Mr. Turner. The NPR concluded that ``the current alert posture of 
U.S. strategic forces . . . should be maintained for the present.'' 
Please explain why the NPR reached this decision. What are the benefits 
of our current alert posture? Do you anticipate changes in this 
decision?
    General Kehler. In the NPR's comprehensive review assurance, 
deterrence, non-proliferation, ability to respond to technical and 
geopolitical challenges and the unlikely event of deterrence failure 
were considered when examining the nation's nuclear force posture. The 
posture today provides a responsive and survivable capability day-to-
day to the President and it provides an ability to change the posture 
as necessary in response to a changed environment or crisis. We 
constantly review our force posture and will adjust it as needed to 
meet our strategic needs and the operational circumstances.
    Mr. Turner. How does the B61 Life Extension Program (LEP), which 
would consolidate several different versions of the B61 into a single 
B61-12 version, link to our extended deterrent in Europe?
    a. What are the implications, both to our extended deterrent and 
more broadly, of delay in the B61 LEP?
    b. Why is it important to increase surety in B61 warheads during 
the LEP?
    General Kehler. The B61 is critical to extended deterrence because 
it is the only weapon available for delivery by both heavy bombers and 
tactical fighter aircraft meeting NATO commitments. The LEP addresses 
critical components that are reaching end-of-life and require 
replacement and/or refurbishment. Consolidation into a B61-12 conserves 
resources and reduces life-cycle costs while enabling us to meet both 
our strategic and extended deterrence requirements.
    A. Delay to the LEP timeline will increase risk in meeting the 
required number of weapons, with the required capabilities, for both 
strategic and extended deterrence requirements. In addition, there will 
likely be a substantial cost increase.
    B. It is important to improve safety and security while maintaining 
the effectiveness of nuclear weapons during life extension. The 
upcoming planned life extension provides an opportunity to cost 
effectively make these improvements during a time period the nuclear 
complex has production capacity. It is a prudent course of action to 
improve surety given the threat of nuclear terrorism.
    Mr. Turner. When will a decision be made regarding how specifically 
our nuclear forces will be structured to comply with the New START 
Treaty? When will de-MIRVing of our ICBM forces begin to occur?
    General Kehler. Discussions regarding final nuclear force structure 
are ongoing. Force structure changes will be reflected in the annual 
1251 Reports to Congress. Air Force plans to begin de-MIRVing in FY12.
    Mr. Turner. The 2010 Nuclear Posture Review (NPR) considered 
potential elimination of one or more legs of the triad, but ultimately 
decided to keep the full triad. General Kehler, in an interview two 
weeks ago, you said, ``I continue to stand by the need for a triad.'' 
Please explain the benefits of the triad, and why you believe we still 
need it.
    General Kehler. I agree with the results of the NPR study that 
concluded that we should retain a nuclear triad under the New START 
Treaty. The triad provides an effective, flexible and resilient 
capability to deter potential adversaries, assure allies and partners, 
maintain strategic stability, and defend U.S. and allied interests 
should deterrence fail. Each leg of the triad provides unique 
capabilities, and presents an adversary with unique problems.
    Mr. Turner. General Kehler, B-52 and B-2 bombers are hardened to 
protect them from electromagnetic radiation in the event of a nearby 
nuclear detonation.
    a. What will be the added cost to harden the next generation 
bomber, vs. leave it unhardened?
    b. The Air Force has said it can save money by delaying nuclear 
certification and hardening of the next generation bomber until the 
current bombers are readying for retirement. When would this nuclear 
certification take place--what is the expected initial operational 
capability date for its nuclear role? Would the next generation bomber 
be hardened from the start, and just not certified initially? How much 
money would this save, and when would this savings be realized?
    General Kehler. A. The Air Force is not at the point in the 
development process that would enable a detailed cost estimate of 
platform hardening.
    B. Testing and nuclear certification schedules have not been 
determined. We are in consultation with the Air Force as requirements 
are being developed. Certification needs to occur prior to a capability 
gap in our air leg. Our understanding is the new bomber will be built 
from the start to support the nuclear mission. Detailed cost 
comparisons are not yet available; however, it is more cost effective 
to nuclear harden early in development than trying to add these 
capabilities later.
    Mr. Turner. Before New START, the U.S. sea-based strategic 
deterrent mission was carried out with a force of 14 ballistic missile 
submarines (SSBN) with 24 missile tubes each. DOD has announced that to 
comply with New START limits, by 2018 we will have at most 14 SSBNs 
with 20 missile tubes each. The SSBN(X) ``Milestone A'' decision 
earlier this year indicates that when the Ohio-class replacement is 
fully deployed we will make do with 12 SSBNs with 16 missile tubes 
each.
    a. General Kehler, if the reductions in the number of missile tubes 
and submarines proposed by the Navy's Ohio-class replacement 
``Milestone A'' decision take place (from 24 to 16 missile tubes, and 
from 14 boats to 12), could you still meet the existing targeting and 
employment guidance that is in place today? Is the ``Milestone A'' 
decision anticipating changes in nuclear targeting and employment 
guidance?
    b. To save money, some are proposing that we should further reduce 
the number of Ohio-class replacement submarines we buy, from 12 to 10, 
or 8, or even lower. General Kehler, given the decreased flexibility we 
will have by going to a lower number of tubes per boat, what is the 
minimum number of 16-tube boats we can procure and still meet 
deterrence and ``at-sea'' requirements?
    c. Documents provided to the committee by the Navy show that the 
total cost of designing, building, and operating a fleet of 12 Ohio-
class replacement boats with 20 missile tubes each would have been only 
1.75% more (in current year dollars) than the total lifecycle cost of a 
12-boat fleet with 16 missile tubes each. General Kehler, are you 
comfortable with this trade-off in flexibility to save 1.75% of the 
program's total lifecycle cost?
    General Kehler. A. The Milestone A decision did not assume any 
specific changes to targeting or employment guidance. Analyses 
considered a range of potential security environments, strategy 
requirements, and submarine force structures.
    Contingent on funding, the first Ohio replacement submarine will be 
available for strategic service in 2029. While there is uncertainty 
about the future strategic environment and policy requirements, I am 
confident that a plan to procure 12 Ohio Replacement SSBNs with 16 
missile tubes will meet deterrence requirements. The ultimate number of 
submarines and tubes will depend on a number of factors including our 
deterrence needs and funding.
    B. The number of available SSBNs for strategic service is as 
important as the number of tubes. Today, 12 operational SSBNs are 
required to meet deterrence and at-sea requirements. The minimum number 
of Ohio Replacement SSBNs is based on an assessment of the security 
environment and requirements of the strategy at a given time. There is 
sufficient flexibility to adjust future force structure plans across 
the Triad, or if required, procure additional submarines.
    C. Yes, I am comfortable with the cost-capability trade that was 
made to balance fiscal and operational considerations.
    Mr. Turner. Are you concerned about reports about China potentially 
increasing the MIRVing of its land- and sea-based ballistic missiles? 
How might this trend affect the nuclear balance and our nuclear 
policies 10 or 20 years from now? Are you concerned about reports of 
Russia developing and deploying new heavy, highly-MIRV'd, silo-based 
ICBMs? How would deployment of this system affect strategic stability 
and U.S. nuclear policies and strategies? Did the U.S. seek to ban such 
systems during New START negotiations?
    General Kehler. We take seriously all reports of Russian and 
Chinese strategic force modernization. Both countries have ambitious 
programs. In China's case, their efforts involve both modernization and 
expansion of their forces. However, while there is uncertainty 
regarding the intended scale of their force expansion, our current 
assessment is that it is unlikely to affect strategic stability. The 
possible Russian development and deployment of a new ICBM, which would 
be replacing an existing system, does not result in a significant 
change in their capabilities. How this or any new Russian system 
ultimately affects strategic stability depends on Moscow's success in 
deploying the new system and whether the Russians continue to honor 
their commitments under existing arms control regimes. In the New START 
negotiations, we did not seek to ban such systems.
    Mr. Turner. At the House Armed Services Committee's October 13 
hearing, Secretary of Defense Panetta said, ``With regards to reducing 
our nuclear arena, I think that is an area where I don't think we ought 
to do that unilaterally--we ought to do that on the basis of 
negotiations with the Russians and others to make sure we are all 
walking the same path.'' To ensure we are not reducing unilaterally, 
will we retain nuclear forces that are at--or very near--the limits on 
strategic forces imposed by the New START Treaty? Otherwise, wouldn't 
it by definition be ``unilateral'' reductions?
    a. Would you support reductions if they were a part of a non-
binding agreement with Russia?
    b. At what force levels do we need to start bringing the ``others'' 
Secretary Panetta mentions, particularly China, into the picture?
    Secretary Tauscher. a. Both during and after the Cold War, the 
United States and Russia have agreed to mutual, legally binding, 
verifiable limits on their strategic nuclear arsenals in order to 
prevent an arms race, increase transparency, and mitigate mistrust and 
surprises. These agreements have contributed to building trust and 
promoting stability in the relationship between the world's two largest 
nuclear powers. Unilateral reductions would not provide the same level 
of predictability and stability as agreed upon treaties because there 
would be no obligation to make or maintain them. Furthermore, there 
would be no verification regime associated with the reductions.
    b. We are mindful of China's military modernization programs, 
including its nuclear modernization, and the lack of transparency 
surrounding them. We monitor carefully these developments and, in 
concert with our allies and partners, will adjust our policies and 
approaches, as necessary. However, China does not now appear to be 
seeking parity with either the United States or Russia, and its nuclear 
arsenal remains much smaller than the U.S. and Russian arsenals. As a 
declared nuclear weapon state under the NPT, China's restraint in its 
nuclear modernization is important to nuclear disarmament and global 
non-proliferation efforts. As the United States and Russia conduct 
bilateral negotiations to reduce nuclear arsenals further, the United 
States will seek to expand dialogue with China on the doctrine, force 
structure, and strategic modernization programs of our two countries to 
improve mutual understanding, build trust, and reduce the risk of 
misperception and miscalculation.
    Mr. Turner. Data exchanges and on-site inspections between the U.S. 
and Russia under the New START Treaty have begun. What are we learning 
from these exchanges and inspections? Are we learning anything that 
might facilitate making a future arms control treaty verifiable--
specifically a potential future treaty focused on non-deployed warheads 
and/or non-strategic warheads?
    Secretary Tauscher. One of the greatest contributions of the New 
START Treaty is its strong verification regime. This regime was 
developed to specifically verify the requirements of the New START 
Treaty. Negotiators worked very hard to find innovative new mechanisms 
to aid in the verification of this Treaty and the results from the 
first year of implementing the Treaty have been positive. On-site 
inspections are now being conducted routinely, as are the daily 
notification requirements that help track movements and changes in the 
status of systems. The New START Treaty data exchanges are providing us 
with a detailed picture of Russian strategic forces and the inspections 
give us crucial opportunities that we otherwise would not have to 
confirm the validity of the data required to support verification of 
the central limits of the New START Treaty.
    As we implement New START, we're preparing for further nuclear 
reduction negotiations with Russia. To date, no previous arms control 
agreement has included provisions to limit and monitor nondeployed or 
nonstrategic warheads. Future limits on such warheads would require 
monitoring and verification different from those used in New START. 
While the New START Treaty's verification provisions are not intended 
to provide the United States or Russia any information on each side's 
nondeployed warheads and/or nonstrategic warheads, the verification 
regime will help by creating the foundation for future agreements.
    Mr. Turner. What are some of the technical and procedural 
challenges associated with verifying a potential future treaty with 
Russia that limits non-deployed and non-strategic weapons? What must be 
done to resolve these technical and procedural challenges? Do you 
believe a treaty that limits non-deployed and non-strategic weapons can 
be fully verifiable?
    Secretary Tauscher. The monitoring and verification of any 
potential future treaty limitations on nondeployed or nonstrategic 
nuclear weapons will be more difficult due primarily to the relatively 
small physical size of the items to be limited. Security concerns will 
pose a significant technical challenge to our ability to confirm that 
an object being counted during routine inspection is actually what it 
is declared to be; similarly, we would have security concerns regarding 
Russian access to U.S. nuclear warheads. The fact that air, sea- and 
ground-launched nonstrategic nuclear weapons are primarily based on 
delivery vehicles whose primary mission is non-nuclear adds complexity 
to designing verifiable limits on these weapons.
    Mr. Turner. We have heard that within the Deterrence and Defense 
Posture Review (DDPR) process, some NATO allies might be encouraging 
several changes to NATO's nuclear posture, possibly including: (1) 
consolidation of U.S. nuclear forces in Europe to one or more 
centralized bases, (2) decreasing the number of dual-capable aircraft 
our allies are required to maintain, (3) relaxing or eliminating 
requirements for pilots from allied nations to be trained and exercise 
in the nuclear mission, and (4) potential removal of U.S. nuclear 
weapons from Europe.
    a. Are any of these actions being considered by the DDPR? Which 
ones?
    b. Would NATO and the U.S. consider taking any of these steps 
unilaterally, without reciprocal and proportionate action on the part 
of Russia?
    i. What actions would we consider taking unilaterally, and what 
actions would we only undertake bilaterally with Russia?
    ii. What reciprocal actions would the U.S. look for from Russia in 
exchange for any of these four actions?
    Secretary Tauscher. The principle task of the Deterrence and 
Defense Posture Review (DDPR) is to determine the appropriate mix of 
political and military instruments including conventional, nuclear, and 
missile defense forces that NATO will need to meet 21st-century 
security challenges. Alliance nuclear policy will be a key element of 
the review and there are no pre-ordained outcomes. NATO Allies agreed 
in the new Strategic Concept that sharing of nuclear risks and 
responsibilities is fundamental. We believe it is important to share 
the burden of the nuclear mission as broadly as possible. How best to 
accomplish this in the future is an issue we are committed to 
addressing in the DDPR.
    In its Strategic Concept, adopted in November 2010, NATO declared: 
``In any future reductions, our aim should be to seek Russian agreement 
to increase transparency of its nuclear weapons in Europe and relocate 
these weapons away from the territory of NATO members. Any further 
steps must take into account the disparity with the greater Russian 
stockpiles of short-range nuclear weapons.''
    The DDPR consultations will help to inform the appropriate posture 
for forward-based U.S. nonstrategic nuclear weapons in Europe; however, 
we do not expect that NATO would take steps to eliminate its nuclear 
capabilities in the absence of reciprocal steps by Russia.
    As National Security Advisor Donilon explained on March 29, 2011: 
``We will work with our NATO allies to shape an approach to reduce the 
role and number of U.S. tactical nuclear weapons, as Russia takes 
reciprocal measures to reduce its nonstrategic force and relocates its 
nonstrategic forces away from NATO's borders.''
    Mr. Turner. Are our NATO allies still planning to purchase dual-
capable F-35s to replace their aging dual-capable aircraft? How many do 
they plan to purchase and when? Please describe the plans for NATO 
countries to replace or modernize their nuclear-capable aircraft, 
including numbers of aircraft and timelines for purchase. How are these 
plans being reflected in the DDPR?
    Secretary Tauscher. All NATO Allies agreed in the new Strategic 
Concept that the sharing of nuclear risks and responsibilities is 
fundamental and we believe it is important to share the burden of the 
nuclear mission as broadly as possible. Dual-capable aircraft and crews 
are one of the key ways to share the burden of the nuclear mission and 
as long as forward-based U.S. nonstrategic nuclear weapons remain in 
Europe, the Alliance needs to commit the resources necessary to 
maintain that capability. How best to accomplish this in the future is 
an issue that will be determined following the completion of the DDPR.
    Mr. Turner. The 2010 Nuclear Posture Review (NPR) says that ``the 
presence of U.S. nuclear weapons--combined with NATO's unique nuclear 
sharing arrangements under which non-nuclear members participate in 
nuclear planning and possess specially configured aircraft capable of 
delivering nuclear weapons--contribute to Alliance cohesion and provide 
reassurance to allies and partners who feel exposed to regional 
threats.''
    a. Please explain how the presence of nuclear weapons in Europe 
contributes to NATO cohesion, reassurance, and stability.
    b. In particular, which NATO allies value these nuclear weapons and 
``feel exposed to regional threats''?
    c. Will unanimity among NATO members be required before any major 
changes are made to our nuclear posture in Europe? What sorts of 
changes to our nuclear posture in Europe might we undertake without 
unanimity of NATO members?
    Secretary Tauscher. All NATO Allies agreed in the 2010 Strategic 
Concept that deterrence, based on an appropriate mix of nuclear and 
conventional capabilities, remains a core element of NATO's overall 
strategy. Allies also agreed collectively that the circumstances in 
which any use of nuclear weapons might have been contemplated are 
extremely remote, but as long as nuclear weapons exist, NATO will 
remain a nuclear alliance. NATO's unique nuclear burden-sharing 
arrangements assure each member state of the strength of the U.S. 
commitment to collective defense, easing fears of exposure to regional 
threats that may arise. The nuclear burden-sharing arrangements also 
assure the United States that NATO Allies would be key partners in any 
future and immensely difficult decisions regarding nuclear employment 
on behalf of NATO. The role of nuclear weapons in defending Alliance 
members and the threat environment confronting the Alliance are being 
discussed as part of NATO's Deterrence and Defense Posture Review. Any 
changes in NATO's nuclear posture, including forward-based U.S. 
nonstrategic nuclear weapons in Europe, will be taken after a thorough 
review within--and decisions by--the Alliance as a whole.
    Mr. Turner. Germany and Norway have put forward ideas in the DDPR 
process to increase transparency in NATO's nuclear mission and NATO's 
nuclear forces. What transparency measures are being considered?
    a. What NATO transparency measures are the U.S. comfortable with 
NATO doing unilaterally (i.e., without reciprocal and proportionate 
action by Russia)?
    b. What NATO transparency measures would we only consider doing 
bilaterally based on agreements with Russia? Would you anticipate such 
bilateral agreements being based on non-binding agreements or through 
some sort of binding treaty or agreement?
    c. How does the administration define ``transparency''? How does it 
define ``verification''? How are the two concepts related?
    Secretary Tauscher. In advance of a new treaty limiting all types 
of nuclear weapons, we plan to consult with our Allies on reciprocal 
actions that could be taken on the basis of parallel steps with Russia. 
At the NATO Foreign Ministerial in Berlin on April 14-15, Poland, 
Norway, Germany and the Netherlands submitted a non-paper suggesting 
ways to increase transparency and build confidence with Russia. After 
the receipt of this non-paper, NATO's North Atlantic Council (NAC) 
tasked the Weapons of Mass Destruction Control and Disarmament 
Committee (WCDC) to provide input into the DDPR on possible options for 
reciprocal measures to reinforce and increase transparency, mutual 
trust and confidence with Russia. In the WCDC, NATO is now developing 
transparency and confidence-building options that could be pursued on a 
reciprocal basis with Russia. Initially, we would like to increase 
transparency on a reciprocal basis on the numbers, locations, and types 
of nonstrategic forces in Europe. Any transparency measures on U.S. 
NSNW forward-based in Europe would require Alliance agreement.
    Transparency builds stability and security by helping to ensure 
against strategic surprise and by building the necessary confidence for 
force planning based on a realistic view of the current and likely 
force levels of others. Verification, the process by which we gather 
and analyze information to make a judgment about parties' compliance or 
non-compliance with an agreement, is an integral part of the arms 
control regime. This Administration, as well as previous 
Administrations before it, evaluates effective verification of nuclear 
arms control agreements based on our ability to detect militarily 
significant violations before they become a threat to our national 
security. As stated in the 1992 report on START Treaty verifiability to 
the Senate Foreign Relations Committee:
    ``A key criterion in evaluating whether a START agreement is 
effectively verifiable is whether, if the other side attempts to move 
beyond the limits of the Treaty in any militarily significant way, we 
would be able to detect such a violation well before it becomes a 
threat to national security so that we are able to respond. 
Additionally, the verification regime should enable us to detect 
patterns of other violations that, while they do not present immediate 
risks to U.S. security, could, if left unchallenged, encourage actions 
that would pose such risks.''
    At least to the extent the parties trust in the information they 
receive through transparency measures, such measures can help bolster 
our confidence in the verifiability of a relevant arms control 
agreement.
    Mr. Turner. How does the B61 Life Extension Program (LEP), which 
would consolidate several different versions of the B61 into a single 
B61-12 version, link to our extended deterrent in Europe?
    a. What are the implications, both to our extended deterrent and 
more broadly, of delay in the B61 LEP?
    b. Why is it important to increase surety in B61 warheads during 
the LEP?
    Secretary Tauscher. The B61 bombs assigned to support NATO are 
intended to provide for the collective security of all Alliance 
members. The B61 bombs couple U.S. and NATO security, and tangibly 
assure the members of NATO that the United States is committed to their 
national security. NATO is currently in the process of reviewing its 
nuclear posture as part of the Deterrence and Defense Posture Review 
and there are no pre-ordained outcomes. However, as long as forward-
based U.S. nonstrategic nuclear weapons remain in Europe the Alliance 
needs to commit the resources necessary to maintain that capability and 
the B61 LEP is an important element of that.
    Mr. Turner. Mr. Franks asked for several pieces of information, but 
I wanted to reiterate those requests and add one of my own. Please 
provide the information requested within two weeks:
    a. In your recent remarks at the Atlantic Council, you stated the 
following, ``the Obama Administration's approach provided more 
protection sooner against the existing threat, using proven systems, 
and at a lower cost than the previous proposal.'' Your legislative 
affairs staff was asked to provide this committee the basis for the 
statement ``at a lower cost than the previous proposal.'' Please 
provide the information requested to the committee within two weeks.
    b. Please provide this committee, within two weeks, a 
comprehensive, whole-of-the-federal-government cost for each phase of 
the EPAA.
    c. We understand the Department of State is advocating the return 
of export control responsibility for commercial satellites and their 
related components to the Department of Commerce. I also understand the 
Department of State contracted with the Aerospace Corporation, through 
Project West Wing, to develop a Counter Space Technology List. Our 
committee staff has been asking for this list for over a month, with no 
progress. Please provide a copy of this report to the committee within 
two weeks.
    Secretary Tauscher. a. One element of the basis for the statement 
is that the Standard Missile (SM)-3, at around $10 million per 
interceptor, is much cheaper than a GBI, which costs approximately $60 
to $70 million per interceptor. This means that we can deploy many more 
SM-3 interceptors than GBIs at the same cost. Since Iran already 
possesses hundreds of short- and medium-range ballistic missiles, this 
additional defensive capability is critical. In addition, the EPAA 
(European Phased Adaptive Approach) relies on capabilities that are 
mobile and relocatable, so additional capabilities can ``surge'' into 
the region in a crisis. Furthermore, the deployment of the AN/TPY-2 
radar to Turkey will also greatly improve U.S. and NATO's capability to 
protect against the existing threat from short- and medium-range 
ballistic missiles.
    It is important to note that the EPAA is not an acquisition program 
but a policy framework for delivering capabilities of which the 
principal attribute is flexibility. By design, it can be enhanced, 
expanded, and supplemented in each phase.
    b. The Department of Defense would be the appropriate organization 
to provide a cost estimate of the EPAA.
    c. The Department of State, after consultation with the Department 
of Defense, is advocating the return of export control responsibility 
for commercial satellites and their related components to the 
Department of Commerce, while retaining State Department jurisdiction 
over sensitive military and intelligence related satellites, 
components, and technology. The Counterspace Sensitive Technology List 
(CSTL) is an ongoing research and analytical project which is projected 
to be completed in late 2012. In short, there is no finished report or 
list to provide at this time. We would be pleased to provide a 
classified briefing to the committees of jurisdiction on the CSTL 
effort.
    Mr. Turner. What are some of the technical and procedural 
challenges associated with verifying a potential future treaty with 
Russia that limits non-deployed and non-strategic weapons? What must be 
done to resolve these technical and procedural challenges? Do you 
believe a treaty that limits non-deployed and non-strategic weapons can 
be fully verifiable?
    Mr. D'Agostino. A future treaty that includes limits on non-
deployed and non-strategic weapons could pose technical and procedural 
challenges, depending on the specific terms of the treaty. From the 
perspective of the National Nuclear Security Administration (NNSA), one 
of the technical challenges that we are investigating to help inform 
future decisions is warhead authentication, especially for non-deployed 
warheads. In particular, we are investigating the technical means to 
provide confidence that an object declared to be a nuclear warhead is a 
warhead through radiation and other measurement techniques. This is 
different from the New START Treaty, for example, where radiation 
measurements may be used to confirm that an object placed on a deployed 
delivery system and declared to be non-nuclear is in fact non-nuclear, 
and therefore not counted as a warhead. We also are investigating 
technical and procedural measures to provide warhead chain of custody 
over time and between different locations. This kind of analysis and 
capability development is necessary to understand the full scope of the 
challenges associated with verifying a potential future treaty, and 
NNSA is accomplishing important work in this regard.
    An assessment of the verifiability of a future treaty would need to 
be made by the U.S. national security community with supporting 
analysis from the Intelligence Community. Such an assessment can only 
be made once the specific terms of a treaty are known. From a technical 
and procedural perspective, I am confident that we will be able to 
provide the tools necessary for verification.
    Mr. Turner. Administrator D'Agostino, earlier this year, you 
testified before this subcommittee that NNSA's new plutonium and 
uranium facilities--the Chemistry and Metallurgy Research Replacement 
(CMRR) facility in New Mexico and the Uranium Processing Facility (UPF) 
in Tennessee--need to be ``up and running'' before we make substantial 
cuts to the non-deployed hedge force.
    a. Please describe the relationship between modernizing our nuclear 
infrastructure and the potential future ability to reduce non-deployed 
weapons.
    b. What metrics should we be using to judge that the infrastructure 
is robust enough to support reductions in the non-deployed stockpile 
without undue risk?
    c. Do NNSA and DOD have a clear plan on what reductions in the non-
deployed stockpile are possible or planned for the future, and how 
those reductions align with infrastructure and stockpile modernization 
milestones? Please provide the committee a timeline showing, side-by-
side, the modernization plan with reductions in the non-deployed 
stockpile deemed possible by the modernization effort.
    d. If one or both of UPF and CMRR are delayed in getting ``up and 
running,'' what levels and types of non-deployed warheads would you 
recommend keeping in the stockpile as a risk mitigation measure or 
``hedge''? Please be specific.
    Mr. D'Agostino. a. Implementation of the Stockpile Stewardship 
Program and appropriate nuclear infrastructure investments will allow 
the United States to shift away from retaining the large numbers of 
non-deployed warheads that are kept as a hedge against technical or 
geopolitical surprise, allowing further reductions in the overall 
nuclear stockpile. Investment is critical for maintaining a credible 
deterrent and managing risk as stockpile reductions are made. NNSA 
works closely with the Department of Defense in the Nuclear Weapons 
Council to appropriately manage risk.
    b. Page 34, Table 2 of the FY 2012 Stockpile Stewardship and 
Management Plan summarizes the current and future infrastructure 
capacities for each major NNSA mission function that directly supports 
the stockpile. These represent the infrastructure improvements needed 
as of April 2011 to support any future stockpile, which may include 
reductions to non-deployed weapons. The infrastructure improvement 
areas include:
    <bullet>  Design Certification, Experiments, and Surveillance
    <bullet>  Plutonium
    <bullet>  Uranium
    <bullet>  Tritium
    <bullet>  High Explosives
    <bullet>  Non-nuclear, and
    <bullet>  Special Nuclear Materials Storage.
    Analysis continues on continuing to meet these mission functions 
under the caps established by the Budget Control Act.
    c. Details of stockpile size and composition are classified and are 
updated annually by the Nuclear Weapons Council and provided to the 
President for approval. Classified Annex B of the FY 2012 Stockpile 
Stewardship and Management Plan provides stockpile details as reflected 
in the Fiscal Year 2011-2017 Nuclear Weapons Stockpile Memorandum and 
the FY 2011-2024 Requirements and Planning Document. Also included in 
Annex B is a discussion of potential future stockpiles based on events/
assumptions regarding infrastructure improvements and geopolitical 
environment.
    d. The specific effects on stockpile size and composition would 
need to be addressed in a study in conjunction with the Department of 
Defense.
    Mr. Turner. The House Appropriations Committee reported a Defense 
Appropriations bill that contains a 1% reduction from the President's 
budget request for DOD. The House Appropriations Committee reported an 
Energy and Water appropriations bill that contains a 10% reduction for 
NNSA and all of its defense activities. This came after strong and 
vocal support from Secretary Gates and senior military leaders for 
NNSA's full budget request. How do these discrepancies affect planning, 
budgeting, and coordination between NNSA and DOD on the overall nuclear 
security enterprise? Should all aspects of the nuclear security 
enterprise be consolidated into a single budgetary and appropriations 
authority?
    Mr. D'Agostino. NNSA is currently executing the FY 2012 enacted 
appropriations in coordination with DOD and will continue to work with 
DOD on the FY 2013 request. NNSA closely coordinates efforts with DOD 
on identifying programmatic requirements in various reports, such as 
Annual and Quarterly Reviews conducted by the Nuclear Weapons Council 
(NWC).
    Consolidation of the nuclear security enterprise (NSE) with DOD 
appropriations would be at odds with the tenets of civilian agency 
control over the NSE as identified in the Atomic Energy Act and the 
NNSA Act. As such, NNSA does not believe all aspects of the nuclear 
security enterprise can, or should be, consolidated into a single 
budgetary and appropriations authority.
    Mr. Turner. If we continue reducing the total number of nuclear 
weapons and delivery vehicles, there will naturally be a drive to 
reduce the number of types of weapons and delivery vehicles. We are 
already seeing this with consolidation of several B61 variants into a 
single variant, and the drive to study a common ICBM and SLBM warhead. 
Are we increasing technical risk by this consolidation--that is, are we 
increasing the consequences and likelihood of a technical failure that 
puts a large portion of the stockpile out of action? How are we dealing 
with this problem as we move towards a smaller stockpile?
    Mr. D'Agostino. The Triad provides a sufficiently flexible force 
structure that allows the U.S. to hedge effectively by shifting weight 
from one Triad leg to another if necessary due to unexpected 
technological problems or operational vulnerabilities. The pursuit of a 
common warhead strategy is intended to provide the opportunity to 
manage risk while reducing the total size of the stockpile. This 
approach allows reductions to be made while maintaining the required 
stockpile hedge, and it is our judgment that this approach may be 
pursued in a manner that assures technical diversity. Therefore, 
studies conducted for all future life extension programs will consider 
the implications, including technical risk, of using the resulting 
warhead on multiple platforms in order to reduce the number of warhead 
types.
    Mr. Turner. Do you anticipate having to shift NNSA's budget and 
priorities to help pay for the B61 life extension? Do you anticipate 
pushing the W78 LEP further into the future, or reprioritizing funds 
allotted for the Science Campaign to B61 LEP work? How would such 
shifts affect future LEPs like the W78? Is NNSA considering making the 
B61-12 nuclear explosive package compatible with a future air-launched 
cruise missile; is such a requirement part of the B61 LEP?
    Mr. D'Agostino. NNSA is formulating our budget and priorities to 
balance the Nation's need for modernized weapons against our ability to 
manage, maintain, and certify the nuclear stockpile without the 
requirement for underground testing. Activities such as the B61 life 
extension are being scrutinized to ensure that their costs and benefits 
are appropriate. Budget changes are being assessed as part of the FY 
2013 budget development, to include appropriate alignment of Directed 
Stockpile Work and campaign activities with the B61 LEP development and 
certification work. Considering the Department of Defense's broader 
needs and the throughput of our Nuclear Security Complex, NNSA is 
finalizing schedules and budgets that realistically include the B61 and 
W78 life extension programs into the overall NNSA priority matrix.
    While there is no current requirement to make the B61 nuclear 
explosive package (NEP) compatible with the future air launched cruise 
mission, the Air Force and NNSA are evaluating the B61 NEP as a 
candidate for the future cruise mission as well as other existing 
warheads such as the W80 and W84.
    Mr. Turner. Now that we are leaving a period of several decades 
with minimal nuclear weapons design, engineering, and production work 
and entering a long period of continual warhead life extension 
programs, how is NNSA shifting its budget and priorities?
    a. Is funding for scientific capabilities, which sustained the 
human capital and led to dramatically better understanding of nuclear 
weapon science when we were not actively working on the stockpile, 
shifting toward design, engineering, and production activities to 
sustain and modernize the warheads?
    b. Given the fiscal environment, is it possible to sustain the 
current levels of expenditures on science and also successfully execute 
the LEPs and direct stockpile work, as well as infrastructure 
modernization?
    c. Has NNSA prioritized what science capabilities are critical for 
stockpile assessment and certification, and which may be secondary for 
that purpose? What are those priorities?
    d. In real dollar terms, how much does NNSA plan to spend in FY12 
on LEPs and other activities directly related to design, engineering, 
and production of nuclear weapons (not surveillance or science-based 
capabilities that enable assessments and certification), as compared to 
history (e.g., 10, 20, and 30 years ago)?
    e. Has NNSA considered a continual low-rate production model for 
sustaining the stockpile, as opposed to its current approach of 
discrete and infrequent LEPs? What are the costs, benefits, and risks 
of such an approach as compared to the current approach? How might this 
analysis change if the size and diversity of the stockpile decrease?
    Mr. D'Agostino. a. No, funding for scientific capabilities is not 
being shifted to engineering or production, since scientific 
capabilities are essential to effect the modernization of the stockpile 
along with stewarding the existing stockpile, as explained in Chapter 3 
of the FY 2012 Stockpile Stewardship and Management Plan. Science, 
engineering, and manufacturing are neither mutually exclusive nor 
fungible. There was no time in the past when we were not working 
actively on maintaining the stockpile. Notable stewardship milestones 
over the past 15 years include certification of the B61-11 in 1997 (the 
first new modification introduced into the stockpile since the end of 
testing); the completion of the W87 LEP in 2004; delivery of new pits 
manufactured in Los Alamos to the stockpile in 2007; and the design, 
engineering, and ongoing production and delivery of the W76 LEP.
    In parallel, we have developed new Stockpile Stewardship 
facilities, including the Dual Axis Radiographic Hydrodynamic Test 
(DARHT) facility; the Microsystems and Engineering Sciences 
Applications (MESA) complex; the National Ignition Facility (NIF); 
Proton radiography; the Joint Actinide Shock Physics Experimental 
(JASPER) facility and U1a facilities at the Nevada National Nuclear 
Security (NNSS); as well as the extraordinarily successful series of 
the Advanced Simulation and Computing (ASC) platforms.
    All of these science and technology tools are being applied today 
to improve understanding and predictive capability for the stockpile, 
without recourse to new underground tests. While priorities do change 
and new problems arise each year, the necessary adjustments and 
reprioritizations have taken place throughout the history of the 
program and are reflected in the budget requests for each year in the 
past and in the future years nuclear security plan (FYNSP).
    b. Yes, the President's budget provides a balanced portfolio of 
infrastructure modernization, stockpile sustainment, and pursuit of the 
fundamental science, technology, and engineering necessary to maintain 
a safe, secure, and reliable stockpile, as outlined in the FY12 SSMP. 
Much of this effort is still in the design phase, and as the designs 
are completed, NNSA will make adjustments to ensure the portfolio 
remains balanced.
    c. Yes, NNSA has prioritized the science capabilities for Stockpile 
Stewardship, and this has resulted in the set of capabilities that have 
been supported and constructed over the past 20 years. These priorities 
are reflected in the annual budget requests and SSMPs. Any capabilities 
that are less than essential to Stockpile Stewardship have already had 
their supporting budgets reduced or eliminated, or are now principally 
supported by work for other Government agencies.
    Every year the science, technology, and engineering community has a 
summit with the Directed Stockpile Work teams to ensure that the long 
terms needs for stewardship without underground testing are being 
optimized to support near-term Life Extension activities, as well. 
There are a number of great, recent examples of this relating to 
multipoint safety, high explosives performance, and surety.
    d. For FY 2012, the President's Budget request for Directed 
Stockpile Work is $1,963,583,000. That includes $239 million for 
surveillance. Without surveillance, DSW together with supporting 
Readiness and Engineering campaigns, are about 26% of the Weapons 
Activity budget. For the period 2001-2011, a similar comparison is 
presented in the table below. Due to drastic differences in how nuclear 
weapons budgets were structured prior to 2001, we cannot provide a 
meaningful comparison prior to that year. Additionally, a significant 
portion of the Readiness in the Technical Base and Facilities budget 
and the campaigns budgets directly support stockpile sustainment 
outside of the support they provide to stockpile surveillance and that 
spending is not included in these percentages.


 Table 1: Yearly Percentage of Weapons Activities Funding Used for DSW (Without Surveillance) and Readiness and
                                              Engineering Campaign
----------------------------------------------------------------------------------------------------------------
   Year      2001      2002      2003      2004      2005     2006     2007     2008     2009     2010     2011
----------------------------------------------------------------------------------------------------------------
 Percent        25        23        24        28       25       26       26       25       27       25       27
----------------------------------------------------------------------------------------------------------------


    e. NNSA is currently evaluating ways to optimize its life extension 
program to achieve multiple objectives, including enhanced technology 
maturation and integration, sustainment of the highly specialized 
workforce, program affordability, increased interoperability (common 
technologies), and increased technology insertion opportunities. Costs, 
benefits and risks are being analyzed as part of this evaluation. Once 
approved, the updated life extension program will be described in the 
next Stockpile Stewardship and Management Plan.
    Mr. Turner. How does the deployment of the B61-12 warhead align 
with deployment of nuclear-capable F-35s? Is deployment of the two 
systems linked? Can one deploy without the other, while still retaining 
our nuclear capability in Europe?
    Mr. D'Agostino. The deployment of the B61-12 is well aligned with 
the deployment of the nuclear-capable F-35 Joint Strike Fighter (JSF) 
program, but they are not linked. The JSF with nuclear capability is 
planned to be deployed a few years after that the first production unit 
for the B61.
    A key element of the B61-12 Life Extension Program is 
interoperability with current and planned future aircraft.
    Mr. Turner. When NNSA conducts a life extension program on a 
particular weapon type, will NNSA extend the life of all warheads of 
that type, including those in the non-deployed ``hedge'' part of the 
stockpile? Or will it only extend those weapons in the active, deployed 
part of the stockpile?
    Mr. D'Agostino. The scope of each life extension program (LEP) is 
determined by the Nuclear Weapons Council and requirements for 
quantities are documented in the NWC Requirements and Planning Document 
(RPD). For each LEP, NNSA plans to replace the existing weapons (i.e., 
both active and inactive weapons) with life-extended weapons per 
quantities provided in the RPD. The ``hedge'' is a portion of the 
inactive stockpile.
    Mr. Turner. What role did DOE and NNSA play in selection of the new 
directors of Los Alamos National Lab and Lawrence Livermore National 
Lab? Specifically, how were you and Secretary Chu involved? Given the 
critical role the lab directors play in providing the President and 
Congress independent assessments on the safety, security, and 
reliability of the nuclear stockpile, do you believe it is important 
for the lab directors to have extensive backgrounds in nuclear weapons 
research, design, production, and assessment?
    Mr. D'Agostino. Under DOE's contracts with Los Alamos National 
Security, LLC, and Lawrence Livermore National Security, LLC, the 
respective Boards of Governors are responsible for the selection of the 
laboratory directors. As laboratory directors are considered ``key 
personnel,'' the respective Contracting Officers of the LANS and LLNS 
contracts must approve the selection of the laboratory directors. The 
Secretary of Energy and I have no formal role in the selection process, 
but as a courtesy, the Secretary was asked to concur in the selection 
of Charles McMillan as the Los Alamos Laboratory Director, and Penrose 
C. Albright, as the Lawrence Livermore Laboratory Director, which he 
did.
    I believe it is important for laboratory directors to be qualified 
scientists that understand the complex phenomena that arise as issues 
in research, design, production and assessment.
    Mr. Turner. Please provide the committee, before December 15, a 
list and description of the managerial and functional areas (e.g., 
legal, safety, security, health, human resources, etc.) in which the 
Department of Energy is involved in NNSA activities, including detailed 
descriptions of such involvement.
    Mr. D'Agostino.
    <bullet>  Legal Functions
    Within the Department of Energy, NNSA is managed by the Under 
Secretary for Nuclear Security, who reports to the Secretary. In 
accordance with section 3213(a) and (b) of the National Nuclear 
Security Administration Act (NNSA Act), NNSA employees ``shall not be 
responsible to, or subject to the authority, direction, or control of, 
any . . . officer, employee, or agent of the [DOE]'' other than the 
Secretary of Energy, acting through the NNSA Administrator, the NNSA 
Administrator, or the NNSA Administrator's designee within NNSA. 50 
U.S.C. 2403(a) and (b). In implementing the mission of NNSA (NNSA Act 
Sec. 3211(b), 50 U.S.C. 2401(b)), NNSA has 18 functional areas of 
responsibility, as identified in section 3212 of the NNSA Act; these 
include, for example: budget formulation, guidance, and execution, and 
other financial matters; policy development and guidance; program 
management and direction; safeguards and security, emergency 
management; environment, safety, and health operations; administration 
of contracts, including the management and operations of the operations 
of the nuclear weapons production facilities and the national security 
laboratories; legal matters; legislative affairs, and public affairs. 
50 U.S.C. 2402(b).
    As part of the Department of Energy, NNSA is subject to all 
Departmental regulations, orders, and policies in all functional areas, 
except that the NNSA Administrator may establish NNSA-specific 
policies, unless disapproved by the Secretary of Energy. NNSA Act, 
Sec. 3212(d), 50 U.S.C. 2402(d). See also the response to Q73b, below 
[Appendix page 155].

    <bullet> DOE'S Involvement in NNSA Security Activities
    1. Rule making and Directives. The Office of Health, Safety and 
Security (HSS) has primary responsibility for rule-making, and for 
developing and maintaining directives in the areas of nuclear safety, 
worker safety and health, and security (the NNSA Act also gives the 
Administrator authority to develop NNSA policies; this authority has 
been used for some safety and security requirements).
    2. Inspections. The HSS Office of Enforcement and Oversight 
conducts independent external reviews to evaluate the implementation of 
DOE requirements by DOE contractor and Federal operating organizations, 
evaluate the oversight of operations by DOE Program offices; and 
determine the adequacy of DOE requirements to DOE operations..
    3. Enforcement. The HSS Office of Enforcement and Oversight also 
administers the enforcement process for the nuclear safety, worker 
health and safety, and classified information security rules (10 CFR 
Part 820, 10 CFR Part 830, 10 CFR Part 835, 10 CFR Part 850, 10 CFR 
Part 851, 10 CFR Part 708, and 10 CFR Part 824). Based on the NNSA Act, 
the NNSA Administrator is assigned the authority upon which regulatory 
direction and enforcement is provided to NNSA Contractors.
    4. Technology and Data Sharing.
    a. Electronic Data Bases and Transfer of Data between Department of 
Energy (DOE) and other Federal Agencies
    NNSA personnel security is required to use the DOE's Electronic 
Integrated Security System (eDISS+) to collect, process, store, and 
transfer personnel security data into the Central Verification System 
(CVS) maintained by the U.S. Office of Personnel Management (OPM). CVS 
is a national database used by all federal agencies for suitability/
clearance verifications.
    The web-based Central Personnel Clearance Index (WebCPCI), which is 
one of the many parts of the eDISS+ initiative, tracks security 
clearance activity for DOE employees, contractors, and associated 
personnel, and provides report and query capability to Personnel 
Security, Headquarters, and Departmental offices. Within WebCPCI, 
individuals are assigned a Case Folder containing information on 
clearances, investigations, adjudicative codes, administrative reviews, 
and case folder actions.
    WebCPCI's ``e-delivery'' capability is exclusively used to 
electronically receive and forward completed background investigations 
from the Office of Personnel Management (OPM) to the respective 
Personnel Security Office (PSO). WebCPCI is also the system of record 
PSO's primarily use to verify that an active facility clearance (FCL) 
code has been approved and registered into the Department's Safeguards 
and Security Information Management System (SSIMS) before granting a 
security clearance. DOE/HSS personnel are responsible for entering FCLs 
into WebCPCI once notified that an FCL has been approved and registered 
into SSIMS.
    b. Data Sharing from external Federal Agency, specifically 
Intelligence Reform and Terrorism Prevention Action data from OPM 
regarding timeliness, volume, etc.
    Office of Management and Budget (OMB) is provided the information 
regarding case timeliness by OPM. HSS has a responsibility to track and 
trend the case timeliness; however, they are a pass-through 
organization, not calculating the actual case times. On a monthly and 
quarterly basis, DOE provides to each Personnel Security Organization 
an agency roll up for the Personnel Investigation Program in the form 
of the OPM Federal Investigative Services' Agency Specific Performance 
Metrics. The data identifies the End-to-End Overall Timeliness for the 
fastest 90% of the access authorizations reported, initiated, 
investigated, and adjudicated in response to the Intelligence Reform 
Terrorism and Prevention Act of 2004 requirements.
    5. Budget
    a. Payments to Other Federal Agencies for Personnel Security 
Background Investigations
    Security Investigations are paid via an Intra-Governmental Payment 
and Collection (IPAC) which is basically a transfer of funds from one 
Government treasury account to another
    <bullet>  HSS remains the OPM point of contact for all 
investigation invoices
    <bullet>  HSS receives one invoice from OPM for all of DOE
    <bullet>  HSS breaks down the invoice by DOE organization and 
forwards to the appropriate DOE Organization for payment instruction
    <bullet>  DOE Organizations send payment information back to HSS
    <bullet>  HSS sends entire invoice to DOE financial POC so that 
payment can be aligned into the DOE financial system
    b. Homeland Security Presidential Directive (HSPD)-12 Budget
    <bullet>  Process is very similar to approach listed above for 
Investigations
    <bullet>  HSS is the point of contact with GSA
    <bullet>  In fiscal year (FY) 2011, HSS sent NNSA estimated costs 
and PSD coordinated all NNSA funding back to HSS
    <bullet>  Process for FY12 will be similar
    6. Facility Clearance: There can be DOE involvement in the 
registration of security activities which includes the Foreign 
Ownership Control or Influence (FOCI) element. Within the FOCI program, 
DOE counterintelligence and legal interactions may be required when 
making a FOCI determination.
    7. Counterintelligence and Intelligence Support: The Department's 
Office of Intelligence and its Office of Counterintelligence, each 
having been established by the NNSA Act of FY 2000, are now structured 
as part of the combined DOE Office of Intelligence and 
Counterintelligence (DOE/IN). NNSA relies upon DOE/IN for the effective 
conduct of its mission. The support is critical to the success of our 
core missions in Defense Programs and Nuclear Nonproliferation as well 
as Security and Nuclear Counterterrorism. Foreign intelligence 
collection and analyses inform our understanding of other countries' 
capabilities and Counterintelligence (CI) protects our own assets and 
capabilities from compromise or sabotage.
    The CI directorate has aligned its functional capabilities to 
address the key mission areas of Insider Threat, Foreign Risk 
Management (regarding presence in and interaction with National 
Laboratories), Threat Assessment (to support security and CI 
objectives), Security (to manage clearances and SCIF's), and 
Investigations (with oversight of CI investigations and operations 
across the complex).
    The Intelligence Analysis Directorate maintains its focus on 
foreign energy and nuclear matters, as well as science and technology 
capabilities more broadly.
    The IN Cyber Directorate is composed of four divisions: Strategic 
Initiatives, Network Architecture and Engineering Service, Information 
Technology Support, and Cyber Operations. The NNSA Chief Information 
Officer works in close collaboration with the IN Cyber Directorate to 
ensure comprehensive protection of NNSA networks and associated 
information.
    The Field Intelligence Elements (FIE's) of DOE/IN located within 
the NNSA laboratories and at the Nevada Nuclear Security Site (NNSS) 
have a unique status. The lab FIE members are employees of the 
laboratory Management and Operating contractors. But, under a narrow 
exception to the general NNSA Act prohibition of DOE direction and 
control of NNSA personnel (Sec 3117 of the FY 2007 National Defense 
Authorization Act) as well as provisions in the updated Executive Order 
12333, they are not only subject to direction and control of DOE/IN but 
they (and the rest of IN) are also part of the U.S. Intelligence 
Community, subject to the direction of the Director of National 
Intelligence. NNSA relies upon DOE/IN to help manage the Intelligence 
Work accomplished at the NNSA labs in support of the Intelligence 
Community and other national security customers.
    Listing of Security Rules and Directives provided as separate 
attachment [see Appendix page 98]; however, the response to 73.b. 
should include this information.

                            Listing of Security Rules and Directives

    This listing may not contain all applicable National level policy 
documents or Departmental Orders.





Directive                                 Title/Comment
1. 5 CFR 732                              National Security Positions
2. 5 CFR 736                              Personnel Investigations
3. 10 CFR 30 through 40                   Rules of general applicability to domestic licensing of byproduct
                                           material
4. 10 CFR 72                              Licensing Requirements for the Independent Storage of Spent Nuclear
                                           Fuel and High-level Radioactive Waste, and Reactor-related great than
                                           Class C Waste
5. 10 CFR 74                              Material Control and Accounting of Special Nuclear Material
6. 10 CFR 707                             Workplace Substance Abuse Programs at DOE Sites
7. 10 CFR Part 710, Subpart A             General Criteria and Procedures for Determining Eligibility for Access
                                           to Classified Matter or Special Nuclear Material
8. 10 CFR Part 712                        Human Reliability Program
9. 10 CFR 725                             Permits for Access to Restricted Data
10. 10 CFR 824                            Procedural Rules for the Assessment of Civil Penalties for Classified
                                           Information Security Violations
11. 10 CFR Part 860                       Trespassing on Department of Energy Property
12. 10 CFR 862                            Restrictions on Aircraft Landing and Air Delivery at DOE Nuclear Sites
13. 10 CFR 1016                           Safeguarding of Restricted Data
14. 10 CFR 1017                           Identification and Protection of Unclassified Controlled Nuclear
                                           Information
15. 10 CFR 1044                           Security Requirements for Protected Disclosures under section 3164 of
                                           the National Defense Authorization Act for fiscal year 2000
16. 10 CFR 1045                           Nuclear Classification and Declassification
17. 10 CFR Part 1046                      Physical Protection of Security Interests
18. 10 CFR 1046, Subpart B                Protective Force Personnel
19. 10 CFR Part 1047                      Limited Arrest Authority and Use of Force by Protective Force Officers
20. 32 CFR 2001                           Classified National Security Information
21. DOE O 142.3A                          Unclassified Foreign Visits and Assignments Program
22. DOE P 205.1                           Departmental Cyber Security Management Policy
23. DOE O 205.1B                          Department of Energy Cyber Security Program
24. DOE M 205.1-3                         Telecommunications Security Manual
25. DOE N 206.4                           Personal Identity Verification
26. DOE O 227.1                           Independent Oversight Program
27. DOE P 310.1                           Maximum Entry and Mandatory Separation Ages for Certain Security
                                           Employees
28. DOE O 452.4B                          Security and Use Control of Nuclear Explosives and Nuclear Weapons
29. DOE O 452.6A                          Nuclear Weapon Surety Interface with the Department of Defense
30. DOE O 452.7                           Protection of Use Control Vulnerabilities and Designs
31. DOE O 452.8                           Control of Nuclear Weapon Data
32. DOE O 457.1                           Nuclear Counterterrorism
33. DOE M 457.1-1                         Control of Improvised Nuclear Device Information
34. DOE O 461.2                           Onsite Packaging and Transfer of Materials of National Security
                                           Interest
35. DOE P 470.1A                          Safeguards and Security Program
36. DOE O 470.3B                          Graded Security Protection (GSP) Policy
37. DOE O 470.4B                          Safeguards and Security Program
38. DOE O 471.1B                          Identification and Protection of Unclassified Controlled Nuclear
                                           Information
39. DOE O 471.3                           Identifying and Protecting Official Use Only Information
40. DOE M 471.3-1                         Manual for Identifying and Protecting Official Use Only
41. DOE O 471.5                           Special Access Programs
42. DOE O 471.6                           Information Security
43. DOE O 472.2                           Personnel Security
44. DOE O 473.3                           Protection Program Operations
45. DOE O 474.2                           Nuclear Material Control and Accountability
46. DOE O 475.1                           Counterintelligence Program
47. DOE O 475.2A                          Identifying Classified Information



    Within the Department of Energy, NNSA is managed by the Under 
Secretary for Nuclear Security, who reports to the Secretary. In 
accordance with section 3213(a) and (b) of the National Nuclear 
Security Administration Act (NNSA Act), NNSA employees ``shall not be 
responsible to, or subject to the authority, direction, or control of, 
any . . . officer, employee, or agent of the [DOE]'' other than the 
Secretary of Energy, acting through the NNSA Administrator, the NNSA 
Administrator, or the NNSA Administrator's designee within NNSA. 50 
U.S.C. 2403(a) and (b).
    As part of the Department of Energy, NNSA is subject to all 
Departmental regulations, orders, and policies in all functional areas, 
except that the NNSA Administrator may establish NNSA-specific 
policies, unless disapproved by the Secretary of Energy. NNSA Act, 
Sec. 3212(d), 50 U.S.C. Sec. 2402(d). The U.S. Office of Personnel 
Management (OPM) provides oversight with DOE's Office of Human Capital 
of NNSA's human resources systems via a periodic review of efficiency, 
effectiveness and compliance with regulations and law in the following 
areas: strategic alignment, leadership and knowledge management, 
performance culture, talent management, and accountability. Delegated 
Examining authority (to hire using competitive procedures) flows 
through the Secretary of Energy from the OPM to NNSA. Employee 
appointments and removals for Senior Executive Service and other 
Executive Review Board actions are subject to review or oversight by 
DOE. Use of the DOE excepted service authorities (EJ and EK) is subject 
to approval by DOE. Technical Qualifications Program (TQP) Policy is 
owned by DOE, and DOE provides oversight of NNSA's management of the 
TQP. NNSA Diversity and EEO Policy is subject to review and concurrence 
by DOE. Personnel recordkeeping systems are owned by DOE and must 
comply with OPM requirements.
    Mr. Turner. Please provide the committee, before December 15, a 
comprehensive list of all DOE Orders, Manuals, and any other DOE 
regulations to which NNSA and/or its labs, plants, and facilities are 
held or are subject to.
    Mr. D'Agostino. A comprehensive list of all current DOE directives 
(Policy, Orders, and Manuals) can be found at: www.directives.doe.gov.
    An excerpt of the current DOE directives from the web site is 
attached below. Please note the listing includes Guides which are non-
mandatory.
    Listed below are the DOE Regulations to which the NNSA is subject. 
[Response to Q73b, for cross-reference--ed.]

                            List of Applicable DOE Regulations

     1.  10 CFR Part 202--Production or Disclosure of Material or 
Information
     2.  10 CFR Part 205--Administrative Procedures and Sanctions
     3.  10 CFR Part 600--Financial Assistance Rules
     4.  10 CFR Part 601--New Restrictions on Lobbying
     5.  10 CFR Part 602--Epidemiology and Other Health Studies 
Financial Assistance Program
     6.  10 CFR Part 603--Technology Investment Agreements
     7.  10 CFR Part 605--The Office of Energy Research Financial 
Assistance Program
     8.  10 CFR Part 609--Loan Guarantees for Projects That Employ 
Innovative Technologies
     9.  10 CFR Part 611--Advanced Technology Vehicles Manufacturer 
Assistance Program
    10.  10 CFR Part 622--Contractual Provisions
    11.  10 CFR Part 624--Contract Clauses
    12.  10 CFR Part 625--Price Competitive Sale of Strategic Petroleum 
Reserve Petroleum
    13.  10 CFR Part 626--Procedures for Acquisition of Petroleum for 
the Strategic Petroleum Reserve
    14.  10 CFR Part 706--Security Policies and Practices Relating to 
Labor-Management Relations
    15.  10 CFR Part 707--Workplace Substance Abuse Programs at DOE 
Sites
    16.  10 CFR Part 708--DOE Contractor Employee Protection Program
    17.  10 CFR Part 709--Counterintelligence Evaluation Program
    18.  10 CFR Part 710--Criteria and Procedures for Determining 
Eligibility for Access to Classified Matter or Special Nuclear Material
    19.  10 CFR Part 712--Human Reliability Program
    20.  10 CFR Part 715--Definition of Non-Recourse Project-Financed
    21.  10 CFR Part 719--Contractor Legal Management Requirements
    22.  10 CFR Part 725--Permits for Access to Restricted Data
    23.  10 CFR Part 727--Consent for Access to Information on 
Department of Energy Computers
    24.  10 CFR Part 733--Allegations of Research Misconduct
    25.  10 CFR Part 745--Protection of Human Subjects
    26.  10 CFR Part 760--Domestic Uranium Program
    27.  10 CFR Part 765--Reimbursement for Costs of Remedial Action at 
Active Uranium and Thorium Processing Sites
    28.  10 CFR Part 766--Uranium Enrichment Decontamination and 
Decommissioning Fund; Procedures for Special Assessment of Domestic 
Utilities
    29.  10 CFR Part 770--Transfer of Real Property at Defense Nuclear 
Facilities for Economic Development
    30.  10 CFR Part 780--Patent Compensation Board Regulations
    31.  10 CFR Part 781--Doe Patent Licensing Regulations
    32.  10 CFR Part 782--Claims for Patent and Copyright Infringement
    33.  10 CFR Part 783--Waiver of Patent Rights
    34.  10 CFR Part 784--Patent Waiver Regulation
    35.  10 CFR Part 800--Loans for Bid or Proposal Preparation by 
Minority Business Enterprises Seeking Doe Contracts and Assistance
    36.  10 CFR Part 810--Assistance to foreign atomic Energy 
Activities
    37.  10 CFR Part 820--Procedural Rules for DOE Nuclear Activities
    38.  10 CFR Part 824--Procedural Rules for the Assessment of Civil 
Penalties for Classified Information Security Violations
    39.  10 CFR Part 830--Nuclear Safety Management
    40.  10 CFR Part 835--Occupational Radiation Protection
    41.  10 CFR Part 840--Extraordinary Nuclear Occurrences
    42.  10 CFR Part 850--Chronic Beryllium Disease Prevention Program
    43.  10 CFR Part 851--Worker Safety and Health Program
    44.  10 CFR Part 860--Trespassing On Department of Energy Property
    45.  10 CFR Part 861--Control of Traffic at Nevada Test Site
    46.  10 CFR Part 862--Restrictions on Aircraft Landing and Air 
Delivery at Department of Energy Nuclear Sites
    47.  10 CFR Part 871--Air Transportation of Plutonium
    48.  10 CFR Part 950--Standby Support for Certain Nuclear Plant 
Delays
    49.  10 CFR Part 960--General Guidelines for the Preliminary 
Screening of Potential Sites for A Nuclear Waste Repository
    50.  10 CFR Part 961--Standard Contract for Disposal of Spent 
Nuclear Fuel and/or High-Level Radioactive Waste
    51.  10 CFR Part 962--Byproduct Material
    52.  10 CFR Part 963--Yucca Mountain Site Suitability Guidelines
    53.  10 CFR Part 1000--Transfer of Proceedings to the Secretary of 
Energy and the Federal Energy Regulatory Commission
    54.  10 CFR Part 1002--Official Seal and Distinguishing Flag
    55.  10 CFR Part 1003--Office of Hearings and Appeals Procedural 
Regulations
    56.  10 CFR Part 1004--Freedom of Information
    57.  10 CFR Part 1005--Intergovernmental Review of Department of 
Energy Programs and Activities
    58.  10 CFR Part 1008--Records Maintained on Individuals (Privacy 
Act)
    59.  10 CFR Part 1009--General Policy for Pricing and Charging for 
Materials and Services Sold by DOE
    60.  10 CFR Part 1010--Conduct of Employees and former Employees
    61.  10 CFR Part 1013--Program Fraud Civil Remedies and Procedures
    62.  10 CFR Part 1014--Administrative Claims Under Federal Tort 
Claims Act
    63.  10 CFR Part 1015--Collection of Claims Owed the United States
    64.  10 CFR Part 1016--Safeguarding of Restricted Data
    65.  10 CFR Part 1017--Identification and Protection of 
Unclassified Controlled Nuclear Information
    66.  10 CFR Part 1021--National Environmental Policy Act 
Implementing Procedures
    67.  10 CFR Part 1022--Compliance with Floodplain and Wetland 
Environmental Review Requirements
    68.  10 CFR Part 1023--Contract Appeals
    69.  10 CFR Part 1039--Uniform Relocation Assistance and Real 
Property Acquisition for Federal and Federally Assisted Programs
    70.  10 CFR Part 1040--Nondiscrimination in Federally Assisted 
Programs or Activities
    71.  10 CFR Part 1041--Enforcement of Nondiscrimination on the 
Basis of Handicap in Programs or Activities Conducted by the Department 
of Energy
    72.  10 CFR Part 1042--Nondiscrimination On the Basis of Sex in 
Education Programs or Activities Receiving Federal Financial Assistance
    73.  10 CFR Part 1044--Security Requirements for Protected 
Disclosures Under Section 3164 of the National Defense Authorization 
Act for Fiscal Year 2000
    74.  10 CFR Part 1045--Nuclear Classification and Declassification
    75.  10 CFR Part 1046--Physical Protection of Security Interests
    76.  10 CFR Part 1047--Limited Arrest Authority and Use of force by 
Protective Force Officers
    77.  10 CFR Part 1048--Trespassing On Strategic Petroleum Reserve 
Facilities and other Property
    78.  10 CFR Part 1049--Limited Arrest Authority and Use of force by 
Protective Force Officers of the Strategic Petroleum Reserve
    79.  10 CFR Part 1050--Foreign Gifts and Decorations
    80.  10 CFR Part 1060--Payment of Travel Expenses of Persons who 
are not Government Employees

<greek-l>N.B.: The long DOE current directives list that followed in 
manuscript has been scanned to EPS and put in Docs for Record 
    section deg.Mr. Turner. Please provide the committee, before 
December 15, a comprehensive list of all audits conducted by any DOE 
office, entity, or personnel on NNSA and/or any of its labs, plants, or 
facilities in FY11.
    Mr. D'Agostino. [The information referred to follows on the next 
page.]
[GRAPHIC] [TIFF OMITTED] T1527.067

[GRAPHIC] [TIFF OMITTED] T1527.070

[GRAPHIC] [TIFF OMITTED] T1527.071

    Mr. Turner. Please provide the committee, before December 15, 
the number of NNSA personnel assigned to the site offices at each NNSA 
site (e.g. Los Alamos, Pantex, etc.). Also, the number of NNSA 
personnel at other NNSA facilities, such as headquarters, that are 
conducting oversight of the labs and plants. In both cases, how do 
these numbers compare to 5 years ago and 10 years ago?
    Mr. D'Agostino.
    [GRAPHIC] [TIFF OMITTED] T1527.072
    

    Mr. Turner. Please provide the committee, before December 15, 
the number of personnel working in the DOE Office of Health, Safety, 
and Security.
    Mr. D'Agostino. The mission of the Office of Health, Safety and 
Security (HSS) is to maintain a safe and secure work environment for 
all Federal and contractor employees, ensure that the Department's 
operations preserve the health and safety of the surrounding 
communities, and protect national security assets entrusted to the 
Department. To accomplish these vital tasks, HSS requested and was 
authorized a Federal staff of 398 FTEs for FY 2011 and has requested a 
Federal staffing level of 376 for FY 2012.
    Mr. Turner. Please provide the committee a detailed description of 
NNSA's approach to managing, overseeing, and coordinating surveillance 
of the stockpile by the labs and plants, including the name and 
position of the individual within NNSA with responsibility for this 
mission. Please also provide the committee with NNSA's requirements for 
conducting surveillance and the program plan for fulfilling these 
requirements.
    Mr. D'Agostino. In 2011 a new surveillance governance model for 
management of the surveillance program was instituted in which we 
selected a Senior Technical Advisor for Surveillance (STAS) to oversee 
all areas of the program and report directly to the Assistant Deputy 
Administrator for Stockpile Management. The governance model 
coordinates key surveillance activities to assure that each weapon 
system maintains a current technical basis to determine its respective 
requirements; all systems requirements are integrated into an 
executable plan; appropriate diagnostics are developed and deployed; 
and the surveillance plan is funded and supported by senior NNSA 
management.
    Surveillance requirements are identified by Sandia, Los Alamos, and 
Lawrence Livermore National Laboratories and provided to the NNSA 
production agencies to perform the necessary inspections, testing, and 
capture of data. The primary goal of the Surveillance Program is to 
identify any design or manufacturing defects either in newly produced 
or in stockpiled weapons and weapon components, as well as, detect any 
issues related to deployment or aging of the weapons. Each weapon 
system has an integrated weapon evaluation plan that projects out 6 
years.
    Mr. Turner. How does the B61 Life Extension Program (LEP), which 
would consolidate several different versions of the B61 into a single 
B61-12 version, link to our extended deterrent in Europe?
    a. What are the implications, both to our extended deterrent and 
more broadly, of delay in the B61 LEP?
    b. Why is it important to increase surety in B61 warheads during 
the LEP?
    Mr. D'Agostino. The B61-12 LEP plan submitted by NNSA has a central 
theme of consolidating multiple legacy versions of the B61 that are 
currently deployed in the U.S. and abroad. As a result, the B61-12 will 
provide a modernized extended deterrent in Europe. Our planned 
deployment schedule will ensure that no gap in extended deterrent 
capability will occur, and will ensure seamless replacement of legacy 
B61 systems with the modernized B61-12.
    The implications of a delay in the B61-12 LEP have been studied by 
NNSA and DOD as part of our LEP alternatives analysis. NNSA has 
coordinated mitigation strategies with the Department of Defense for 
the contingency of a delayed B61 LEP. If the proposed LEP is 
significantly delayed, several critical and costly activities must be 
pursued to temporarily stabilize the capabilities of legacy deployed 
B61 systems. For the time period of the delay, more rigorous 
surveillance activities must be performed to ensure an adequate state 
of readiness is maintained for this aging legacy element of the 
stockpile.
    The B61 bomb variants have some of the most advanced safety and use 
control features in the current stockpile. However, these features are 
aging and designed for Cold War threats. The life extension program 
provides the opportunity to improve weapon safety and security 
especially against new, emerging threats of the 21st century. The B61 
LEP will incorporate improvements to the existing surety features 
without significant risk of schedule delays and will balance the B61 
investments with those needed in other weapon LEPs. The design approach 
will facilitate future surety upgrades as threats to our nuclear 
deterrent evolve.
    Mr. Turner. How many nuclear warheads does Russia make each year? 
What is our estimate for how many it can make? How does this compare to 
actual U.S. production and our potential production capacity?
    Mr. D'Agostino. The NNSA is responsible for the warheads in the 
U.S. nuclear weapons program. Questions about a foreign nuclear weapon 
program should be answered by the Intelligence Community or the 
Department of Defense.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. General Kehler has stated recently that ``We're not 
going to be able to go forward with weapon systems that cost what 
weapon systems cost today . . . Case in point is [the] Long-Range 
Strike [bomber]. Case in point is the Trident [submarine] replacement . 
. . . The list goes on.'' In addition, Admiral Mullen before he retired 
as Chairman of the JCS said: ``At some point in time, that triad 
becomes very, very expensive, you know, obviously, the smaller your 
nuclear arsenal is. And it's--so at some point in time, in the future, 
certainly I think a decision will have to be made in terms of whether 
we keep the triad or drop it down to a dyad.''
    Can the U.S. guarantee its security and that of its allies in a 
more fiscally sustainable manner by pursuing further bilateral 
reductions in nuclear forces with Russia and scaling back plans for new 
and excessively large strategic nuclear weapons systems and warhead 
production facilities?
    Dr. Miller. I believe that if properly structured, reductions below 
New START levels with Russia could reduce costs to the United States, 
while strengthening deterrence of potential regional adversaries, 
strategic stability vis-a-vis Russia and China, and assurance of our 
Allies and partners. At the same time, as noted in the Nuclear Posture 
Review, Russia's nuclear force will remain a significant factor in 
determining how much and how fast we are prepared to reduce U.S. 
forces.
    Ms. Sanchez. Do you have any concerns about the provisions related 
to nuclear weapons employment and that could limit or delay nuclear 
weapons reductions, which were included in the House National Defense 
Authorization bill?
    Dr. Miller. Sections 1055 and 1056 of H.R. 1540 would impinge on 
the President's authority to implement the New START Treaty and 
establish U.S. nuclear weapons policy. Moreover, it would set onerous 
conditions on the Administration's ability to direct the retirement, 
dismantlement, or elimination of non-deployed nuclear weapons.
    This legislation would dictate the pace of reductions under New 
START Treaty in a way that would bar DOD and DOE from exploring the 
best means to implement reductions, could preclude DOD from being 
logistically able to meet New START Treaty timelines, and would add 
disruptions and costs at a time when our country and the nuclear 
enterprise can ill afford them. Notably, it would set conditions on New 
START Treaty implementation and divert resources from stockpile 
sustainment in ways that tax the very programs that the House 
Appropriations Committee has just cut drastically.
    Further, Section 1056 raises constitutional concerns, as it appears 
to encroach on the President's authority as Commander in Chief to set 
nuclear employment policy.
    Ms. Sanchez. In testimony before the Senate Foreign Relations 
Committee in June 2010, former National Security Advisor Brent 
Scowcroft stated: ``Some things [nuclear weapons] need to be modernized 
in order to be safe, secure and reliable. Other things don't need to 
be. And I would not put modernization itself as a key to what we need 
to--we need to do.''
    Do you agree with this statement?
    Dr. Miller. I agree that nuclear weapons need to be modernized 
(e.g., through warhead life extension programs) in order to be safe, 
secure, and reliable. This modernization does not require the 
development of new nuclear weapons.
    Ms. Sanchez. What are the projected costs of, and associated 
decision points, related to, development and production of a new 
nuclear bomber, a new Air-Launched Cruise Missile, and a new ICBM?
    Dr. Miller. The President's Budget for Fiscal Year (FY) 2012 
contains $3.7 billion across FY 12-16 for a new, long-range penetrating 
bomber. The program would use a streamlined management and acquisition 
approach to balance capability with affordability by utilizing existing 
and mature technologies to the maximum extent. Additionally, the Air 
Force would limit requirements based on affordability using a realistic 
cost target to inform capability and cost trade-offs. The program plans 
to hold unit costs to the established targets to ensure sufficient 
production and a sustainable inventory over the long term for 
approximately 80 to 100 aircraft. The Air Force estimates an initial 
capability in the mid-2020s.
    The current funding for a new Air-Launched Cruise Missile, also 
known as Long-Range Standoff, is $884.3 million across FY 2012-16. The 
cost of this missile will be further refined when a materiel solution 
is selected as a product of the ongoing Analysis of Alternatives that 
is scheduled for completion in FY 2013.
    The Air Force will begin a Ground-Based Strategic Deterrence 
Capability-Based Analysis of Alternatives in FY 2013. This assessment 
supports development of an Initial Capabilities Document, and will 
establish a baseline of requirements for a future Inter Continental 
Ballistic Missile (ICBM) replacement program.
    Ms. Sanchez. Would the ALCM require a new warhead?
    Dr. Miller. No. The Administration committed in the Nuclear Posture 
Review to sustaining a safe, secure, and effective nuclear arsenal 
without developing new nuclear warheads. However, a new ALCM would 
require a decision regarding how to conduct a life extension program 
for the ALCM warhead.
    Ms. Sanchez. Under the data provided by the New START verification 
regime, Russia's nuclear forces were actually at one point under the 
New START limits that must be met by 2018, but now have risen slightly. 
Russia is deploying one new missile, the RS-24--a missile I would note 
that U.S. inspectors got to examine up close solely because New START 
came into force--and I believe Russia is also proposing a new 10-
warhead missile.
    What can we do to discourage Russia from developing and fielding 
new weapons?
    Dr. Miller. Under the New START Treaty, each country is permitted 
to shape and modernize its forces to meet their respective strategic 
requirements. There is little we can do to discourage Russia from 
developing and fielding new nuclear weapons as long as they remain 
within the limits of the Treaty. Russia continues to modernize its 
force to replace aging systems and to meet what it views as its 
strategic needs. The United States is also modernizing nuclear systems 
as allowed under the New START Treaty.
    Ms. Sanchez. In the context of New START negotiations, how many 
deployed strategic warheads did the U.S. military conclude that it 
needed to fulfill the existing targeting requirements established by 
the Bush administration in their nuclear policies.
    And how many deployed strategic warheads are needed following the 
analysis of the 90-day NPR implementation review based on the different 
options that will be presented to the President?
    Dr. Miller. I would be glad to brief the committee leadership with 
a classified briefing to answer the first question. I cannot answer the 
second question because at this time no options have been finalized for 
presentation to the President.
    [OSD provided briefing to Ranking Member Sanchez on the number of 
deployed strategic warheads as part of a classified brief by Under 
Secretary Miller and General Kehler on July 10, 2012.]
    Ms. Sanchez. The Nuclear Posture Review emphasizes the importance 
of reducing the role of nuclear weapons in U.S. security policy, an 
approach that makes sense in a world where such weapons are the only 
existential threat to the United States.
    Can you give us some examples of how the United States can further 
reduce the role of nuclear weapons?
    Can you tell us how and what further reductions in the size of the 
U.S. stockpile would be possible based on current and foreseeable 
requirements, and what assumptions about nuclear weapons technology and 
geopolitics in the next decades factor into these requirements?
    Dr. Miller. The United States continues to explore options to 
reduce the role of nuclear weapons. In a regional context, continued 
development of conventional capabilities and missile defenses can 
strengthen non-nuclear deterrence and so help to reduce reliance on 
nuclear weapons. In addition, implementation of the Stockpile 
Stewardship Program and investments in our nuclear infrastructure will 
allow the United States over time to shift away from retaining large 
numbers of non-deployed warheads as a hedge against technical or 
geopolitical surprise, allowing major reductions in the nuclear 
stockpile. To date, no final decisions have been made with respect to 
future force structure or the modernization plans for nuclear delivery 
systems. The Department of Defense is close to concluding the NPR 
Implementation Study, which will inform future decisions.
    Ms. Sanchez. What assumptions underlie and inform the options 
presented to the President?
    Dr. Miller. The key assumption that informs the options being 
developed is that the goals of the Nuclear Posture Review (NPR) remain 
valid: to prevent nuclear proliferation and nuclear terrorism; to 
reduce the role of U.S. nuclear weapons in U.S. national security 
strategy; to maintain strategic stability and deterrence at reduced 
nuclear force levels; to strengthen regional deterrence and reassure 
our Allies and partners of the credibility of the U.S. nuclear umbrella 
and other security commitments; and to sustain a safe, secure, and 
effective nuclear deterrent.
    Ms. Sanchez. What is the cost of forward-deploying tactical nuclear 
weapons in Europe? Please provide detailed cost break-down (in 
classified form if necessary).
    How are these costs shared between the U.S. and host countries?
    Dr. Miller. DOD estimates the annual operating costs for the United 
States to support forward deployed nuclear weapons in Europe is 
approximately $100 million per year on average, as shown in the below 
table.



----------------------------------------------------------------------------------------------------------------
         Fiscal Year (FY)($M)             FY12         FY13         FY14         FY15        FY16        FYDP
----------------------------------------------------------------------------------------------------------------
Officer                                7.2         7.3          7.5          7.7          7.9         8  37.6
Enlisted                               66.7        68.9         71.1         73.4         76.3        8 356.4
Operations & Maintenance               2.3         2.4          2.5          2.5          2.5           12.2
Security Investments                   0.0         23.0         44.0         0.0          0.0           67.0
Weapon Storage Systems                 2.8         2.4          2.4          2.3          2.4           12.3
Transportation Costs                   2.9         2.9          2.9          2.9          2.9           14.5
Total                                  81.9        106.9        130.4        88.8         92.0         500.0
----------------------------------------------------------------------------------------------------------------


    Beyond the above costs, Host Nations fund all facility and 
installation costs at the Munitions Support Squadrons locations. In 
addition to facility and installation costs, NATO funded $14.7M in FY 
2011 to develop and procure a replacement weapon maintenance vehicle 
for all weapon sites and $63.4M in FY 2011-2012 in security upgrades 
for munitions storage sites.
    Ms. Sanchez. General Kehler, you've stated recently that ``We're 
not going to be able to go forward with weapon systems that cost what 
weapon systems cost today . . . Case in point is [the] Long-Range 
Strike [bomber]. Case in point is the Trident [submarine] replacement . 
. . . The list goes on.'' In addition, Admiral Mullen before he retired 
as Chairman of the JCS said: ``At some point in time, that triad 
becomes very, very expensive, you know, obviously, the smaller your 
nuclear arsenal is. And it's--so at some point in time, in the future, 
certainly I think a decision will have to be made in terms of whether 
we keep the triad or drop it down to a dyad.''
    Can the U.S. guarantee its security and that of its allies in a 
more fiscally sustainable manner by pursuing further bilateral 
reductions in nuclear forces with Russia and scaling back plans for new 
and excessively large strategic nuclear weapons systems and warhead 
production facilities?
    General Kehler. U.S. policy is to maintain strategic deterrence, 
strategic stability, and assure our allies with the lowest possible 
number of nuclear weapons. The President has certified to Congress he 
will seek negotiations with the Russian Federation for an agreement on 
non-strategic nuclear weapons stockpiles of Russia and the U.S. and to 
reduce tactical nuclear weapons in a verifiable manner. I believe our 
triad of strategic nuclear weapons systems and our nuclear weapons 
infrastructure need to be sustained and modernized and there are 
opportunities to do so in a cost effective and affordable manner. New 
START provides the necessary flexibility to examine alternatives while 
meeting our national security policy objectives.
    Ms. Sanchez. Do you have any concerns about the provisions related 
to nuclear weapons employment and that could limit or delay nuclear 
weapons reductions, which were included in the House National Defense 
Authorization bill?
    General Kehler. As the combatant commander responsible for managing 
forces and implementing the New START, I am concerned reporting 
requirements and waiting periods have the potential to impact New START 
implementation. Additionally, I am concerned that some provisions could 
divert resources from critical stockpile sustainment efforts and delay 
prudent reductions to the non-deployed stockpile. In my view, existing 
consultative processes (e.g., 1251, Stockpile Stewardship and 
Management Plan) ensure we work jointly with Congress to implement New 
START and manage the stockpile.
    Ms. Sanchez. In testimony before the Senate Foreign Relations 
Committee in June 2010, former National Security Advisor Brent 
Scowcroft stated: ``Some things [nuclear weapons] need to be modernized 
in order to be safe, secure and reliable. Other things don't need to 
be. And I would not put modernization itself as a key to what we need 
to--we need to do.''
    Do you agree with this statement?
    General Kehler. We need to sustain a safe, secure and effective 
nuclear deterrent. We have reached a critical point where investment is 
required to sustain the weapons, perform life extensions for 
substantial pieces of our deterrent, and modernize the complex. The 
current plans in the 1251 Report detail our best estimates for actions 
needed to sustain the stockpile while meeting our deterrence 
requirements.
    Ms. Sanchez. What are the projected costs of, and associated 
decision points, related to, development and production of a new 
nuclear bomber, a new Air-Launched Cruise Missile, and a new ICBM?
    General Kehler. The 1251 Report contains the most current projected 
costs for the new bomber, ALCM follow-on, and Minuteman follow-on. 
These estimates will be refined as the Air Force conducts the 
requirements and acquisition processes for each platform and future 
1251 Reports will be updated accordingly. The current Air Force plan 
projects a technology development decision for the ALCM follow-on in 
FY14. Specific plans for the new bomber are in development. The 
Minuteman follow-on is dependent on the Ground Based Strategic 
Deterrent Analysis of Alternatives which is scheduled to begin in FY13.
    Ms. Sanchez. Would the ALCM require a new warhead?
    General Kehler. The current ALCM warhead is sustainable with 
investments by the Air Force and NNSA until 2030. The next-generation 
cruise missile will require a life-extended warhead.
    Ms. Sanchez. Under the data provided by the New START verification 
regime, Russia's nuclear forces were actually at one point under the 
New START limits that must be met by 2018, but now have risen slightly. 
Russia is deploying one new missile, the RS-24--a missile I would note 
that U.S. inspectors got to examine up close solely because New START 
came into force--and I believe Russia is also proposing a new 10-
warhead missile.
    What can we do to discourage Russia from developing and fielding 
new weapons?
    General Kehler. The New START Treaty was explicitly designed to 
permit both countries to shape and modernize their forces to match 
their requirements as they see fit within the treaty's limits. In 
contrast to the United States, Russia is today conducting a 
modernization of their force in part to serve as replacements for 
existing systems that have exceeded or are ending their service lives 
and more generally to meet their perceived geopolitical needs. To some 
degree, the United States will be conducting similar modernization 
efforts in the later half of this decade and the next. As discussed in 
the NPR, I believe the way forward is to place ``importance on Russia 
joining us as we move to lower levels.''
    Ms. Sanchez. In the context of New START negotiations, how many 
deployed strategic warheads did the U.S. military conclude that it 
needed to fulfill the existing targeting requirements established by 
the Bush administration in their nuclear policies.
    And how many deployed strategic warheads are needed following the 
analysis of the 90-day NPR implementation review based on the different 
options that will be presented to the President?
    General Kehler. As part of the Nuclear Posture Review the military 
conducted extensive studies to inform the U.S. negotiation position for 
the New Start Treaty. The resultant treaty level reflects the 
military's identified requirements. The follow-on analysis directed in 
the NPR (aka ``90 Day NPR implementation review'') is ongoing and thus 
it would be premature to describe the content of these discussions.
    Ms. Sanchez. The Nuclear Posture Review emphasizes the importance 
of reducing the role of nuclear weapons in U.S. security policy, an 
approach that makes sense in a world where such weapons are the only 
existential threat to the United States.
    Can you give us some examples of how the United States can further 
reduce the role of nuclear weapons?
    Can you tell us how and what further reductions in the size of the 
U.S. stockpile would be possible based on current and foreseeable 
requirements, and what assumptions about nuclear weapons technology and 
geopolitics in the next decades factor into these requirements?
    General Kehler. The ongoing follow-on analysis directed in the NPR 
is examining these issues in detail and thus it would be premature to 
describe the content of these discussions.
    Ms. Sanchez. Do you have any concerns about the provisions related 
to nuclear weapons employment and that could limit or delay nuclear 
weapons reductions, which were included in the House National Defense 
Authorization bill?
    Secretary Tauscher. The May 24, 2011, Statement of Administration 
Policy on H.R. 1540 made clear that the Administration had serious 
constitutional concerns with sections 1055, 1056, and 1230. Sections 
1055 and 1056 would impinge on the President's authority to implement 
the New START Treaty and to set U.S. nuclear weapons policy. Similarly, 
section 1230 would limit the president's ability to address tactical 
nuclear weapons, a step called for in the Senate's Resolution of 
Ratification of the New START Treaty.
    Ms. Sanchez. Under the data provided by the New START verification 
regime, Russia's nuclear forces were actually at one point under the 
New START limits that must be met by 2018, but now have risen slightly. 
Russia is deploying one new missile, the RS-24--a missile I would note 
that U.S. inspectors got to examine up close solely because New START 
came into force--and I believe Russia is also proposing a new 10-
warhead missile.
    What can we do to discourage Russia from developing and fielding 
new weapons?
    Secretary Tauscher. Under New START, each Party retains the right 
to determine for itself the structure and composition of its strategic 
forces within the Treaty's overall limits. This provides both Parties 
to the Treaty with the flexibility to deploy, maintain, and modernize 
its strategic nuclear forces in the manner that best protects its 
national security interests. However, modernization must occur within 
the central limits of the Treaty. The Treaty limitations on U.S. and 
Russian forces, combined with mechanisms to verify compliance, will 
provide predictability, transparency, and stability in the U.S.-Russian 
strategic relationship at lower nuclear force levels.
    Ms. Sanchez. Are we taking the necessary steps to build 
verification requirements into the CMRR and UPF facility designs to 
preserve flexibility for future arms control agreements?
    Secretary Tauscher. While designs for CMRR (Chemistry and 
Metallurgy Research Replacement) and UPF (Uranium Processing Facility) 
are flexible, specific verification requirements of future agreements 
are unknown. The UPF facility design has been evaluated and determined 
to have an appropriate level of transparency within the ongoing design 
to accommodate potential activities that could be related to future 
treaty obligations. UPF can accommodate access, and appropriate areas 
for monitoring and measuring of fissile material for inspection teams. 
The CMRR Nuclear Facility is not considered a production facility and 
is not anticipated to be subject to routine inspections.
    Ms. Sanchez. Could you further detail the relationship between 
modernization and reductions?
    Does delay in modernization necessarily prevent any reductions? 
Could the U.S. pursue negotiations for further reductions before CMRR 
and UPF are operational? Could the U.S. make unilateral reductions, as 
was done under Presidents George H. W. Bush and George W. Bush, if they 
can be done without jeopardizing deterrence requirements? Why or why 
not?
    Secretary Tauscher. Appropriate investments to improve the 
capability and responsiveness in our nuclear infrastructure ensure the 
United States will retain a safe, secure, and effective nuclear arsenal 
so long as nuclear weapons exist and will help to enable further 
reductions.
    As stated in the Nuclear Posture Review, the President has directed 
a review of post-New START arms control objectives to consider further 
reductions in nuclear weapons.
    Ms. Sanchez. What is the cost of forward-deploying tactical nuclear 
weapons in Europe? Please provide detailed cost break-down (in 
classified form if necessary).
    How are these costs shared between the U.S. and host countries?
    Secretary Tauscher. We refer you to the answer below provided by 
the Department of Defense which outlines the U.S. support for forward 
based nuclear weapons in Europe as well as the contribution by host 
countries and the NATO Alliance. The current amount funded by the 
United States to support forward based nuclear weapons in Europe is:



----------------------------------------------------------------------------------------------------------------
         Fiscal Year (FY)($M)             FY12         FY13         FY14         FY15        FY16        FYDP
----------------------------------------------------------------------------------------------------------------
Officer                                7.2         7.3          7.5          7.7          7.9           37.6
Enlisted                               66.7        68.9         71.1         73.4         76.3         356.4
Operations & Maintenance               2.3         2.4          2.5          2.5          2.5           12.2
Security Investments                   0.0         23.0         44.0         0.0          0.0           67.0
Weapon Storage Systems                 2.8         2.4          2.4          2.3          2.4           12.3
Transportation Costs                   2.9         2.9          2.9          2.9          2.9           14.5
Total                                  81.9        106.9        130.4        88.8         92.0         500.0
----------------------------------------------------------------------------------------------------------------


    The Host Nations currently fund all facility and installation costs 
at the Munitions Support Squadrons (MUNSS) locations. In addition to 
facility and installation costs, NATO funded $14.7M (FY11) to develop 
and procure a replacement weapon maintenance vehicle for all weapon 
sites and $63.4M (FY11/12) in security upgrades for the MUNSS storage 
sites.
    Ms. Sanchez. Do you have any concerns about the provisions related 
to nuclear weapons employment and that could limit or delay nuclear 
weapons reductions, which were included in the House National Defense 
Authorization bill?
    Mr. D'Agostino. Section 1055 of H.R. 1540, the House National 
Defense Authorization Bill for FY 2012, would impose onerous conditions 
on NNSA's ability to retire, dismantle, or eliminate non-deployed 
nuclear weapons. The effect of this section would be to preclude 
dismantlement of weapons in excess of military needs. Additionally, it 
would increase stewardship and management costs and divert key 
resources from our critical stockpile sustainment efforts and delay 
completion of programs necessary to support the long-term safety, 
security, and reliability of our nuclear deterrent.
    Ms. Sanchez. In testimony before the Senate Foreign Relations 
Committee in June 2010, former National Security Advisor Brent 
Scowcroft stated: ``Some things [nuclear weapons] need to be modernized 
in order to be safe, secure and reliable. Other things don't need to 
be. And I would not put modernization itself as a key to what we need 
to--we need to do.''
    Do you agree with this statement?
    Mr. D'Agostino. Yes, I agree with Mr. Scowcroft's statement. As Mr. 
Scowcroft stated, NNSA is not pursuing modernization of nuclear weapons 
or the nuclear security enterprise for the sake of modernization; 
rather, NNSA is extending the life of systems where necessary, on a 
case-by-case basis, to ensure the continued safety, security and 
reliability of the U.S. nuclear deterrent, including assuring the 
continued capability of the entire nuclear security enterprise.
    [Text from the June hearing for context: Mr. SCOWCROFT. Yes, I am. 
I am comfortable. I did not use the term ``modernization'' in my 
comments. I said safe, reliable, assurance. Modernization for the sake 
of modernization, in light of the comments that Senator Lugar has made 
about the overall defense budget, is a separate question. Some things 
need to be modernized in order to be safe, secure, and reliable. Other 
things do not need to be. And I would not put modernization itself as a 
key to what we need to do. We need to be assured that the system will 
work the way we want it to work.]
    Ms. Sanchez. Would the ALCM require a new warhead?
    Mr. D'Agostino. The Air Force is assessing options to replace the 
Air Launched Cruise Missile (ALCM) with another long-range standoff 
(LRSO) capability in the next decade. NNSA is prepared to install new 
neutron generators to extend the life of the W80 deployed on the ALCM. 
NNSA will continue to support the Air Force's ongoing Analysis of 
Alternatives (AoA) to establish requirements for the LSRO. Until the 
AoA is complete, the warhead options will not be determined.
    Ms. Sanchez. Under the data provided by the New START verification 
regime, Russia's nuclear forces were actually at one point under the 
New START limits that must be met by 2018, but now have risen slightly. 
Russia is deploying one new missile, the RS-24--a missile I would note 
that U.S. inspectors got to examine up close solely because New START 
came into force--and I believe Russia is also proposing a new 10-
warhead missile.
    What can we do to discourage Russia from developing and fielding 
new weapons?
    Mr. D'Agostino. Russian determinations regarding the development 
and fielding of weapons will be based on Russian national security 
considerations, just as the United States will make determinations 
based on U.S. national security considerations. Looking to the future, 
the President has made clear his commitment to a step-by-step process 
for further reducing and eliminating nuclear weapons, while recognizing 
that this process will take time and must be based on international 
security conditions that will enable such reductions to occur in a 
secure, predictable, and stable manner. In this regard, the United 
States must continue to work with the international community, 
including Russia, to improve the regional and international security 
considerations affecting national security decisionmaking.
    Ms. Sanchez. What assumptions underlie, and what requirements 
drive, the 50-80 pits and secondaries production capacity for CMRR and 
UPF? What is the cost comparison for facilities that could produce a 
lower maximum number of pits/secondaries?
    Mr. D'Agostino. NNSA infrastructure is capability-based and will be 
responsive to changing world demands and have the inherent capacity for 
uranium processing, plutonium analytical chemistry and material 
characterization support, and storage to support production of the 
required pits and canned subassemblies (CSA) per year while sustaining 
the remaining stockpile. Stockpile life extension plans developed 
jointly between the Department of Defense and NNSA provide the drivers 
for the requirements for pits and secondaries production capacity. 
During the NNSA Critical Decision process that resulted in approval of 
capability-based designs for both facilities, multiple alternatives 
were considered for meeting mission needs. Both project teams are 
currently working to achieve 90 percent design maturity in FY 2012. 
NNSA will conduct independent cost reviews before setting the 
performance baselines for cost and schedule in 2013.
    Ms. Sanchez. What are the projected operation and management costs 
of CMRR and UPF?
    Mr. D'Agostino. For UPF: The projected total 50 year operational 
period cost of operations and maintenance and the average annual costs 
for the Uranium Processing Facility expressed in 2011 dollars are:


                                    Total Cost Over 50 Years              Average Annual Cost Over 50 Years

    Operations                $4,693,000K                           $93,800K
    Maintenance               $1,761,000K                           $34,900K



    For CMRR: The projected total 50 year operational period cost of 
operations and maintenance and the average annual costs for the 
Chemistry and Metallurgy Research Facility Replacement including the 
radiological laboratory/utility/office building expressed in 2011 
dollars are:


                                    Total Cost Over 50 Years              Average Annual Cost Over 50 Years

    Operations               $4,500,000K                            $90,000K
    Maintenance              $1,800,000K                            $35,000K



    Ms. Sanchez. What are the costs of decontamination and 
decommissioning of the CMRR and UPF, and are these costs included in 
the cost estimates for these facilities? Why/why not?
    Mr. D'Agostino. Since CMRR and UPF are planned to operate for 50 
years, the future costs of decontamination and decommissioning (D&D) of 
CMRR and UPF have not been determined.
    As reflected in the Construction Project Data Sheet for CMRR in the 
President's FY 2012 Congressional Budget request, the initial pre-
conceptual cost estimate range for D&D of the existing CMR facility is 
approximately $200M-$350M in non-escalated FY 2004 dollars.
    As reflected in the Construction Project Data Sheet for UPF in the 
President's FY 2012 Congressional Budget request, the D&D of Building 
9212 is included as part of the Integrated Facility Disposition Project 
proposed by the Office of Environmental Management to dispose of legacy 
facilities at Y-12 and Oak Ridge National Laboratory. Buildings 9215, 
9998, and 9204-2E are being evaluated for further consolidation of non-
Special Nuclear Material manufacturing functions. Since these buildings 
will not be immediately excess to program needs when UPF becomes 
operational, NNSA has no near term D&D plans for these facilities.
    Ms. Sanchez. Are we taking the necessary steps to build 
verification requirements into the CMRR and UPF facility designs to 
preserve flexibility for future arms control agreements?
    Mr. D'Agostino. While designs for CMRR and UPF are flexible, 
specific verification requirements of future agreements are unknown. 
The UPF facility design has been evaluated and determined to have an 
appropriate level of transparency within the ongoing design to 
accommodate expected activities related to our treaty obligations. UPF 
can accommodate access, and appropriate areas for monitoring and 
measuring of fissile material for inspection teams. The CMRR Nuclear 
Facility is not considered a production facility and is not anticipated 
to be subject to routine inspections.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Under Secretary Tauscher, during the November 2nd 
hearing you mentioned the EPAA is based on the SM-3 interceptor, 
implying the EPAA is comprised of proven systems; as you and I know, 
Phases II through IV of the EPAA will use new missiles and are 
experiencing technical difficulties. Indeed, the SM-3 Block IIB 
missile, slotted for phase IV of the EPAA, was entirely zeroed out by 
the SAC-D due its technical challenges and to devote more money to the 
SM-3 IB and IIA since they are also having challenges. It is also 
perplexing to assert the EPAA will be less expensive than the previous 
missile defense plan in Europe. The Missile Defense Agency currently 
does not have an estimate as to how much the EPAA will ultimately cost 
the U.S.; moreover, if the EPAA fails to deploy an effective SM-3 Block 
IIB, or GBIs as a hedge in the event Iran succeeds in developing an 
effective ICBM, the entire plan will fall woefully short of what the 
original plan was primarily supposed to do--provide added protection of 
the U.S. homeland. If the EPAA isn't even going to provide the same 
coverage of the U.S. as the original plan, than it makes no sense to 
compare their costs. In light of the these facts, please provide 
specific evidence supporting your statement that President Obama's 
approach to missile defense uses ``proven systems at a lower cost than 
the previous proposal.'' I have seen no evidence to support your 
statement, which causes concern for the viability of the entire EPAA.
    Secretary Tauscher. The EPAA includes a number of elements such as 
the SM-3 interceptor, the Aegis SPY-1 radar, and the AN/TPY-2 radar. 
The current version of the SM-3, the SM-3 Block IA, is deployed with 
the fleet today. The Aegis SPY-1 radar has been deployed on U.S. 
warships for over 30 years, and AN/TPY-2 radars have been deployed and 
operated in Japan and Israel for a number of years.
    One element of the basis for the statement is that the Standard 
Missile (SM)-3, at around $10 million per interceptor, is much cheaper 
than a GBI, which costs approximately $60 to $70 million per 
interceptor. This means that we can deploy many more SM-3 interceptors 
than GBIs at the same cost. Since Iran already possesses hundreds of 
short- and medium-range ballistic missiles, this additional defensive 
capability is critical. In addition, the EPAA relies on capabilities 
that are mobile and relocatable, so additional capabilities can 
``surge'' into the region in a crisis.
    It is important to note that the EPAA is not an acquisition program 
but a policy framework for delivering capabilities of which the 
principal attribute is flexibility. By design, it can adapt to changes 
in threats and available technologies.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Dr. Miller, in response to a question during this 
subcommittee's March 31, 2011 hearing on the budget for missile defense 
programs, your deputy, Dr. Brad Roberts stated, ``The Administration is 
considering additional steps to strengthen the U.S. hedge posture . . . 
we are evaluating the deployment timelines associated with fielding 
additional capabilities . . . we have committed to brief the Committee 
on the results of this work . . . once it is complete.'' And, you Dr. 
Miller, during this subcommittee's March 2 hearing, stated ``the 
Department is in the process of finalizing and refining its hedge 
strategy, and we will be pleased to brief this subcommittee on the 
results in a classified setting when it is complete.'' Dr. Miller, here 
we are eight months later and the Department has not released its 
hedging strategy. When can we expect to see it?
    Dr. Miller. The analysis conducted for the hedge strategy is 
informing the budget decisions under consideration as part of the 
development of the Department's fiscal year 2013 budget request. The 
Department will ensure that Congress is briefed on the results of the 
hedge strategy in early 2013.
    Mr. Lamborn. Do you agree with Secretary Gates who said at the 
Shangri-La Dialogue in Singapore in June, ``With the continued 
development of long-range missiles and potentially a road-mobile 
intercontinental ballistic missile and their continued development of 
nuclear weapons, North Korea is in the process of becoming a direct 
threat to the United States.'' And two weeks later he said, ``North 
Korea now constitutes a direct threat to the United States. The 
president told [China's] President Hu that last year. They are 
developing a road-mobile ICBM. I never would have dreamed they would go 
to a road-mobile before testing a static ICBM. It's a huge problem. As 
we've found out in a lot of places, finding mobile missiles is very 
tough.'' Do you concur with Secretary Gates' statements? Was the 
question of a North Korean road-mobile missile factored in to the 
decision in 2009 to abandon the Third Site and the deployment of 44 
ground based interceptors at the missile fields at Fort Greely and 
Vandenberg Air Force Base? If North Korea begins fielding an array of 
road mobile ICBMs, and if they proliferate this technology to Iran and 
other countries as in the past, what does such activity do to current 
judgments about the adequacy of the current inventory of GBIs?
    Dr. Miller. I agree with Secretary Gates' assessment that North 
Korea constitutes a direct threat to the United States, as it does to 
our South Korean and Japanese allies. North Korea's nuclear ambitions 
and continued development of long-range missiles remain a primary focus 
of the development and deployment of the Ballistic Missile Defense 
System (BMDS). The capabilities developed and deployed as part of the 
integrated BMDS protect the United States from the potential emergence 
of an ICBM threat from Iran or North Korea. To maintain this 
advantageous position, the Administration is taking steps to improve 
the protection of the homeland from the potential ICBM threat posed by 
Iran and North Korea. These steps include the continued procurement of 
ground-based interceptors (GBIs), the deployment of additional sensors, 
and upgrades to the Command, Control, Battle Management, and 
Communications system. Improvements to the Ground-based Midcourse 
Defense (GMD) system, in particular, will better protect the United 
States against future ICBM threats, whether from Iran, North Korea, or 
other regional actors.
    In the future, if projections regarding Iran or North Korea change 
significantly, then the United States should reassess its baseline 
program and consider implementing some elements of our hedge posture.
    Mr. Lamborn. This summer, when asked about the consequence of cuts 
to NNSA's modernization program, Secretary Gates said: ``This 
modernization program was very carefully worked out between ourselves 
and the . . . Department of Energy. And, frankly, where we came out on 
that also, I think, played a fairly significant role in the willingness 
of the Senate to ratify the New START agreement. So the risks are to 
our own program in terms of being able to extend the life of our weapon 
systems . . . this modernization project is, in my view, both from a 
security and a political standpoint, really important.'' Do you agree 
with Secretary Gates that the modernization project is very important 
both from a national security standpoint and from a perspective of 
sustaining support for the New START Treaty? What are the consequences 
of not funding the ``very carefully worked out'' plan for NNSA 
modernization?
    Dr. Miller. I agree with Secretary Gates that NNSA's modernization 
is very important to U.S. national security. The nuclear security 
enterprise remains, today and for the foreseeable future, the 
foundation of the U.S. deterrence strategy and defense posture. The 
Administration is committed to making the investments necessary to 
recapitalize the U.S. nuclear complex and to ensure we have the highly 
skilled personnel needed to maintain our nuclear capabilities.
    With the passing of the Budget Control Act (BCA), we now face new 
fiscal realities. These fiscal realities do not weaken our commitment 
to the safety, security, and effectiveness of the nuclear deterrent, 
but they must inform our path forward. The Administration is working to 
develop an FY13 budget request for NNSA that reflects these fiscal 
realities, but funds the core elements of the nuclear complex and meets 
military requirements.
    Without adequate funding for NNSA, the nuclear weapons life 
extension programs, nuclear infrastructure, and the retention of the 
people on which we depend to maintain a safe, secure, and effective 
nuclear arsenal would be at risk. Congressional participation in this 
process and commitment to continuing investments in these programs and 
capabilities is critical to the future health of our nuclear deterrent.
    Mr. Lamborn. The 2010 Nuclear Posture Review says that, ``by 
modernizing our aging nuclear facilities and investing in human 
capital, we can substantially reduce the number of nuclear weapons we 
retain as a hedge against technical or geopolitical surprise.'' It goes 
on to say that these modernization ``investments are essential to 
facilitating reductions while sustaining deterrence under New START and 
beyond.'' If we do not carry out the modernization program, what is 
your military opinion of the risks associated with nuclear stockpile 
reductions?
    General Kehler. Modernization and investment in our aging nuclear 
facilities and human capital are important to the sustainment of our 
nuclear weapons, the dismantlement of retired weapons and other non-
proliferation activities. There are increased risks if the 
modernization program is not executed and it is an important 
consideration in reducing the stockpile. I believe successful life 
extension programs are critical to strategic deterrence.
    Mr. Lamborn. This summer, when asked about the consequence of cuts 
to NNSA's modernization program, Secretary Gates said: ``This 
modernization program was very carefully worked out between ourselves 
and the . . . Department of Energy. And, frankly, where we came out on 
that also, I think, played a fairly significant role in the willingness 
of the Senate to ratify the New START agreement. So the risks are to 
our own program in terms of being able to extend the life of our weapon 
systems . . . this modernization project is, in my view, both from a 
security and a political standpoint, really important.'' Do you agree 
with Secretary Gates that the modernization project is very important 
both from a national security standpoint and from a perspective of 
sustaining support for the New START Treaty? What are the consequences 
of not funding the ``very carefully worked out'' plan for NNSA 
modernization?
    General Kehler. I agree the nation must recapitalize its nuclear 
capabilities as all of our nuclear weapon systems and facilities are 
``aged'' and require investment in the upcoming decades. The fiscal 
environment demands that we prioritize and synchronize the various 
platform, weapon and infrastructure modernization activities. 
Inadequate funding undermines our ability to provide a credible 
deterrent force to assure allies and respond appropriately, as directed 
by the President, if deterrence fails.
    Mr. Lamborn. This summer, when asked about the consequence of cuts 
to NNSA's modernization program, Secretary Gates said: ``This 
modernization program was very carefully worked out between ourselves 
and the . . . Department of Energy. And, frankly, where we came out on 
that also, I think, played a fairly significant role in the willingness 
of the Senate to ratify the New START agreement. So the risks are to 
our own program in terms of being able to extend the life of our weapon 
systems . . . this modernization project is, in my view, both from a 
security and a political standpoint, really important.'' Do you agree 
with Secretary Gates that the modernization project is very important 
both from a national security standpoint and from a perspective of 
sustaining support for the New START Treaty? What are the consequences 
of not funding the ``very carefully worked out'' plan for NNSA 
modernization?
    Secretary Tauscher. Yes. A credible and affordable modernization 
plan is necessary to sustain the nuclear infrastructure and support our 
nation's deterrent. NNSA will continue to update and improve the exact 
details of these modernization plans as it completes the designs and 
analyzes the infrastructure needed to support the stockpile. The 
programs and capabilities of our long-term modernization plans for the 
nuclear infrastructure remain important both from a national security 
standpoint and from a perspective of sustaining support for the New 
START Treaty.
    Mr. Lamborn. This summer, when asked about the consequence of cuts 
to NNSA's modernization program, Secretary Gates said: ``This 
modernization program was very carefully worked out between ourselves 
and the . . . Department of Energy. And, frankly, where we came out on 
that also, I think, played a fairly significant role in the willingness 
of the Senate to ratify the New START agreement. So the risks are to 
our own program in terms of being able to extend the life of our weapon 
systems . . . this modernization project is, in my view, both from a 
security and a political standpoint, really important.'' Do you agree 
with Secretary Gates that the modernization project is very important 
both from a national security standpoint and from a perspective of 
sustaining support for the New START Treaty? What are the consequences 
of not funding the ``very carefully worked out'' plan for NNSA 
modernization?
    Mr. D'Agostino. We agree that modernization is important and we 
urge the Congress to provide funding. The consequence for not funding 
the NNSA modernization plan is increased risk to the long-term 
maintenance of the U.S. stockpile and deterrence in general. The plan 
for modernization of the complex was carefully crafted through 
concerted interaction between the Departments of Energy and Defense. It 
was based on national strategic planning outlined in the April 2010 
Nuclear Posture Review (NPR). This stockpile planning has been 
carefully formulated in the Stockpile Stewardship and Management Plan 
(SSMP) as a flow of complex activities over the next two decades. In 
some cases, decreases in funding would risk cessation or reduction of 
key activities (such as certain complex experiments and nuclear 
component manufacturing). Additional analysis will be undertaken, often 
in consultation with the Department of Defense, to minimize or 
eliminate such risks.
    The New START Treaty is an important part of our security strategy 
and provides transparency and stability between the world's two major 
nuclear powers and will remain in our interest as long as we face 
nuclear challenges.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. Dr. Miller, as you know, this committee has been 
concerned about what a U.S.-Russia missile defense agreement negotiated 
by the Obama Administration might look like. Specifically, the 
provision I authored in this year's national defense authorization act 
would prohibit the exchange of sensitive missile defense sensor data 
and technology, such as our hit-to-kill technology. I note that the 
Administration expressed concern about this provision but it did not 
rise to the level of a veto threat. Several weeks ago, the Russian 
newspaper Kommersant published a report that a heretofore secret 
agreement tabled by Ms. Tauscher--I say secret because nothing about 
this ``agreement'' was briefed to Congress--with her Russian 
counterpart that President Obama actually had to reject. Surely, as a 
former congressional staffer, Dr. Miller, you understand that the 
Congress has a vital oversight function. In the absence of transparency 
by the Administration, the Congress has no choice but to resort to 
legislative provisions such as the amendment I offered. Would you 
please provide us get a copy of that draft agreement? It appears that 
now it is even circulating in the Russian press.
    Dr. Miller. The Administration is committed to keeping Congress 
informed of its missile defense efforts. The Administration is 
currently pursuing a political framework with the Russian Federation 
that could open the way for practical cooperation with Russia on 
missile defense. There are a variety of ways to establish such a 
political framework; no agreement has been reached on the content or 
format of any such framework to date. Any finalized statement will be 
shared with Congress. The Administration has been clear that it will 
not agree to any constraints or limitations on U.S. and NATO missile 
defense systems. As such, any political framework we reach with the 
Russian Federation would not be a legally binding agreement. I have 
passed your specific request to the Department of State.
    Mr. Brooks. Ms. Tauscher, as you know, this committee has been 
concerned about what a U.S.-Russia missile defense agreement negotiated 
by the Obama Administration might look like. Specifically, the 
provision I authored in this year's national defense authorization act 
would prohibit the exchange of sensitive missile defense sensor data 
and technology, such as our hit-to-kill technology. I note that the 
Administration expressed concern about this provision but it did not 
rise to the level of a veto threat. Several weeks ago, the Russian 
newspaper Kommersant published a report that a heretofore secret 
agreement tabled by you--I say secret because nothing about this 
``agreement'' was briefed to Congress--with your Russian counterpart 
that President Obama actually had to reject. Surely, as a former Member 
of Congress, you understand that the Congress has a vital oversight 
function. In the absence of transparency by the Administration, the 
Congress has no choice but to resort to legislative provisions such as 
the amendment I offered. Would you please provide us get a copy of that 
draft agreement? It appears that now it is even circulating in the 
Russian press.
    Secretary Tauscher. The Administration is committed to keeping 
Congress informed of its missile defense efforts. We have provided 
numerous senior level briefings to the Congress on our efforts to 
cooperate with Russia on missile defense. The most recent briefing for 
this Committee was held on December 21, 2011. The Administration is 
currently pursuing a political framework that would open the way for 
practical cooperation with Russia on missile defense. There are a 
variety of ways to establish such a political framework. No agreement 
has been reached on the content, and no decision has been made on a 
format. The political framework would not be a legally binding 
agreement. Any finalized statement will be shared with Congress. The 
Administration has been clear that it will not agree to any constraints 
limiting the development or deployment of U.S. and NATO missile defense 
systems.
    Mr. Brooks. The State Department has been negotiating a Defense 
Technology Cooperation Agreement (DTCA) with Russia since the beginning 
of the Obama Administration, but a copy of a draft of that agreement 
has never been shared with this committee or anywhere in the Congress 
as far as I am aware. Ms. Tauscher, by refusing to share this draft 
document with the Congress, it appears that the Administration seems to 
trust the Russians more than Congress.
    a. Can you help us resolve this situation? Can you make clear for 
the members of this subcommittee whether the United States will share 
with the Russian Federation telemetric information on U.S. missile 
defense interceptor or target vehicles? Do you understand why the House 
passed my amendment prohibiting the sharing of ``sensitive'' missile 
defense information with the Russians when we can't even see what 
you're offering them? This is not the only concern, with such 
information sharing, but it is a weighty one. Are you willing to share 
any classified U.S. missile defense technology with Russia? What 
classified information is Russia willing to share with us?
    b. Perhaps most distressing is talk of guarantees for Russia 
concerning our missile defenses. Ms. Tauscher, can you please tell us 
the Administration position concerning missile defense agreements and 
guarantees for Russia? What of NATO guarantees? We are told that the 
United States may outsource to NATO, perhaps at the May 2012 Chicago 
NATO Summit, political guarantees to Russia about our missile defenses. 
Is that something you and the State Department would support? Regarding 
the guarantees the Obama Administration is willing to provide, would 
you see any reason a future Administration wouldn't be able to just 
walk away from the guarantees the Obama Administration is willing to 
provide, would you see any reason a future Administration wouldn't be 
able to just walk away from the guarantee you're offering? Would there 
be geopolitical costs to doing so? Two weeks ago, in the news clips 
distributed to members of this committee, where was a press report 
concerning Russia's S-500 ICBM-killer missile defense system. Why is so 
much time spent addressing Russian concerns about our missile defense 
system with regards to their deterrent when never a peep is heard about 
the extensive Russian missile defense system and is implications for 
the U.S. deterrent?
    Secretary Tauscher. a. The Department of Defense is negotiating a 
DTCA with Russia. Such negotiations have been ongoing since initiated 
during the Bush Administration in 2004. We will not provide Russia with 
sensitive information about our missile defense systems that would in 
any way compromise our national security. For example, hit-to-kill 
technology and interceptor telemetry will not, under any circumstances, 
be provided to Russia.
    However, in the event that the exchange of classified information 
with Russia on missile defense will increase the President's ability to 
defend the American people, U.S. deployed forces, allies, and partners, 
the President will retain the right to do so. These factors are the 
same ones that motivated the last Administration to have determined 
that some classified information exchange with Russia on missile 
defense would benefit the United States.
    In those circumstances where an exchange of sensitive data with 
Russia would benefit the national security of the United States, the 
Administration will only do so contingent on an agreement regarding 
information handling and protection, including the prohibition of 
access to such information by third parties. Additionally, any Russian 
access to classified information would be strictly governed by U.S. 
National Disclosure Policy and other applicable laws, including a 
determination that such exchange benefits the United States. The 
President has also ordered us to closely consult with the appropriate 
Members of Congress before the exchange of classified information with 
Russia.
    b. The Administration has consistently stated that it will not 
agree to legally binding restrictions or limitations on U.S. or NATO 
missile defenses. The Administration has stated, publicly and 
privately, that the missile defense system being established in Europe 
is not directed against Russia. The Administration is prepared to put 
the same statement in writing as part of a political framework that 
would open the way for practical cooperation with Russia on missile 
defense. There are a variety of ways to establish such a political 
framework. No agreement has been reached on the content, and no 
decision has been made on a format. The political framework would not 
be a legally binding agreement. The Administration would also support, 
in coordination with and subject to agreement by all Allies, such a 
statement by NATO.
    With Russia, the Administration is pursuing an agenda aimed at 
bringing the strategic military postures of our two countries into 
alignment with our post-Cold War relationship--no longer enemies, no 
significant prospect of war between us, and cooperating when mutually 
advantageous. Therefore, Russia is not the focus of U.S. BMD.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. FLEMING
    Dr. Fleming. When will the New START force structure be determined? 
When does it need to be determined in order to achieve implementation 
not later than February 2017? Specifically, with respect to potential 
strategic force reductions under New START:
    a. Are the full costs of eliminating, converting from deployed to 
non-deployed, and converting to non-nuclear status DOD systems known by 
the Department?
    b. If the Navy and STRATCOM are comfortable with 192 launchers on 
12 SSBN-X submarines based on the assumption that New START levels will 
be those required in 2027 and beyond, meaning 48 fewer launchers than 
suggested for the submarine-based deterrent in the original 1251 plan, 
what other reductions are needed to the ICBM and bomber legs to comply 
with the New START limits?
    Dr. Miller. To date, no final decisions have been made with respect 
to future force structure or the modernization plans for nuclear 
delivery systems; such decisions will be informed by the 
Administration's ongoing Nuclear Posture Review (NPR) Implementation 
Study. These decisions will be consistent with the goals of the NPR, 
including maintaining strategic stability, providing assurance to our 
Allies and partners regarding the credibility of the U.S. nuclear 
umbrella and other security commitments, and maintaining a safe, 
secure, and effective nuclear deterrent.
    The final costs of implementing New START Treaty will be dependent 
on decisions concerning the future force structure, conversion and 
elimination procedures, facility requirements for supporting 
inspections or conversion and elimination procedures, and possibly the 
development of additional inspection equipment. Although the NPR 
provided certain recommendations concerning force structure, it did not 
specify a New START Treaty-compliant structure nor set the schedule for 
its implementation, aside from a seven-year implementation period of 
the Treaty. Costs will also be dependent on the procedures that are 
selected for the conversion or elimination of U.S. strategic offensive 
arms. The Treaty provides the flexibility for the United States to 
decide what conversion or elimination procedures are most suitable 
given its strategic requirements.
    Dr. Fleming. One of the binding conditions (condition 9(B)) of the 
Senate's Resolution of Ratification for the New START Treaty says: ``If 
appropriations are enacted that fail to meet the resource requirements 
set forth in the President's 10-year [Section 1251] plan . . . the 
President shall submit to Congress, within 60 days of such enactment . 
. . a report detailing--(1) how the President proposes to remedy the 
resource shortfall; (2) if additional resources are required, the 
proposed level of funding required and an identification of the 
stockpile work, campaign, facility, site, asset, program, operation, 
activity, construction, or project for which additional funds are 
required; (3) the impact of the resource shortfall on the safety, 
reliability, and performance of United States nuclear forces; and (4) 
whether and why, in the changed circumstances brought about by the 
resource shortfall, it remains in the national interest of the United 
States to remain a Party to the New START Treaty.''
    a. Administrator D'Agostino, General Kehler, and Dr. Miller: Which 
of you is responsible for this report? Has the President delegated his 
responsibility on this requirement from the Resolution of Ratification?
    b. The current continuing resolution funds NNSA's modernization 
plans well-below the FY12 levels laid out in the 1251 plan--essentially 
at a level 1.5% below FY11. Is the administration preparing a report 
for submission to Congress per this requirement? Please submit such a 
report, in writing, prior to the expiration of the current CR.
    c. If the funding levels for Weapons Activities in the Energy and 
Water appropriations bills in the House and Senate are enacted, or if 
sequestration or a budget deal results in funding for Weapons 
Activities less than that laid out in the Section 1251 plan, will the 
administration submit a report per this binding condition?
    Dr. Miller. The President has not delegated his responsibility on 
this requirement from the Resolution of Ratification. Should there be a 
resource shortfall, DOD would expect to work closely with the National 
Security Staff (NSS) and National Nuclear Security Administration 
(NNSA) in drafting the President's report specified in Condition 9(B) 
of the Senate's Resolution of Ratification for the New START Treaty. At 
this time, it would be inappropriate to assume that a resource 
shortfall exists; the Administration continues to support full funding 
in an Appropriations bill.
    Dr. Fleming. When will the New START force structure be determined? 
When does it need to be determined in order to achieve implementation 
not later than February 2017? Specifically, with respect to potential 
strategic force reductions under New START:
    a. Are the full costs of eliminating, converting from deployed to 
non-deployed, and converting to non-nuclear status DOD systems known by 
the Department?
    b. If the Navy and STRATCOM are comfortable with 192 launchers on 
12 SSBN-X submarines based on the assumption that New START levels will 
be those required in 2027 and beyond, meaning 48 fewer launchers than 
suggested for the submarine-based deterrent in the original 1251 plan, 
what other reductions are needed to the ICBM and bomber legs to comply 
with the New START limits?
    General Kehler. Discussions regarding final nuclear force structure 
for New START are ongoing. Once a final force structure decision is 
reached Services will be able to finalize costs to conduct any 
necessary conversions, eliminations, and non-deployment of systems.
    A. The Air Force and the Navy estimates of expected costs are based 
on the force structure detailed in the current 1251 Report. Once a 
decision has been made on a final force structure the Services will 
refine estimates.
    B. The Ohio Replacement SSBN will not enter strategic service until 
after New START has expired. The future strategic environment and other 
factors will ultimately determine future force structure requirements.
    Dr. Fleming. General Kehler, as you know B-52 and B-2 bombers are 
hardened to protect them from electromagnetic radiation in the event of 
a nearby nuclear detonation.
    a. Why is this hardening important in terms of STRATCOM's 
operational construct?
    b. Will the next generation bomber be nuclear-hardened as well?
    c. Can STRATCOM estimate the additional developmental and life 
cycle costs associated with hardening the next generation bomber?
    d. General Kehler, you stated at a recent breakfast with the 
Defense Writers Group (10-18-11) that the follow-on bomber ``has to be 
long range.'' Can you please elaborate on the importance of this 
concept? Also, can you describe what its combat payload will be 
relative to our current heavy bombers, the B-52 and B-2?
    e. Will it be nuclear certified from Initial Operational 
Capability? If not, why?
    f. Please describe in detail STRATCOM's requirements for warhead 
modernization on the next ALCM, a.k.a., the long-range standoff 
missile. Has STRATCOM performed an analysis of alternatives on warhead 
options, and what the projected costs for each alternative are? Is the 
W84 one of the alternatives being studied? If yes, do a sufficient 
number of W84s exist in the enduring stockpile to fulfill the 
requirement?
    General Kehler. A. Bombers must be capable of operating in a 
variety of environments, to include nuclear effects environments--
hardening directly supports bomber survivability and effectiveness, 
underwriting deterrence and assurance.
    B. Yes, USSTRATCOM has conveyed a requirement for a nuclear 
hardened bomber to the Air Force.
    C. The Air Force is not at a point in the development process that 
would enable a detailed cost estimate for the new bomber. We anticipate 
hardening to be a relatively small percentage of the overall cost, if 
incorporated in initial designs.
    D. Denying geographic sanctuary to potential adversaries is an 
important aspect of deterrence. The new bomber must have sufficient 
range to hold targets that adversaries value at risk. Trades concerning 
specific capabilities e.g. payload and range, are being evaluated.
    E. The new bomber will be nuclear capable, but nuclear 
certification timeline decisions have yet to be made.
    F. The next ALCM requires a safe, secure and effective warhead. The 
Air Force is conducting an analysis of alternatives including a 
specific working group with USSTRATCOM representatives to examine 
warhead alternatives, including the W84. The alternatives will require 
varying investments; however, a detailed concept and cost study has not 
been started. There are not enough W84 assets to field a cruise missile 
replacement at current ALCM levels.
    Dr. Fleming. General Kehler, please explain in detail why the B61 
LEP is important to the bomber leg of our strategic deterrent.
    General Kehler. The B61 is an important part of DOD's long range 
planning to ensure the bomber leg of the strategic deterrent remains 
credible. The B61 LEP will provide a refurbished weapon capable of 
being employed on the B-2 and integrated with a future bomber. 
Additionally, the B61 nuclear package will be evaluated for 
incorporation into a future stand-off missile.
    Dr. Fleming. One of the binding conditions (condition 9(B)) of the 
Senate's Resolution of Ratification for the New START Treaty says: ``If 
appropriations are enacted that fail to meet the resource requirements 
set forth in the President's 10-year [Section 1251] plan . . . the 
President shall submit to Congress, within 60 days of such enactment . 
. . a report detailing--(1) how the President proposes to remedy the 
resource shortfall; (2) if additional resources are required, the 
proposed level of funding required and an identification of the 
stockpile work, campaign, facility, site, asset, program, operation, 
activity, construction, or project for which additional funds are 
required; (3) the impact of the resource shortfall on the safety, 
reliability, and performance of United States nuclear forces; and (4) 
whether and why, in the changed circumstances brought about by the 
resource shortfall, it remains in the national interest of the United 
States to remain a Party to the New START Treaty.''
    a. Administrator D'Agostino, General Kehler, and Dr. Miller: Which 
of you is responsible for this report? Has the President delegated his 
responsibility on this requirement from the Resolution of Ratification?
    b. The current continuing resolution funds NNSA's modernization 
plans well-below the FY12 levels laid out in the 1251 plan--essentially 
at a level 1.5% below FY11. Is the administration preparing a report 
for submission to Congress per this requirement? Please submit such a 
report, in writing, prior to the expiration of the current CR.
    c. If the funding levels for Weapons Activities in the Energy and 
Water appropriations bills in the House and Senate are enacted, or if 
sequestration or a budget deal results in funding for Weapons 
Activities less than that laid out in the Section 1251 plan, will the 
administration submit a report per this binding condition?
    General Kehler. A number of agencies are responsible for inputs to, 
and review of the report, including USSTRATCOM. The President has not 
yet delegated his responsibility on this requirement from the 
Resolution of Ratification, but USSTRATCOM stands ready to assist as 
needed.
    Dr. Fleming. Ms. Tauscher, please explain in detail why the B61 LEP 
is important to our allies.
    Secretary Tauscher. The B61 life extension program (LEP) will 
ensure its functionality with the dual capable aircraft as well as 
ensure continued confidence in the warhead's safety, security, and 
effectiveness. The B61 LEP will ensure that the United States maintains 
the capability to forward deploy U.S. nonstrategic nuclear weapons to 
Europe in support of its Alliance commitments and that our arsenal is 
safe, secure, and effective. The decision to conduct a B61 LEP does not 
presume the results of future decisions within NATO about the 
requirements of nuclear deterrence and nuclear sharing, but keeps all 
options open.
    Likewise, the B61 plays a significant role in assuring our allies 
in Asia. As you know, as a result of our Nuclear Posture Review, the 
United States will retire the TLAM-N. That decision was made after 
close consultation with our allies, during which we assured them that 
there would be no diminution of our extended deterrence commitment and 
capabilities. The B61 is an important component of those capabilities.
    Dr. Fleming. Mr. D'Agostino, please explain in detail why the B61 
LEP is needed, both for the extended deterrent in Europe and to the 
bomber leg of the U.S. TRIAD.
    Mr. D'Agostino. The B61 Life Extension Program (LEP) supports the 
sustainment of the U.S. strategic and non-strategic nuclear capability. 
Consistent with U.S. commitments to the North Atlantic Treaty 
Organization (NATO) and the findings of the 2010 Nuclear Posture 
Review, the B61 LEP will ensure the U.S. retains its capability to 
forward-deploy non-strategic nuclear weapons in support of its Alliance 
commitments. Furthermore, it is a key component of the air-delivered 
strategic deterrent and ensures continued contribution of the bomber 
leg of the Triad to nuclear deterrence.
    The B61 bomb is one of the oldest warheads in the stockpile and has 
components dating from the 1960's, such as vacuum tube radars. The B61 
LEP provides the opportunity to include modern safety and security 
technologies, sustain system effectiveness, optimize NNSA production 
capacity, and reduce costs over the long-term.
    Dr. Fleming. One of the binding conditions (condition 9(B)) of the 
Senate's Resolution of Ratification for the New START Treaty says: ``If 
appropriations are enacted that fail to meet the resource requirements 
set forth in the President's 10-year [Section 1251] plan . . . the 
President shall submit to Congress, within 60 days of such enactment . 
. . a report detailing--(1) how the President proposes to remedy the 
resource shortfall; (2) if additional resources are required, the 
proposed level of funding required and an identification of the 
stockpile work, campaign, facility, site, asset, program, operation, 
activity, construction, or project for which additional funds are 
required; (3) the impact of the resource shortfall on the safety, 
reliability, and performance of United States nuclear forces; and (4) 
whether and why, in the changed circumstances brought about by the 
resource shortfall, it remains in the national interest of the United 
States to remain a Party to the New START Treaty.''
    a. Administrator D'Agostino, General Kehler, and Dr. Miller: Which 
of you is responsible for this report? Has the President delegated his 
responsibility on this requirement from the Resolution of Ratification?
    b. The current continuing resolution funds NNSA's modernization 
plans well-below the FY12 levels laid out in the 1251 plan--essentially 
at a level 1.5% below FY11. Is the administration preparing a report 
for submission to Congress per this requirement? Please submit such a 
report, in writing, prior to the expiration of the current CR.
    c. If the funding levels for Weapons Activities in the Energy and 
Water appropriations bills in the House and Senate are enacted, or if 
sequestration or a budget deal results in funding for Weapons 
Activities less than that laid out in the Section 1251 plan, will the 
administration submit a report per this binding condition?
    Mr. D'Agostino. The main responsibility for this report lies with 
the Department of Defense. Should there be a resource shortfall, NNSA 
would work closely with the DOD in drafting the President's report 
specified in Condition 9(B) of the Senate's Resolution of Advice and 
Consent to Ratification for the New START Treaty.
    While we recognize that fiscal austerity will constrain spending on 
national security programs in the years ahead, our strategic and 
extended deterrence will continue to be the top priority. The President 
committed to modernizing our nuclear weapons and infrastructure after 
completion of the 2010 Nuclear Posture Review--including a commitment 
to pursue these programs and capabilities for as long as he is 
President. Even in this difficult budget climate, the President's 
budget for NNSA continues to consistently reflect those commitments.
    The Department of Defense contributed significantly to the 
preparation of NNSA's budget requests for FY2011 and FY2012, and is 
prepared to continue support at least through FY2016. These 
contributions are reflective of the close linkage between NNSA's 
nuclear weapons programs and the specific needs of its partner, the 
Department of Defense. Without adequate funding for NNSA, however, the 
nuclear weapons life extension programs, nuclear infrastructure 
modernization, and the retention of the people on which we depend to 
maintain a safe, secure, and effective nuclear arsenal, may be at risk 
and will continue to be analyzed in consultation with the Department of 
Defense.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. How is deterring China different from deterring Russia?
    a. How is providing extended deterrence in Europe different than 
doing so in East Asia?
    b. During a recent Strategic Forces Subcommittee hearing on the 
nuclear weapons programs of Russia and the People's Republic of China, 
Dr. Mark Schneider stated:
    ``We know a lot less about China overall than we know about the 
Russians in nuclear capability, if for no other reason that the 
Russians talk about it all the time, where the Chinese are fairly 
secretive. I think you can find deliberate leaks by the PLA in Hong 
Kong Press. I think they are using that as a mechanism of debating some 
issues that they can't openly debate in China. But I suspect we are 
going to see a very large increase in Chinese capability, including 
extensive MIRVing.''
    How do we hedge the uncertainty in our understanding of China's 
nuclear weapons program? How will this be reflected in the 
Administration's mini-NPR on nuclear weapons targeting? Why do you 
think China has a large underground tunnel complex for its second 
artillery?
    Dr. Miller. Fundamentally, deterrence requires that, in the 
calculations of any potential adversary, the perceived gains of 
attacking the United States or its allies and partners would be far 
outweighed by the unacceptable costs of the response. But in seeking to 
deter potential adversaries, there is no ``one size fits all'' 
approach. The requirements of deterrence vary by circumstance, 
including the capabilities of the adversary, the nature of the issue in 
dispute, and the ability and willingness of the adversary to escalate--
and to exercise restraint. Uncertainty is an enduring feature of the 
deterrence equation, though the United States makes a priority of 
trying to reduce such uncertainty with detailed assessments of the 
intentions and capabilities of potential adversaries. Uncertainty about 
the potential future nuclear weapons capabilities of other states is 
also an enduring theme of U.S. deterrence policy. Every President in 
the nuclear era has sought to have some capacity to respond to a 
significant erosion of the nuclear security environment. The United 
States hedges against such uncertainty by ensuring that it has the 
technical means to cope with geopolitical surprise, with a mix of 
short-term responses (such as the potential to up-load existing weapons 
onto existing delivery systems) and long-term responses (the production 
and deployment of new capabilities). The requirements of this hedge are 
one of the many elements in review in the NPR Implementation Study.
    China's large underground tunnel complex fits well with China's 
overall military strategy. It enables China to conceal capabilities, in 
a manner consistent with its general lack of transparency. And it helps 
to ensure that its leadership and any hidden capabilities survive 
attack.
    Providing extended deterrence to Allies in NATO and in East Asia is 
similar in some ways and different in others. It is similar in a) an 
appropriate mix of nuclear and non-nuclear capabilities; b) a 
combination of capability and credibility to effectively deter 
potential adversaries and assure Allies; c) appropriate consultations 
between the United States and Allies; and d) adjustments over time to 
account for changes in the security environment.
    Providing extended deterrence to Allies in NATO and in East Asia is 
different in several respects, including: a) different mutual 
expectations about the specific modalities of nuclear deployments, as 
reflected in differing historical practices; and b) different 
assessments of the specific requirements for deterring potential 
adversaries.
    Mr. Scott. Some budget cutting proposals that are circulating have 
suggested significantly reducing the size of our intercontinental 
ballistic missile (ICBM) force to save money. For instance, eliminating 
one-third of the ICBM force by cutting one of the three wings.
    a. Does the New START Treaty require us to close down an entire 
ICBM wing to meet its deployed strategic launcher limit? What about 
eliminating a squadron?
    i. Would such a cut amount to a unilateral reduction in delivery 
vehicles?
    ii. Is such a reduction being considered in the 90-day NPR 
Implementation Study?
    b. Based on the most recent public data released as part of a New 
START Treaty data exchange, if we were to eliminate 150 ICBMs this 
would be more than enough to put us below the 700 deployed strategic 
launchers limit. Would we then retain all of our forces in the other 
legs of the triad, to remain at or near the New START limit?
    c. Please describe when de-MIRVing of our ICBMs will begin to occur 
under the 2010 NPR. Please describe when DOD intends to have that 
process and completed, how much it will cost, and how the skill set 
required to upload in the event that is necessary will be maintained.
    Dr. Miller. The New START Treaty does not require the United States 
to reduce any specific element of its strategic forces. To date, no 
final decisions have been made with respect to future strategic nuclear 
force structure; such decisions will be informed by the 
Administration's ongoing NPR implementation study.
    The elimination of 150 deployed ICBMs, if that were to be decided 
(and to respond to your specific conjecture) would allow the United 
States to retain all or virtually all of its current deployed strategic 
forces in the other legs of the Triad under the limits of the New START 
Treaty. Force structure decisions will be consistent with the goals of 
the Nuclear Posture Review (NPR), including maintaining strategic 
stability, providing assurance to our Allies and partners of the 
credibility of the U.S. nuclear umbrella and other security 
commitments, and maintaining a safe, secure, and effective nuclear 
deterrent. I expect a final decision regarding the specific force mix 
for New START Treaty implementation to be made following the conclusion 
of the NPR implementation study in the near term.
    The ``de-MIRVing'' (reduction of Multiple Independent Reentry 
Vehicle capability) of our ICBM forces has already begun. In order to 
maximize safety and security, we have allowed the Air Force to begin 
de-MIRVing ICBMs in conjunction with its previously established 
maintenance plans. This minimizes disruption to our operational forces 
and is the most cost-effective method for carrying out the NPR guidance 
to de-MIRV the ICBM force.
    Mr. Scott. How is deterring China different from deterring Russia?
    a. How is providing extended deterrence in Europe different than 
doing so in East Asia?
    b. During a recent Strategic Forces Subcommittee hearing on the 
nuclear weapons programs of Russia and the People's Republic of China, 
Dr. Mark Schneider stated:
    ``We know a lot less about China overall than we know about the 
Russians in nuclear capability, if for no other reason that the 
Russians talk about it all the time, where the Chinese are fairly 
secretive. I think you can find deliberate leaks by the PLA in Hong 
Kong Press. I think they are using that as a mechanism of debating some 
issues that they can't openly debate in China. But I suspect we are 
going to see a very large increase in Chinese capability, including 
extensive MIRVing.''
    How do we hedge the uncertainty in our understanding of China's 
nuclear weapons program? How will this be reflected in the 
Administration's mini-NPR on nuclear weapons targeting? Why do you 
think China has a large underground tunnel complex for its second 
artillery?
    General Kehler. The primary difference in how extended deterrence 
is provided today is that in Europe we have forward deployed non-
strategic nuclear capabilities and robust nuclear burden sharing 
commitments with our NATO allies. We do not have forward deployed non-
strategic nuclear capabilities in East Asia.
    In general we hedge against uncertainty, both geopolitical and 
technical, by retention of non-deployed warheads in the stockpile in 
order to provide the ability to increase warhead loading on our 
existing nuclear systems, and through our infrastructure's ability to 
diagnose and repair weapons that develop technical problems. Today, 
this hedge relies more heavily on the stockpile, but as our 
infrastructure is modernized it will assume a larger share of the 
required capability. The ongoing follow-on analysis to the NPR is 
examining our hedge requirements.
    Since the early 1950s, the PLA has employed underground tunnels to 
protect and conceal its vital assets. These likely include both nuclear 
and conventional missile forces.
    Mr. Scott. Some budget cutting proposals that are circulating have 
suggested significantly reducing the size of our intercontinental 
ballistic missile (ICBM) force to save money. For instance, eliminating 
one-third of the ICBM force by cutting one of the three wings.
    a. Does the New START Treaty require us to close down an entire 
ICBM wing to meet its deployed strategic launcher limit? What about 
eliminating a squadron?
    i. Would such a cut amount to a unilateral reduction in delivery 
vehicles?
    ii. If we were to eliminate a third of our ICBM force, how would 
you like to see our future SSBN force structured (number of boats, 
number of tubes, etc.)? Are the size and makeup of the ICBM and SSBN 
forces linked? How?
    iii. Would you support such a cut? Have you done any analysis that 
would support a cut of 150 ICBMs?
    b. Based on the most recent public data released as part of a New 
START Treaty data exchange, if we were to eliminate 150 ICBMs this 
would be more than enough to put us below the 700 deployed strategic 
launchers limit. Would we then retain all of our forces in the other 
legs of the triad, to remain at or near the New START limit?
    c. Please describe when de-MIRVing of our ICBMs will begin to occur 
under the 2010 NPR. Please describe when DOD intends to have that 
process and completed, how much it will cost, and how the skill set 
required to upload in the event that is necessary will be maintained.
    General Kehler. A. No, New START provides considerable flexibility 
to manage the deployed force and meet strategic deterrent requirements 
in a cost effective and safe manner over the duration of the treaty.
    i. The treaty provides the flexibility to manage the deployed force 
within central limits, not to exceed 700 deployed strategic delivery 
vehicles (SDVs). My principle concern is ensuring the strategy 
objectives are met and deterrence and stability are maintained while 
ensuring we are as cost efficient as possible.
    ii. Any decision to reduce Minuteman and subsequently change SSBN 
and bomber force structures must be based on strategy. The size and 
makeup of the SSBN and ICBM forces are complementary. Sufficient 
ballistic missile capabilities must be retained to address strategy 
requirements. Therefore, potential adjustments in Minuteman would 
result in a reassessment of the entire force structure.
    iii. Any adjustment to Minuteman must be strategy based. USSTRATCOM 
is participating in the ongoing National Security Staff (NSS)-led 
interagency activity and is providing analysis and military advice to 
OSD and the Joint Staff. Any detailed discussion of that analysis and 
potential implications to our current force structure is premature.
    B. Not necessarily. I am concerned about meeting policy and 
strategy objectives and maintaining deterrence and stability. New START 
provides the U.S. considerable flexibility in determining the 
composition and structure of its strategic offensive arms. New START 
provides the option of retaining force structure, if required, and 
deployed strategic launchers should be viewed as a ``ceiling'' not a 
``floor,'' so we can meet our operational needs with flexibility.
    C. We are working with the Air Force to develop plans to begin de-
MIRVing Minuteman in FY12. There are many factors that impact 
completion date including integration with other maintenance activities 
and weather. In the near-term, skills to accomplish re-MIRVing is not 
an issue. I have asked the Air Force to develop long-term re-MIRVing 
plans to include cost and skill set retention.
    Mr. Scott. Under Secretary Tauscher, we hear the Russians are 
placing certain conditions on starting any new arms control talks--in 
other words, Russia is saying these conditions must be met before any 
negotiations can begin on another arms control agreement. For instance, 
we have heard that Russia is demanding that U.S. nuclear weapons be 
removed from Europe, that we destroy the infrastructure in Europe that 
supports those weapons so that they cannot be easily redeployed, and 
that NATO allies cease training for the nuclear mission. Is this 
correct? What other conditions is Russia saying must be met by the U.S. 
before negotiations can begin? What conditions is the United States 
saying must be met by Russia before negotiations can begin?
    Secretary Tauscher. Some Russian officials have suggested that 
several issues should be considered in future discussions, but whether 
those suggestions amount to preconditions remains unclear. In regards 
to tactical nuclear weapons, Russian Foreign Minister Lavrov on March 
1, 2011, stated at the UN Conference on Disarmament that the ``first 
step'' towards reductions in these weapons should be the ``withdrawal 
of tactical nuclear weapons to the territory of the State to which they 
belong as well as removal of the infrastructure for their deployment 
abroad.''
    The United States rejects preconditions for discussions with Russia 
to reduce nuclear weapons. The President has certified to the Senate 
and the United States has made clear to the Russians that we seek to 
initiate negotiations with the Russian Federation on an agreement to 
address the disparity between the nonstrategic nuclear weapons 
stockpiles of the Russian Federation and the United States and to 
secure and reduce these weapons in a verifiable manner and that such 
negotiations shall not include defensive missile systems. Indeed, the 
United States is committed to continuing a step-by-step process, as 
outlined by President Obama in Prague in 2009, to reduce the overall 
number of nuclear weapons, including the pursuit of a future agreement 
with Russia for broad reductions in all categories of nuclear weapons: 
strategic, nonstrategic, deployed and nondeployed.
    As a first step, we want to have a broad policy discussion with 
Russia on stability, security, and confidence-building, which will help 
lay the groundwork for eventual further nuclear arms reductions.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
